           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION


 PERFORMANCE MEASURE REVIEW:

         SUMMARY OF

 PRICEWATERHOUSECOOPERS, LLP

        REVIEW OF SSA'S

      PERFORMANCE DATA


    MARCH 2000   A-02-00-20024




AUDIT REPORT

                             Office of the Inspector General

March 21, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Summary of PricewaterhouseCoopers’, LLP Review of
the Social Security Administration's Performance Data (A-02-00-20024)


To fulfill the responsibilities of our workplan related to performance measurement, we
contracted PricewaterhouseCoopers (PwC) to evaluate nine of the Social Security
Administration’s (SSA) Fiscal Year 1999 performance indicators that were established
by SSA to comply with the Government Performance and Results Act.

Attached is a copy of the final report summarizing PricewaterhouseCoopers’ review of
nine of the Social Security Administration’s performance indicators. The objective of
this review was to assess the reliability of the data used to measure performance in the
nine areas.

Agency comments to this report were provided to us on January 28, 2000. Many of the
recommendations made in this report are also found in earlier financial statement audit
reports. In Appendix C, the Agency notes in its comments, “Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response.”

For the reader to be fully aware of SSA’s comments that were made to each of the
duplicate recommendations found in this present report, we incorporated those Agency
comments, that were made contemporaneous to the earlier audit report
recommendations, as part of the Agency comments located at Appendix C of this
report.
Page 2 – Mr. William A. Halter

Please comment on the corrective action taken or planned on each recommendation
within 60 days from the date of this memorandum. If you wish to discuss the final
report, please call me or have your staff contact Steven L. Schaeffer, Assistant
Inspector General for Audit, at 410-965-9700.



                                              James G. Huse, Jr.

Attachment




                                         1

Evaluation of Selected Performance
Measures of the Social Security
Administration
Office of the Inspector General
Social Security Administration

Agency comments to this report were provided to us on January 28, 2000. Many of the
recommendations made in this report are also found in earlier financial statement audit
reports. In Appendix C, the Agency notes in its comments, “Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response.”

For the reader to be fully aware of SSA’s comments that were made to each of the
duplicate recommendations found in this present report, we incorporated those Agency
comments, that were made contemporaneous to the earlier audit report recommendations,
as part of the Agency comments located at Appendix C of this report.




A-02-00-20024                                                 February 18, 2000
                         Table of Contents


Performance Measures Evaluation

 Introduction                                    1

 Results of Engagement                           2

 Other Matters                                   20

Appendix A: Background                           A1

Appendix B: Scope and Methodology                B1

Appendix C: Agency Comments                      C1

Appendix D: Performance Measure Summary Sheets   D1

Appendix E: Performance Measure Process Maps     E1
INTRODUCTION

The Government Performance and Results Act (GPRA), Public Law Number 103-62,
107 Statute 285 (1993), requires the Social Security Administration (SSA) to develop
performance indicators for fiscal year (FY) 1999 that assess the relevant service levels
and outcomes of each program’s activity. GPRA also calls for a description of the
means employed to verify and validate the measured values used to report on program
performance. SSA has stated that the Office of the Inspector General (OIG) plays a
vital role in evaluating the data used to measure performance. The OIG contracted
PricewaterhouseCoopers (PwC) to evaluate the following GPRA performance
indicator(s):

1.	 Percent of Old Age and Survivors' Insurance (OASI) claims processed by the
    time the first regular payment is due, or within 14 days from effective filing
    date, if later
2. OASI claims processed
3.	 Percent of initial Supplemental Security Income (SSI) aged claims processed
    within 14 days of filing
4. SSI aged claims processed
5. Representative Payee Actions
6. Social Security Number (SSN) requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9.	 Percentage of individuals issued SSA-Initiated Personal Earnings and Benefit
    Estimate Statements (SIPEBES) as required by law

To evaluate the nine performance indicators established by SSA to comply with GPRA,
PwC was contracted to:

•	 Gain an understanding and document the current FY 1999 system sources from
   which data is collected to report on the specified performance measures;
•	 Identify and test critical controls (both electronic data processing (EDP) and manual)
   of current FY 1999 systems from which the specified performance data is generated;
•	 Test the accuracy of the underlying FY 1998 data for each of the specified
   performance measures;
• Recalculate each specific FY 1998 measure to ascertain its mathematical accuracy;
•	 Evaluate the impact of any relevant findings from prior and current audits with
   respect to SSA's ability to meet performance measure objectives; and
•	 Identify findings relative to the above procedures and make suggestions for
   improvement.

This is an all-inclusive summary report. To facilitate SSA management review, we have
also divided this report into six separate stand-alone reports, corresponding to the
following SSA processes, performance measures (PM), and Contract Identification
Numbers (CIN):



                                            1

•   OASI Claims (PM #1 and #2)                           A-02-99-11006
•   SSI-Aged Claims (PM #3 and #4)                       A-02-99-11005
•   Representative-Payee Actions (PM #5)                 A-02-99-01010
•   SSN Requests (PM #6)                                 A-02-99-01009
•   Posting of Annual Earning Items (PM #7 and #8)       A-02-99-01008
•   Processing of SIPEBES (PM #9)                        A-02-99-01011

This report is organized in the following manner. The next section titled "Results of
Engagement" identifies our findings and explains their relevance to SSA performance
measurement. It also provides recommendations and suggestions for improvement. All
other information is contained in the appendices, as follows:

APPENDIX A – Background
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Performance Measure Summary Sheets
APPENDIX E – Performance Measure Process Maps


RESULTS OF ENGAGEMENT

During the period of June 9, 1999 to October 1, 1999, we evaluated the current
processes, systems and controls, which support the FY 1999 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Since FY 1999 data were not always available, we often
used FY 1998 data to perform our testing. Although SSA was not required to comply
with GPRA until FY 1999, they voluntarily reported results in the FY 1998 Accountability
Report for OASI Claims, SSI-Aged Claims, Representative Payee Actions, SSN
Requests, Posting of Annual Earnings Items, and Processing of SIPEBES1. As a result,
we were able to use our knowledge of current processes, systems, and controls to
judge the accuracy of the performance measures based on the FY 1998 results.

Our evaluation allowed us to determine that the reported FY 1998 results of the nine
performance measures tested (as itemized below) were reasonably stated.




1
  On September 25, 1999 SSA implemented a new system, PEBES 2000, for processing
SIPEBES. We did not evaluate this system because it was not active during the time of our
review.


                                              2

   Performance Measure                                      Reported Result
   1.	 Percent of OASI claims processed by the time the
       first regular payment is due, or within 14 days from
       effective filing date, if later                               82.6%

   2. OASI claims processed                                        3,020,268

   3.	 Percent of initial SSI aged claims processed within            54.2%
       14 days of filing

   4. SSI aged claims processed                                      135,422

   5. Representative Payee Actions                                 7,063,595

   6. SSN requests processed                                     16,200,000

   7. Annual earnings items                                     266,011,984

   8.	 Percent of earnings posted to individuals’ records by
       September 30                                                   97.7%

   9.	 Percentage of individuals issued SIPEBES as required
       by law                                                          100%

However, we did note the following ten opportunities for improvement, listed in order of
their relative importance:

•	 SSA lacks sufficient performance measure process documentation and did not retain
   documents to support the FY 1998 amounts.
• SSA has a number of data integrity deficiencies.
• SSA's system environment has security deficiencies.
•	 Three of SSA's performance measures do not reflect a clear measure of
   performance.
•	 GPRA documents prepared for external evaluation of SSA performance do not
   clearly indicate the sources of the performance measures.
•	 SSA did not calculate three of the performance measures as they are stated in their
   respective definitions.
•	 A component was inadvertently omitted when calculating the total of one of the
   performance measures.
•	 The Cost Analysis System's (CAS) procedural and systems documentation have not
   been updated.
• SSA has systems design and documentation deficiencies.
• SSA has a number of deficiencies in their systems contingency plan.

Additionally, we evaluated the appropriateness of the nine performance measures with
respect to the future requirements of GPRA. As a result, we noted three areas in which


                                            3

SSA could better prepare itself to incorporate the final phases of GPRA in their
processes. These results are discussed below in the Other Matters section.

These items were noted as a result of our testing the underlying performance measure
data, as well as the EDP and manual controls of the systems generating the
performance measure data, and are discussed in detail below.

Throughout our evaluation of the nine performance measures, we noted the strong
commitment of SSA's staff to correctly implement GPRA.



1.	   SSA lacks sufficient performance measure process documentation and did
      not retain documents to support the FY 1998 amounts

GPRA requires that agencies "describe the means to be used to verify and validate
measured values." Furthermore, the Office of Management and Budget (OMB) Circular
No. A-123, Internal Control Systems, requires that "documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination." Finally, National Institute of Standards and Technology (NIST)
Special Publication 800-18, 5.MA.7, requires that system documentation be maintained
as part of a formalized security and operational procedures record. Therefore, agencies
must establish a clear methodology for verifying performance measure values, and
retain the appropriate documentation to enable an audit of their performance measure
values based on the methodology. Although this requirement was not effective for the
FY 1998 Accountability Report, it is effective beginning in FY 1999.

While general policies and procedures exist for all documents produced at SSA (as
found in the SSA Administrative Instructions Manual System/Operational and
Administrative Record Schedules), SSA does not have formal policies and procedures
in place regarding the retention of performance measure documentation. During
testing, we noted that SSA lacked sufficient documentation regarding the processes
surrounding the accumulation and generation of performance indicator data.
Furthermore, SSA could not consistently provide the documentation necessary to verify
their performance measure values as reported in their FY 1998 Accountability Report.
We noted for all of the performance measures that SSA was unable to provide a
comprehensive process map documenting the flow of performance measure data from
the receipt of data (i.e., the receipt of a SSN application), through the applicable
systems (including systems of record), to the accumulation of yearly performance
measure data. In addition, we noted the following items:

       Performance Measures #1 & #2. We were unable to test the FY 1998 MIICR
       data. MIICR produces the End-of-Line Time Processing Report, a monthly report
       summarizing the number of RSI claims completed. Once the monthly report is
       generated, the data is overwritten, preventing the systemic accumulation and
       evaluation of yearly performance measure data. Hard copies of the monthly



                                            4

      reports must be maintained to ensure the yearly counts can be verified.
      However, these reports were not maintained, and the FY 1998 data could not be
      evaluated. We were able to test the FY 1999 data on a monthly basis, as
      available.

      Performance Measures #3 & #4. During our efforts to map the process, we
      received discrepant information implying two possible data flows in the
      management information systems. We have mapped the process in Appendix E
      by tracing the flow of data upstream. However, we believe that both paths
      produce equivalent results. Nevertheless, this discrepancy further underscores
      the need for clear performance measure documentation. Furthermore, we were
      unable to evaluate the systemic flow of data from the SSR to the SSI Claims
      Exception Control System. Without this information, we had to use FY 1999 data
      to assess the reasonableness of the performance measure.

      Performance Measure #5. Neither the definition of a Representative-Payee, nor
      the actions that comprise this count are clearly defined, and during testing we
      noted that few people at SSA could define this performance measure or describe
      its composition.

      Performance Measures #7 & #8. The performance measure count from CAS
      did not reconcile to the information in ERMS.

      Performance Measure #9. The performance measure count per the GESS
      Report did not reconcile to the information in the PSIWO1 Report. (Note: the
      PSIWO1 Report is a product of MIPEBES, and represents the final accumulation
      of performance measure data. The data is posted on SSA's intranet by the
      Office of Information Management. The relevant performance measure data is
      then obtained from the intranet for inclusion in the Accountability Report.)

If SSA does not establish a methodology for verifying performance measure values and
institute an adequate document retention system, they will not be in compliance with
GPRA. Furthermore, a significant lack of documentation does not provide a proper
audit trail to facilitate verification of the performance measures as required by GPRA.

Recommendation:
We recommend that SSA expand the role of Office of Strategic Management (OSM)
with respect to performance measures or place ownership for the performance measure
process and reporting within an organizational unit. In either case, data ownership
would still remain with the user organizations. However, an organizational unit should
be accountable for the overall performance measure processes and results. Their
charter should include the following responsibilities:

•	 Identify and document the processes surrounding the generation and accumulation
   of performance measure values. This would establish a clear method for verifying
   and validating the performance measures;



                                           5

•	 Establish policies and procedures surrounding the retention of performance measure
   documentation. The documentation retained should allow for the timely verification
   of the performance measure values, and should be maintained for at least one year;
   and

•	 As new systems are developed, evaluate their potential impact on the accumulation
   of performance measure data. Systems with potential impact should be designed to
   include the means of producing a verifiable audit trail to validate the performance
   measure results as they are defined in the Accountability Report.



2.    SSA has a number of data integrity deficiencies

OMB Circular No. A-127, Financial Management Systems, requires that a Federal
Agency's systems include a system of internal controls to ensure that the data used to
produce reports is reliable. During our FY 1999 Financial Audit, we noted a number of
data integrity deficiencies that result in a lack of control over both the input and
maintenance of data, as well as the resolution of suspense items. While an adverse
effect upon performance measure data was not observed during our testing, this lack of
control can affect the validity and completeness of the performance measures as
follows:

•	 SSA needs to address ERMS suspense file and reconciliation issues by expediting
   the approval and implementation of its established tactical plan. Earnings items left
   unreconciled or in suspense could be posted to individuals' accounts if the
   appropriate actions are taken, thus including them in the annual count. By not
   addressing these issues, SSA may be understating the number of earnings items
   able to be posted in the annual count, affecting performance measures #7 and #8;

•	 Service Representatives (SRs) and Claims Representatives (CRs) authorized to
   process applications for new and replacement SSNs (SS-5 forms) sometimes
   accepted insufficient or inappropriate proofs of identity and age from applicants
   (affects the MES). If insufficient or inappropriate proofs are accepted, the resulting
   data entered into MES may be invalid. While the data noted above may not have a
   direct effect on the performance measure (#6), its presence indicates the possibility
   that other MES data lacks integrity;

•	 Field office (FO) personnel were performing inconsistent, incomplete, inaccurate,
   and untimely reviews of the Enumeration Sample Listing (affects the MES). Data
   from the MES is used to generate performance measure #6. This report is a control
   used by SSA to ensure data integrity. If the control is not operating properly, the
   data may lack integrity;

•	 Field office personnel were performing inconsistent, incomplete, inaccurate, and
   untimely reviews of the weekly Diary Alert (Aged Investigate/Suspect) Report which



                                            6

   is a tool for informing FO management of enumeration investigate messages and
   suspect evidence cases that have not yet been cleared by the FO (affects the MES).
   Data from the MES is used to generate performance measure #6. This report is a
   control used by SSA to ensure data integrity. If the control is not operating properly,
   the data may lack integrity;

•	 There is no independent verification of birth data supporting applications for original
   SSNs for U.S. citizens under 18 years of age, either at the FO or through the
   Enumeration at Birth (EAB) process. The birth data is obtained from hospitals or
   from each state's Bureau of Vital Statistics, and is relied upon by SSA without
   independent review (affects the MES). Without an independent third party review,
   SSA cannot determine if key controls are in place to ensure the security, validity,
   completeness, and accuracy of the data. While this unverified data may not have a
   direct effect on the performance measure (#6), its presence in MES indicates the
   possibility that other MES data lacks integrity;

•	 When DACUS (Death, Alert, and Control Update System) receives death information
   and compares it to SSA’s NUMIDENT, MBR, SSR, and Black Lung databases
   without a successful match, the record is posted to the DACUS exception file.
   However, no subsequent follow-up is performed on items in this exception file to try
   to resolve any matches that may not have been detected based on the automated
   matching algorithm. While this data may not have a direct effect on the performance
   measures (#1, #2, #3, #4, #5, and #9), a noted lack of data verification in these
   databases indicates the possibility that other data lacks integrity;

•	 SSA’s current practice of obtaining death data does not ensure that this data is
   entered into DACUS accurately, timely, and only once (affects the NUMIDENT,
   MBR, and SSR). While this data may not have a direct effect on the performance
   measures (#1, #2, #3, #4, #5, and #9), a noted lack of data verification in these
   databases indicates the possibility that other data lacks integrity;

•	 A comparison of the MBR, SSR, and NUMIDENT identified a large number of cases
   where either the individual was alive and in current pay status on the MBR/SSR but
   listed as dead on the NUMIDENT, or the corresponding records of a given individual
   had significant differences in dates of death. While this data may not have a direct
   effect on the performance measures (#1, #2, #3, #4, #5, and #9), a noted lack of
   data verification in these databases indicates the possibility that other data lacks
   integrity;

•	 A comparison of the MBR, SSR, and NUMIDENT identified a large number of cases
   where the corresponding records of a given individual had significant differences in
   dates of birth. While this data may not have a direct effect on the performance
   measures (#1, #2, #3, #4, #5, and #9), a noted lack of data verification in these
   databases indicates the possibility that other data lacks integrity; and




                                             7

•	 Field office personnel have the capability of manually entering or changing the
   effective filing date within MSSICS for SSI-aged applications, based on the policies
   in place. This date is subsequently used to calculate the timeliness of SSI-aged
   applications (PM #3). Although we encountered no evidence to suggest that the
   field office personnel have made errors in performing this manual input, best
   practices discourages the use of manual data entry.

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should explore ways to expedite its efforts in approving and implementing the
   established tactical plan addressing the suspense file and reconciliation issues
   (ERMS).

•	 SSA should provide institutional oversight and regular training to authorized FO
   personnel in the processing of SS-5s (MES).

•	 SSA should develop and implement detailed procedures in the Program Operations
   Manual System (POMS) for reviewing the Enumeration Sample Listing. Procedures
   should specifically address: 1) the individual who is to perform the review, 2) steps
   on how to complete the review and document the results of the review, and 3) the
   individual whom is to approve the review, as well as requirements for annotating the
   approval signature on the report. In addition, POMS should define retention
   requirements for the records of completed reviews (MES).

•	 SSA should develop and implement detailed procedures in POMS for reviewing the
   Diary Alert. Procedures should specifically address: 1) the individual who is to
   perform the review, 2) steps on how to complete the review and document the
   results of the review, and 3) the individual who is to approve the review, as well as
   requirements for annotating the approval signature on the report. In addition, POMS
   should define retention requirements for the records of completed reviews (MES).

•	 SSA should perform a third-party review of State agencies, such as a Statement on
   Auditing Standards (SAS) 70 review. A SAS 70 review will determine if key manual
   and automated controls are in place and working as intended to ensure the security,
   validity, completeness, and accuracy of SSA data (MES).

•	 SSA should develop policies and procedures for the resolution of unmatched items
   in DACUS and establish a work group with primary responsibility for resolution. One
   of the duties of this group should be to analyze patterns in exceptions and facilitate
   the implementation of changes to the automated matching algorithm to make it more
   effective.




                                            8

•	 SSA should implement: 1) initiatives to reduce the amount of time required by
   outside sources for submitting death notifications, such as the electronic death
   certificate project currently being tested; and, 2) a method to prevent the submission
   or receipt of duplicate information, whether submitted from the same or different
   sources (DACUS, NUMIDENT, MBR, SSR).

•	 With the completion of the Year 2000 project in FY 2000, SSA should begin
   implementation of DACUS Release 2 (a high priority of SSA’s five-year IRM plan), to
   provide functionality to automatically delete NUMIDENT death postings when a
   person is “resurrected” on the MBR and SSR (NUMIDENT, MBR, SSR).

•	 SSA should firm up plans to implement the ICDB R2 functionality for the SSI system
   (SSR) to provide updated (substantiated) date of birth information to the NUMIDENT
   (NUMIDENT, MBR, SSR).

•	 SSA should review the MSSICS process, looking for an opportunity to implement an
   automated date stamp for the purposes of initiating performance measurement,
   while retaining the ability to manually input or overkey each applicant's effective filing
   date.


3.      SSA's system environment has security deficiencies

We noted in our FY 1999 Financial Audit that SSA’s systems environment remains
threatened by weaknesses in several components of its information protection internal
control structure. Because disclosure of detailed information about these weaknesses
might further compromise controls, we are providing no further details here. Instead,
the specifics are presented in a separate, limited-distribution management letter, dated
November 18, 1999. The general areas where weaknesses were noted are:

•	 The entity-wide security program and associated weaknesses in developing,
   implementing and monitoring local area network (LAN) and distributed systems
   security;

•    SSA’s mainframe computer security and operating system configuration;

•    Physical access controls at non-headquarter locations; and

•	 Certification and accreditation of certain general support and major application
   systems.

Until corrected, these weaknesses will continue to increase the risks of unauthorized
access to, and modification or disclosure of, sensitive SSA information. While these
weaknesses do not directly affect the performance measures, a risk still exists.
Unauthorized access to sensitive data can result in the loss of data associated with



                                              9

SSA’s enumeration, earnings, retirement, and disability processes and programs, thus
affecting all performance measures.

Recommendations:
As previously reported in the FY 1999 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•     Reevaluate its overall organization-wide security architecture;

•	 Reassess the security roles and responsibilities throughout the organization’s central
   and regional office components;

•	 Assure that the appropriate level of trained resources are in place to develop,
   implement and monitor the SSA security program;

•	 Enhance and institutionalize an entity-wide security program that facilitates
   strengthening of LAN and distributed systems’ security;

•     Review and certify system access for all users;

•	 Enhance procedures for removing system access when employees are transferred
   or leave the agency;

•     Decrease vulnerabilities in the mainframe operating system configuration;

•     Implement the mainframe monitoring process;

•     Finalize accreditation and certification of systems;

•	 Develop and implement an ongoing entity-wide information security compliance
   program; and

•     Strengthen physical access controls at non-headquarters sites.

More specific recommendations are included in a separate, limited-distribution
management letter, dated November 18, 1999.


4.	      Three of SSA's performance measures could better reflect agency
         performance

GPRA requires Federal agencies to "establish performance indicators to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each


                                               10

program activity." Accordingly, the performance measures used should clearly
represent the outcome of the related performance goal. While GPRA-based metrics are
intended as external performance measurement tools, this must be balanced by an
organization's ability to measure and improve its own performance from within. Our
analysis of the underlying definitions for each performance measure showed that three
of them do not reflect a clear measure of performance. The relevant issues and
corresponding recommendations are noted for each of the three measures as follows:

Performance Measure #5
The Number of Representative Payee Actions performance measure mixes different
types of activities into one count. The count includes selection of a Representative
Payees (nonselects are also included in the count), changes of payees, Representative
Payee accountings, investigations of Representative Payees, suspensions of
Representative Payees and changes of information for Representative Payees. The
Representative Payee accounting process includes accounting for Title II and Title XVI,
as well as accounting for Representative Payees who live abroad.

According to SSA performance planning documents, the objective of the measure is to
combat fraudulent actions on the part of Representative Payees. To accomplish that,
the measure looks at the total number of Representative Payee actions that occur within
a year to determine whether SSA is monitoring the actions associated with
Representative Payees appropriately. While the measure might render a rough
indication of the level of activity directed toward Representative Payees, the results of
the measure are ambiguous because the inputs are obtained from such diverse
activities.

There are two interrelated reasons for this performance measure's ambiguity. First, this
metric is actually a workload input, which we acknowledge to be a generally useful
component of the performance planning process. However, in this case, the level of
effort required for the various types of work covered by this count vary greatly. For
example, the cost of processing a Representative Payee application is understandably
significantly different than the cost of performing an annual accounting of a
Representative Payee. Second, SSA must be able to gauge improvement for this
measure. However, this performance measure tracks a wide diversity of activities,
which does not facilitate the use of a single gauge for improvement.

Recommendation:
We recommend that SSA divide this performance measure into two separate metrics:
(1) Representative Payee Changes, and (2) Representative Payee Accounting. This
would result in two groupings of activities that would be more homogenous with respect
to cost and/or resource requirements. It would also be straight forward to implement
since the required data is already obtained and stored in the CAS system.

Performance Measure #1
For Performance Measure #1, SSA defines the measure as the number of OASI
applications completed (approved or denied) by the time the first regular payment is



                                           11

due, or within 14 days of the effective filing date, if later, divided by the total number of
OASI applications processed during the fiscal year.

An application is considered timely and is included in the numerator if it meets the
"Service Delivery Objective." This definition implies two scenarios. In the first scenario,
the claimant applies well in advance of the first regular payment due date and the
Service Delivery Objective is considered to be satisfied if the application is completed
and approved by that payment due date. In the second scenario, the claimant applies
14 days or less prior to the first regular payment due date or anytime after the first
regular payment due date. In this case, the Service Delivery Objective is satisfied if the
application is completed and approved within 14 days.

This latter scenario illustrates how this performance measure is susceptible to factors
outside of SSA's control. In assessing how the service delivery time is measured (in
most cases other than advance filings), the clock starts when the claimant initially
makes contact with the field office and it stops when the claims system finalizes a
decision. For each application, the claimant has a considerable influence over the
outcome because SSA must rely upon him/her to show up for interviews and bring the
necessary documentation. As a result, SSA is measuring the performance of both the
claimant and the field office. This is further magnified if the metric is used to compare
the performances of the field offices. While it is valid to expect SSA field offices to
provide roughly equivalent levels of service, the inclusion of the claimants can
potentially skew the measure based on differing demographics served by those field
offices. In other words, variations in demographics might lead to variations in how well
the claimants perform in providing the necessary information and making it to
interviews. SSA has suggested plausible explanations for using the current definition.
For example, one SSA representative suggested that the existing measure was partially
designed to ensure that field offices could provide interview slots on a timely basis when
claimants called to schedule interview appointments. While this is certainly a noble
objective, it can be measured by using a more direct metric.

This performance measure exposes the agency to other outside factors, as well. Many
of the OASI claims are teleclaims, which are sent through the mail to the client for
review and signature, and then back through the mail to the field office. As a result, the
metric includes measurement of the postal system, which is also beyond SSA's control.
To the agency's credit, they have deliberately excluded mail time from other
performance measures, such as the one measuring SSN request processing time.

In addition, this performance measure covers many activities or process steps that fall
under different areas of responsibility (the applicant, the field office, the MCS system,
etc.) In certain situations, such a performance measure becomes more useful if it stops
when the locus of responsibility changes, otherwise it may be difficult to locate problems
or diagnose bottlenecks.




                                              12

Recommendation:
We recommend that the performance measure be redefined so that it does not expose
the agency to such a high degree of outside factors, thus placing the responsibility to
perform solely on SSA.

Performance Measure #3
SSA defines Performance Measure #3 as the number of SSI-Aged applications
completed (approved or denied) by the time the first regular continuing payment is due,
or within 14 days of the effective filing date, if later, divided by the total number of SSI-
Aged applications processed during the fiscal year.

An application is considered timely and is included in the numerator if it meets the
"Service Delivery Objective." This definition implies two scenarios. In the first scenario,
the claimant is applying for continuing benefits well in advance of the first regular
continuing payment due date. The Service Delivery Objective is considered to be
satisfied if the application is completed and approved by that payment due date. In the
second scenario, the claimant is either making his/her first application or is applying for
continuing benefits 14 days or less prior to the first regular continuing payment due date
or anytime after that date. In this case, the Service Delivery Objective is satisfied if the
application is completed and approved within 14 days.

This latter scenario illustrates how this performance measure is susceptible to factors
outside of SSA's control. In assessing how the service delivery time is measured (in
most cases other than advance filings), the clock starts when the claimant initially
makes contact with the field office and it stops when the claims system finalizes a
decision. However, this measure is further complicated because the start time varies
depending on when the claim is processed.

Nevertheless, the claimant has a considerable influence over the outcome because
SSA must rely upon him/her to show up for interviews and bring the necessary
documentation. As a result, SSA is measuring the performance of both the claimant
and the field office. SSA has suggested plausible explanations for using the current
definition. For example, one SSA representative suggested that the existing measure
was partially designed to ensure that field offices could provide interview slots on a
timely basis when claimants called to schedule interview appointments. While this is
certainly a noble objective, it can be measured by using a more direct metric.

This performance measure exposes the agency to other outside factors, as well. Many
of the SSI claims are teleclaims, which are sent through the mail to the client for review
and signature, and then back through the mail to the field office. As a result, the metric
includes measurement of the postal system, which is also beyond SSA's control. To the
agency's credit, they have deliberately excluded mail time from other performance
measures, such as the one measuring SSN request processing time.

This is further magnified if the metric is used to compare the performances of the field
offices. While it is valid to expect SSA field offices to provide roughly equivalent levels



                                             13

of service, the inclusion of the claimants can potentially skew the measure based on
differing demographics served by those field offices. In other words, variations in
demographics might lead to variations in how well the claimants perform in providing the
necessary information and making it to interviews.

In addition, this performance measure covers many activities or process steps that fall
under different areas of responsibility (the applicant, the field office, the MCS system,
etc.) In certain situations, such a performance measure becomes more useful if it stops
when the locus of responsibility changes, otherwise it may be difficult to locate problems
or diagnose bottlenecks.

Recommendation:
We recommend that the performance measure be redefined so that it does not expose
the agency to such a high degree of outside factors, thus placing the responsibility to
perform solely on SSA.


5.	   GPRA documents prepared for external evaluation of SSA performance
      could better document the sources of the performance measures

Since FY 1999, OMB Circular A-11, Preparation and Submission of Strategic Plans,
Annual Performance Plans, and Annual Program Performance Reports, states that "the
annual plan must include an identification of the means the agency will use to verify and
validate the measured performance values." This suggests that an agency should detail
the source of performance data. SSA's documents prepared for external reporting,
including the 1997-2002 Strategic Plan, the FY 2000 Annual Performance Plan, and the
FY 1998 Annual Accountability Report, could better document the SSA sources used to
obtain the performance measures we evaluated.

In the case of three performance measures, the FY 2000 Annual Performance Plan, the
most recent document at the time of this audit, does list a data source for Performance
Measure #1 as "The End-of-Line Processing Report," a data source for Performance
Measure #3 as "The Title XVI Processing Time System," and a data source for
Performance Measure #8 as the "Earnings Posted Overall Cross Total/Year to Date
System (EPOXY)." However, the external stakeholder is not told of the origin of these
documents or of the underlying processes and programmatic systems that produce the
reported metrics. Furthermore, the sources of the other six measures are not clearly
indicated.

All nine metrics are referred to in the SSA documentation as GPRA indicators. As a
result, OMB Circular A-11, Section 220.12, requires that they be documented. By
improving the description of the sources, SSA would enhance the credibility of the
underlying data used to formulate each performance measure.




                                           14

Recommendation:
We recommend that SSA develop clear and concise descriptions of each performance
measure's source. As specifically recommended by OMB Circular A-11, these
descriptions should include:

•	 The current existence of relevant baseline data, including the time-span covered by
   trend data;
• The expected use of existing agency systems in the collection and reporting of data;
• The source of the measured data;
•	 Any expected reliance on an external source(s) for data, and identification of the
   source(s); and
•	 Any changes or improvements being made to existing data collection and reporting
   systems or processes to modify, improve, or expand their capability.


6.	    SSA did not calculate three of the performance measures as they are stated
       in their respective definitions

GPRA requires Federal agencies to "establish performance goals to define the level of
performance to be achieved,…to express such goals in an objective, quantifiable, and
measurable form,…(and to) describe the means to be used to verify and validate
measured values." Agencies must clearly define the components of each performance
measure so that it reflects the intent of the established goal, and so that the
performance measures can be validated. During our testing, we noted that SSA did not
calculate three of the nine performance measures per their respective definitions.
Specifically, SSA did not prepare and calculate three performance indicators to show
what they are intended to measure. The relevant issues and corresponding
recommendations are noted for each of the three measures as follows:

Performance Measure #1
SSA defines the measure as the number of OASI applications completed and approved
by the time the first regular payment is due, or within 14 days of the effective filing date,
if later, divided by the total number of OASI applications processed during the fiscal
year. However, we determined that SSA used as the denominator the total number of
OASI claims processed less certain types of RSI claims excluded by MIM II (RSDHI
Initial Claims Report, Section 8104 – Universe). These numbers are excluded because
they are missing key fields, such as Invalid "Start Date" for Overall time, and Invalid
Overall Elapsed Days Result. The absence of these fields prevents the processing of
time computation, and as such, the claims are excluded from the count. Per the FY
1998 Accountability Report, the total number of OASI claims processed was 3,020,268
and the total number of claims processed timely was 2,334,735. Therefore, the percent
of claims processed in a timely manner would be as follows:

        2,334,735 / 3,020,268 = 77.3% Percent of claims processed timely (as defined by SSA)




                                                15

However, per the FY98 Accountability Report, the percent of claims processed in a
timely manner was 82.6%. This percentage was calculated using as a denominator the
total number of OASI claims processed less certain RSI claims (2,825,821) as follows:

       2,334,735 / 2,825,821 = 82.6% Percent of claims per the FY 1998 Accountability Report

Thus, the calculation of operational efficiency based the total population of all RSI
claims processed in accordance with SSA’s definition is 5.3% points lower than the
operational efficiency currently reported in the FY 1998 Accountability Report. The
higher percentage reported in the FY 1998 Accountability Report indicates that SSA's
reported operational efficiency could be higher than it actually is.

Recommendation:
We recommend that SSA clarify the definition given for the performance measurement
to include language stating that the total number of OASI claims processed is reduced
by certain types of RSI claims excluded from the timeliness report by the MIM II manual.
In addition, we recommend that SSA include an appropriate footnote in its
Accountability Report to reflect what is and is not included in the performance measure.

Performance Measure #8
SSA defines the measure as the number of individuals' earnings items posted from the
beginning of the tax year (TY) through September 30 of the TY, divided by the
estimated total posted annual earnings for the entire TY (Per SSA, the actual number of
annual earnings posted is used in the calculation in subsequent annual Accountability
Reports). However, we determined that SSA calculates the performance measure as
the number of individuals' earnings items posted, less self-employment earnings items
posted, from the beginning of the tax year (TY) through September 30 of the TY, divided
by the estimated total posted annual earnings, less self-employment earnings items
posted, for the entire TY.

Individuals send their self-employed earnings data to the Internal Revenue Service
(IRS), where it is electronically processed, and then forwarded to SSA. As the self-
employed earnings data is processed outside of SSA, it is not included in their entire TY
count (PM#7), which is a workload count of the total number of earnings items. All other
earnings data is received directly by SSA and electronically processed. However, the
objective of performance measure #8 is to measure the timeliness in posting earnings
data to individuals' records.

This condition was reported upon in the OIG’s Performance Measure Review: Survey of
the Social Security Administration's (SSA) Performance Measurement Data (CIN: A-02-
98-01004), which recommended that SSA either include the self-employment earnings
in their entire TY count, or disclose their absence. Furthermore, SSA management has
stated that they have addressed this issue in their draft fiscal year 2000 performance
plan.




                                                16

Recommendation:
As previously recommended in the OIG report entitled, “Performance Measurement
Review: Survey of the Sources of the Social Security Administration’s Performance
Measurement Data” (A-02-98-01004) (issued in final on November 22, 1999), we
recommend that SSA include the self-employment earnings in their calculation of
performance measure #8. This calculation would more accurately reflect the objective
of the measure. If this is not feasible, we recommend that SSA clarify the definition
given for the performance measurement to include language stating that the total
number of annual earnings items posted is reduced by the number of self-employment
wages processed by the IRS. In addition, we recommend that SSA include a footnote
in its Accountability Report to indicate that the percent of annual earnings posted by
September 30th performance measurement is calculated on total annual earnings items
posted less self-employment wages processed by the IRS.

Performance Measure #9
SSA defines the measure as the number of SIPEBES sent divided by the number of
SIPEBES required to be sent by law. The calculation is performed by dividing the
number of SIPEBES sent by itself, as SSA always mails all SIPEBES required by law.
The number required to be sent by law does not include certain individuals, including
those with invalid addresses and those who initiated their own PEBES during the
current fiscal year. The number required by law does include individuals with 'bad
history' records, as determined by the Office of Information Management (OIM). 'Bad
history' records contain inaccurate data fields such as sex, process type, language, or
age. This inaccurate data does not prevent an individual from receiving a SIPEBES,
and they are included in the count of SIPEBES sent to OIM by the Office of Systems
Design and Development (OSDD). However, we determined that OIM removed
individuals from the count they receive based on 'bad history' records, reducing the
SIPEBES count.

Although the 'bad history' record count does not affect the performance measure
percentage, it affects the number used to calculate the measure. Furthermore, the
individuals with 'bad history' records have received a SIPEBES, and by definition,
should be included in the total count.

Recommendation:
We recommend that SSA include the 'bad history' records in the SIPEBES count within
the OIM report.


7.	   A component was inadvertently omitted when calculating the total of one of
      the performance measures

OMB Circular No. A-127, Financial Management Systems, requires that an agency's
information systems (for both financial and performance measure information) include a
system of internal controls to ensure that " reliable data are obtained, maintained, and
disclosed in reports," and that the internal controls " be applied to all system inputs,
processing, and outputs. " During our testing, we noted that the number reported for


                                           17

International Representative Payee accountings was inadvertently omitted in the total
number of Representative Payee Actions reported in the FY 1998 Accountability Report.
The total number of Representative Payee Actions is manually calculated, but the
process is not reviewed to ensure accuracy. A lack of adequate control over the
process caused the total number of Representative Payee Actions to be understated in
the FY 1998 Accountability Report. Without adequate controls in place to ensure all
relevant amounts are included in the performance measure counts, SSA could misstate
the total counts as they appear in the Accountability Report.

Recommendation:
We recommend that SSA develop and implement a review process for the manual
calculation of the annual Representative Payee Action total count.


8.    CAS procedural and systems documentation has not been updated

OMB Circular A-127, Financial Management Systems, requires that all system
"documentation (software, system, operations, user manuals, operating procedures,
etc.) shall be kept up-to-date" and that "system user documentation shall be in sufficient
detail to permit a person, knowledgeable of the agency's programs and of systems
generally, to obtain a comprehensive understanding of the entire operation of each
system. Technical systems documentation such as requirements documents, systems
specifications and operating instructions shall be adequate to enable technical
personnel to operate the system in an effective and efficient manner."

During our FY 1999 Financial Audit testing, we noted that the procedural and systems
documentation for CAS was not current, with the last update occurring in FY 1995.
Since this last update, two major changes have occurred: (1) a reorganization that
combined functions of the former Cost Analysis Branch and the former Budget Systems
Branch into the Division of Cost Analysis (DCA), and (2) migration of CAS to the
National Computer Center mainframe computer system. Thus, out-of-date
documentation could result in a situation where new and/or existing DCA employees do
not have adequate reference material to assist them in the timely and successful
completion of their job tasks/responsibilities. If SSA does not use CAS successfully, all
performance measure indicators accumulated using CAS (including #2, #4, #5, #6, #7,
and #8) could be affected. Data relating to the relevant performance measures may not
be accumulated correctly or completely. It should be noted that SSA is in the process of
replacing CAS piecemeal. As segments are replaced, SSA has obtained current
systems documentation (but not procedural documentation).

Recommendation:
We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.




                                            18

9.     SSA has systems design and documentation deficiencies

During our FY 1999 Financial Audit testing, we noted specific systems design and
documentation deficiencies that indicate a lack of control over both the system design
and documentation. While these deficiencies do not have a direct effect on the
performance measures, a risk still exists. This lack of control affects the ability of SSA
to effectively design, implement, and use their computer systems. If SSA is not
effectively using their computer systems to accumulate and calculate performance
measures, the resulting performance measure amounts could be affected. Our specific
findings were:

•	 Full documentation of program changes evidencing user approval and testing was
   not always maintained. In addition, user initiation of changes to production
   programs could not be confirmed due to the absence of documentation indicating
   who initiated the changes;

•	 SSA's Software Engineering Technology (SET) did not establish different
   requirements for major development projects, routine maintenance, and cyclical
   changes; and

•	 SSA’s System Security Handbook (Chapter 10 on Systems Access Security) does
   not list all of the acceptable forms for granting access to SSA’s computerized
   systems.

Recommendation:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should complete implementation of its Validation Transaction Tracking System
   (VTTS) and continue with its plan to automate the process for submitting System
   Release Certification (SRC) forms.

•	 SSA should complete implementation of Platinum's Process Engineering Tool (PET)
   and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
   Maturity Model (CMM) methodology.

•	 SSA should update its System Security Handbook (Chapter 10 on Systems Access
   Security) to address all of the acceptable forms for granting access to SSA’s
   computer systems and data.


10.    SSA has a number of deficiencies in their systems contingency plan

As a result of the FY 1999 SSA financial audit, we noted a number of deficiencies
which, in our view, would impair SSA’s ability to respond effectively to a disruption in
business operations as a result of a disaster or other long-term crisis. Although SSA has
performed a Business Impact Analysis, its list of critical workloads is still being finalized,


                                             19

and recovery time objectives (RTOs) have not yet been established for each of the
critical workloads. Consequently, SSA has not established recovery priorities for all of
its systems in the mainframe and distributed environments. Further, the plan for
recovering the critical workloads still needs to be fully tested. Finally, SSA has not fully
updated the contingency plans for the headquarters site or finalized and tested
contingency plans for non-headquarters sites.

While deficiencies in a contingency plan do not directly affect performance measures, a
risk still exists. A failure to respond effectively to a disruption through proven recovery
procedures could affect both the quality and quantity of data used in the accumulation
and calculation of all performance measures.

Recommendation:
As previously stated in the FY 1999 Accountability Report, we recommend that SSA:

•	 Finalize the list of critical SSA workloads and fully test the plans for recovering each
   workload;

•     Establish RTOs for each critical workload;

•	 Establish recovery priorities for all systems and applications (mainframe and
   distributed);

•     Update contingency plans for headquarters;

•	 Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
   processing facilities; and

•     Finalize and test contingency plans for non-headquarters sites.


OTHER MATTERS

As part of this evaluation, PwC was tasked to evaluate the appropriateness of the
performance measures. In this section, we discuss the relevance of each performance
measure with respect to GPRA and look to the future by evaluating SSA's readiness to
incorporate the final phases of GPRA into their processes.

1.	      Documents prepared for external evaluation of SSA performance could be
         improved to clearly explain the intended uses of the performance measures
         to comply with future GPRA requirements

The United States General Accounting Office (GAO) encourages agencies to "include
explanatory information on the goals and measures." 2 In addition, best practices in

2
    GAO/GGD/AIMD-99-69, "Agency Performance Plans"


                                             20

performance measurement dictate that agencies should provide external stakeholders
with such information. Furthermore, it can be expected that agencies will be required to
provide such information in the near future as GPRA continues to evolve.

Over the past few years, SSA has continuously improved their performance planning
documents by adding in-depth discussions on their strategies and key performance
indicators. With respect to the performance metrics studied as part of this evaluation,
however, the 1997-2002 Strategic Plan, the FY 2000 Performance Plan, and the FY
1998 Annual Accountability Report do not clearly explain the intended purpose of each
performance measure with respect to evaluating overall SSA performance. In each
case, the documents clearly associate each metric with the strategic goals and
objectives that they support, but they do not explain to the external stakeholder exactly
how they are applied.

Describing the use of these performance measures would help to clarify the overall
objectives of the SSA strategic planning process and would clarify how the subject
metrics fit into that process.

In a July 1999 report3, the General Accounting Office (GAO) rated Fiscal Year 2000
Annual Performance Plans of all federal agencies in three key elements of “informative
performance plans:”

1. Clear pictures of intended performance;
2. Specific discussion of strategies and resources; and
3. Confidence that performance information will be credible.

Although SSA was considered relatively strong as compared to most other agencies,
their weakest ratings were received for the categories of "Degree of Confidence that
Performance Information will be Credible" and "Specificity of Strategic Resources." Our
observations were consistent with these findings (see Item #5 in previous section,
Results of Engagement). However, if SSA develops clear and concise descriptions of
each performance measure's source and its intended strategic use, we believe they can
bolster their future GAO ratings relative to informative performance plans.

2.	      The nine performance measures are not explicit performance budgeting
         metrics, but are nonetheless appropriate internal performance indicators
         and are useful to the SSA-wide strategic planning process

An important intent of GPRA in the future is to facilitate performance budgeting, which
will allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, agencies must develop measures that will help external stakeholders
such as Congress to match resources to performance.




3
    GAO/GGD/AIMD-99-215, July 1999.


                                            21

Under GPRA requirements, an agency must rely on two distinctive types of measures:

       Outcome performance measures. These measures are intended to gauge the
       effectiveness of the organization at fulfilling its strategic goals. Often, however,
       these performance measures are not completely under the span of influence of
       the organization. Consequently, while they represent good measures of the
       accomplishment of a strategic goal, they do not reflect the success of an
       organization in contributing to the achievement of the goal.

       Workload and output performance measures.4 These measures are used to
       gauge the level of effort required for a given activity, including characteristics
       established as performance standards (e.g., Percent of OASI claims processed
       by the time the first regular payment is due or within 14 days from effective filing
       date, if later).

While outcome performance measures are often more accurate indicators of the
success or failure of an organization's strategic goals, it is workload and output
measures that fall under an organization's span of influence. Consequently, workload
and output measures are more often used in external reporting to support organizational
activities. However, these workload and output performance measures are seldom
related to either outcomes or amount of resources spent processing the workload or
creating the output. As a result, they represent little value to external stakeholders
making resource allocation decisions.

If viewed in isolation, none of the nine performance measures considered on this project
would suffice as explicit outcome performance measures for external stakeholders to
use in a resource allocation or performance budgeting oversight role. However, that is
not to say that these measures are not of value. In fact, they indicate to external
stakeholders, including congressional appropriators, customers, policy makers, and the
general public, how effective SSA is at fulfilling its overall mission. More importantly,
they serve a useful internal purpose in the SSA performance planning process. For
example, many of the measures we analyzed (Performance Measures 2, 4, 5, 6, and 7)
are workload counts, which are important for individual program managers when
making management decisions.

       Performance Measures #1 and #3. The FY 2000 Annual Performance Plan
       uses these metrics to support the strategic objective "to raise the number of
       customers who receive service and payments on time, specifically by 2002",
       which, in turn, supports the strategic goal to provide world class service. Neither
       measure is particularly valuable to an external stakeholder for performance
       budgeting because they do not relate resource utilization to outputs or outcomes.
       However, these two measures are clearly useful as internal indicators,



4
  The SSA documentation refers to such metrics strictly as outputs, but that is merely a matter of
semantics. In either case, they refer to a level of effort for a given activity.


                                                22

particularly with respect to the strategic objectives they support and they do help
to indicate the overall effectiveness of SSA at fulfilling its mission.

Performance Measures #2, #4 and #6. The FY 2000 Annual Performance Plan
(Appendix 1) uses these metrics as "Output Measures for Major Budgeted
Workloads" to support the strategic objective "to deliver customer-responsive
world-class service." However, it is not clear how they accomplish this.

These two measures, the number of RSI claims processed, and the number of
SSI-Aged claims processed, are not particularly valuable to an external
stakeholder for performance budgeting because they do not relate resource
utilization to an output or outcome. However, they are clearly not intended for
that purpose because the SSA documentation identifies them as output
measures for workload and they do help to indicate the overall effectiveness of
SSA at fulfilling its mission.

Performance Measures #5 and #7. The SSA FY 1998 Accountability Report
references these metrics as "Other Workloads" supporting the strategic objective
"to position the Agency's resources and processes to meet emerging workloads."
This, in turn, supports the strategic goal "to make SSA program management the
best in business, with zero tolerance for fraud and abuse." These uses are
reiterated in Appendix 1 of the FY 2000 Annual Performance Plan.

These measures, the number of Representative-Payee actions, and the number
of Annual Earnings Items processed are not particularly valuable to an external
stakeholder for performance budgeting because they do not relate resource
utilization to outputs or outcomes. However, they are clearly not intended for that
purpose because the SSA documentation identifies them as output measures for
workloads and they do help to indicate the overall effectiveness of SSA at
fulfilling its mission.

Performance Measure #8. The SSA Strategic Plan (1997 to 2002), the FY
1998 Accountability Report, and the FY 2000 Annual Performance Plan all
consistently position this metric in support of the objective "to maintain through
2002, current levels of accuracy and timeliness in posting earnings data to
individual's earnings records." This objective, in turn, supports the strategic goal
"to make SSA program management the best in business, with zero tolerance for
fraud and abuse."

This measure, the Percent of earnings posted to individuals’ records by
September 30, is not particularly valuable to an external stakeholder for
performance budgeting because it does not relate resource utilization to an
output or outcome. This measure may be useful to SSA as an internal indicator,
particularly with respect to the strategic objectives it supports. Furthermore, the
documentation clearly states that the objective is to maintain timeliness in posting
earnings records. Nevertheless, the external stakeholder is not told about the



                                     23

       significance of the September 30 date and how it relates SSA to being the best in
       business.

       Performance Measure #9. The SSA Strategic Plan (1997 to 2002), the FY 1998
       Accountability Report, and the FY 2000 Annual Performance Plan all consistently
       position this metric in support of the goal "to strengthen public understanding of
       Social Security programs." The FY 2000 Annual Performance Plan does list a
       data source as "the PEBES weekly summary report."

       Of the nine performance measures we evaluated, this measure, the Percent of
       individuals issued SSA Initiated PEBES as required by law, comes the closest to
       being an external performance measure because it specifies an external
       outcome. It falls short, however, in that it does not describe how resources are
       utilized to achieve that outcome.

       Nevertheless, this measure is most likely useful to SSA as an internal indicator,
       particularly with respect to the strategic goals and objectives it supports. There is
       concern within SSA that this measure serves little purpose because they always
       score 100 percent. However, SSA faces greater challenges with SIPEBES over
       the next few years because the annual number of recipients will dramatically
       increase. Therefore, this measure is worth keeping as a metric to gauge future
       progress.

To SSA's credit, they have developed a number of useful performance measures in the
spirit of GPRA and have discussed them in proper detail in the FY 2000 Performance
Plan. 5 As we have shown, the nine performance measures covered by this project can
not be considered as true high-level, external measures. Nevertheless, they do appear
to have specific uses, as discussed above. Again, SSA would benefit the external
stakeholder by clarifying exactly what these intended uses are (see “Other Matters”
item #1).

3.	    SSA is positioned to be a leading performance-based budgeting
       organization and to meet the future requirements of GPRA

Since 1988, SSA has an established history of strategic planning, using specific
performance measurements. Building on this history, SSA implemented GPRA's
requirements for strategic planning, performance planning, and performance reporting.
One of GPRA's ultimate objectives is to facilitate performance budgeting, which will
allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, to help external stakeholders such as Congress match resources to



5
  In earlier documents, such as the FY 1998 Accountability Report, SSA presented the
performance measures in a manner that seemed to give each one equal weight. In the more
recent documents, however, SSA has placed greater emphasis on the more high-level, outcome
oriented performance measures.


                                            24

performance, agencies must eventually develop performance measures that are linked
to resource requirements.

Performance budgeting is the analysis of performance measurement data for the
purpose of allocating budgetary resources more effectively. Specifically, performance
budgeting for GPRA is complete upon the submission of multiple resource-to-result
scenarios within one annual budget.

The final stage of GPRA implementation is the successful piloting of performance
budgeting at no less than five federal agencies. Currently, few federal agencies are
capable of acting as a performance budgeting pilot and this final stage of GPRA has
consequently been delayed. However, the Office of Management and Budget (OMB)
has recently designated SSA as one of the government-wide performance budgeting
pilot projects. Within SSA, the Continuing Disability Reviews program is the specific
activity covered by this designation. OMB considers the performance budgeting pilot
projects to be an opportunity to examine the feasibility and potential application of
several approaches to performance budgeting. In this context, OMB intends to use
performance and resource data provided by the pilots during development of the FY
2001 budget and to report to Congress on the results of the pilots no later than March
31, 2001, as required by GPRA. With proper planning and preparation, SSA is uniquely
positioned to capitalize on this opportunity and be one of the first truly successful
performance-based budgeting organizations.

In anticipation of the next phase of GPRA, we believe SSA needs to develop a suitable
performance budgetary model by combining cost accounting concepts with performance
measurement methodology. A high-level description of one possible model is listed
below:

• SSA defines a set of reporting segments that represent all of their work;
• SSA maps their performance measurements to these specific reporting segments;
•	 SSA calculates person-hours associated with these reporting segments, so that all
   personnel within SSA are accounted for in the model; and
•	 SSA builds the model around this data to allow for current resource to
   workload/result analysis and future resource to workload/result forecasting.

SSA could build this model at any level of detail: by resource type, resource location, or
any other classification methodology. By linking resources to performance goals at this
level of detail, SSA would thus satisfy the annual performance-planning requirement for
specificity of strategies and resources, while striving to become the first agency to
successfully implement performance budgeting.




                                            25

                           APPENDICES


APPENDIX A – Background

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments and PwC Reponse

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

                                                                             Appendix A

                             BACKGROUND

Government Performance and Results Act

The Government Performance and Results Act (GPRA) was enacted to increase
accountability in the Federal agencies. Prior to GPRA, Federal agencies lacked well-
defined program goals and adequate feedback regarding program performance. This
hindered Federal agencies in their efforts to increase program efficiency and
effectiveness, and prevented them from being accountable. Furthermore, this lack of
accountability on the part of the Federal managers prevented Congress from making
informed budgetary decisions. In order to increase accountability, GPRA required
Federal agencies to develop 5-year strategic plans, annual performance plans, and
annual performance reports.

Strategic plans define an agency's mission in terms of their major functions and
operations. The agency's goals and objectives, and how they will be achieved by the
agency, must be included in their strategic plan. The strategic plan also describes the
quantifiable performance measures to be used by the agency, and how they relate to
the agency's goals and objectives.

Annual performance plans establish objective, quantifiable, and measurable
performance goals for an agency. The GPRA requirements for annual performance
plans went into effect for FY 1999. These plans describe the operational processes and
resources necessary to meet the performance goals, establish performance indicators
to measure the relevant outcomes, and provide a basis for comparing the outcomes
with the performance goals. The annual performance plans also provide a means to
validate and verify the measured outcomes.

Annual performance reports compare the actual program performance achieved with
the performance goals for each performance indicator defined in the agency's annual
performance plan. The GPRA requirements for annual performance reports went into
effect for FY 1999. These reports contain the agency's evaluation of their performance
plan relative to the performance achieved during the fiscal year. If performance goals
have not been met, the agency must include an explanation, as well as a plan for
achieving the performance goals in the future. Alternatively, if the agency believes the
goals are impractical, they would include their rationale and recommended alternatives
in the annual performance report.

SSA's Performance Measures

The Social Security Administration (SSA) defined five strategic goals in its FY 1997-
2002 strategic plan, "Keeping the Promise."



                                           A-1

1.	 Promote valued, strong, and responsive social security programs and conduct
    effective policy development, research, and program evaluation
2. Deliver customer-responsive, world-class service
3.	 Make SSA program management the best in the business, with zero tolerance for
    fraud and abuse
4. Be an employer that values and invests in each employee
5. Strengthen public understanding of the social security programs

For each strategic goal, SSA's strategic plan also defined specific objectives to achieve
each of the goals.

SSA's FY 1998 annual GPRA performance report, published as part of their FY 1998
Accountability Report, includes actual performance data and goals for 57 performance
measures. PricewaterhouseCoopers was engaged to evaluate nine specific
performance indicators found in SSA's FY 1998 Accountability Report. The
performance indicators (or performance measures, as they are referred to in the
Accountability Report) are as follows:

1.	 Percent of OASI claims processed by the time the first regular payment is due or
    within 14 days from effective filing date, if later
2. OASI claims processed
3. Percent of initial SSI aged claims processed within 14 days of filing
4. SSI aged claims processed
5. Representative Payee actions
6. SSN requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9. Percent of individuals issued SSA-Initiated PEBES as required by law

During testing, it was noted that the nine performance measures could be defined by six
distinct processes. The systematic flow of information for three of the measures was
almost identical to the flow of information for three other measures. Furthermore, these
groupings match those that the OIG has selected for generating their upcoming reports.
The six processes are as follows:

1.    RSI claims (performance measures #1 and #2)
2.    SSI aged claims (performance measures #3 and #4)
3.    Representative Payee actions (performance measure #5)
4.    SSN requests processed (performance measure #6)
5.    Annual earnings items (performance measures #7 and #8)
6.	   Percent of individuals issued SSA-Initiated PEBES as required by law (performance
      measure #9)




                                           A-2

Process #1: RSI Claims

The RSI claims process encompasses performance measures #1 and #2. Performance
measure #1, the percent of OASI claims processed by the time the first regular payment
is due or within 14 days from effective filing date, if later, determines whether the OASI
claims process is functioning in a timely and accurate manner. The objective is to raise
the number of customers who receive service and payments on time, which relates to
the strategic goal regarding delivery of customer-responsive world-class service.

This performance measure is presented as a percentage. The numerator is defined as
the total number of OASI applications completed (both approved and denied) by the
time the first regular payment is due, or within 14 days from the effective filing date, if
later . The denominator is defined as the total number of OASI applications processed
(completed, approved and denied) during the fiscal year. The FY 1998 performance
goal was 83 percent, and SSA reported the performance result as 82.6 percent.

Performance measure #2, OASI claims processed, totals the number of OASI claims
processed during the fiscal year. The objective of the measure is to assist SSA in
positioning their resources and processes to meet emerging workloads. This objective
relates to SSA's third strategic goal, to "make SSA program management the best in the
business, with zero tolerance for fraud and abuse".

This performance measure is presented as a workload count, and includes every claim,
(regardless of special characteristics, which might lengthen or shorten processing
times), less specific exclusions and exceptions, that are completely processed during
the fiscal year. The count does not include any pending claims. Report exclusions
include disability auxiliary cases, claims for which no MIICR record exists, and claims
where completion is other than an award or disallowance. Report exceptions include an
invalid beneficiary identification code, invalid clearance action type (CAT) code,
excessive location/no location code, invalid history location code, no field office present,
and invalid dates. The FY 1998 performance goal was 3,134,700 claims processed,
and SSA reported the performance result as 3,020,268 claims processed.

Performance measures #1 and #2 are obtained from the RSI Claims Process. The flow
of data is depicted in top-level form in Figure 1, and the corresponding process is shown
in greater detail in Appendix E.

The MIICR System is used to calculate management information about the RSI claims.
For performance measure #1, the "MIICR Calc" module computes each claims
processing time and determines if the Service Delivery Objective (SDO) criteria has
been met. The "MIICR Summary" module produces records of the summarized
processing times, percentages, and counts for each office and places them in the
RSDHI database. OIM uses the GETRSDHI module of the SSAMIS system to obtain
PM #1 and provides it to OFPO for inclusion in the Accountability Report.




                                            A-3

                                      RSI Claims Process
                                                                                           Accountability
                   Modernized Claim                                        GETRSDHI           Report
           Input
                    System (MCS)                                        (Part of SSAMIS)




                                                                             PM #1



                                      Modernized Claim
                     SSA Claims
           Input                       Control (MCC)            MIICR   RSDHI Database
                   System (SSACS)
                                         Database


                                                            PM #2



                                                                             CAS           Accountability
           Input      MADCAP               IWMS             GETDOWR      (Cost Analysis       Report
                                                                            System)




                                                    Figure 1


For performance measure #2, the "MIICR Summary" module tabulates the totals of
SSA-wide counts and places them in the RSDHI Database. The IWMS system
automatically obtains the counts for RSHI claims and RSI Nondisabled Dependent
Claims, and places them in DOWR (District Office Workload Report) 1 and 2,
respectively. OIM obtains both counts using the GETDOWR module of the SSAMIS
system and enters them into the Cost Analysis System (CAS). CAS computes PM #2
by adding up the two components (DOWR 1 and DOWR 2). OFPO obtains PM #2 from
CAS for inclusion in the Accountability Report.

Process #2: SSI Aged Claims Process

The SSI aged claims process encompasses performance measures #3 and #4.
Performance measure #3, percent of initial SSI aged claims processed within 14 days of
filing, determines whether the SSI claims process is functioning in a timely and accurate
manner. The objective is to raise the number of customers who receive service and
payments on time, which relates to the strategic goal regarding delivery of customer-
responsive world-class service.

This performance measure is presented as a percentage. The numerator is defined as
the total number of Initial SSI Aged applications completed (both approved and denied)
through the SSA operational system before the first regular continuing payment is due,
or not more than 14 days from the filing date (see explanation below), if later. The
denominator is defined as the total number of SSI aged claims processed (completed,
both approved and denied) for the fiscal year. The FY 1998 performance goal was 66
percent, and SSA reported the performance result as 54.2 percent.



                                                         A-4

The calculation of processing time begins with either the effective filing date (the earliest
date for which benefits will be paid -- only applies to applications filed before August 22,
1996) or the protective filing date (the date the applicant first contacts SSA), and ends
with the Initial Decision Date (IDD).

Performance measure #4, SSI aged claims processed, totals the number of initial SSI
aged claims processed during the fiscal year. The objective of the measure is to assist
SSA in positioning their resources and processes to meet emerging workloads. This
objective relates to SSA's third strategic goal, to "make SSA program management the
best in the business, with zero tolerance for fraud and abuse".

This performance measure is presented as a workload count, and includes all SSI aged
claims that are completely processed during the fiscal year. The measure includes both
approved and denied claims, and excludes pending claims. The FY 1998 performance
goal was 150,500 claims processed, and SSA reported the performance result as
135,442 claims processed.

Performance measures #3 and #4 are obtained from the SSI-Aged Claims Process.
The flow of data is depicted in top-level form in Figure 2, and the corresponding process
is shown in greater detail in Appendix E.

                                       SSI-Aged Claims Process
                    Modernized SSI
           Input    Claims System
                      (MSSICS)                                                       SSI Claims          SSI Claims
                                         SSI Batch Update        Supplemental
                                              System            Security Record   Exception Control   Reporting System
                                                                                       Record             (SSICR)




           Input     "Manual" Input
                   with CICS Screens

                                                                                                       Accountability
                                         SSICR Database              PM #3           GETSSICR             Report
                                                                                     (SSAMIS)



                                              PM #4


                                          Integrated Work                                              Accountability
                                           Measurement            GETWORK          Cost Analysis          Report
                                               System             (SSAMIS)         System (CAS)
                                               (IWMS)




                                                            Figure 2

The major underlying programmatic system used by the Field Offices to process SSI-
Aged Claims is the Modernized SSI Claims System (MSSICS). MSSICS provides users
with entry screens and on-line checks, and ultimately produces transaction files for use
by the SSI Batch Update System. However, in unique circumstances, the Field Offices
can also use CICS screens to manually build transaction files for batch processing.



                                                              A-5

Once the transaction files are complete, the claims are sent to the SSI Batch Update
System. This system creates a new Supplemental Security Record (SSR), performs
NUMIDENT and MBR interface checks, and triggers either an award or denial notice.
At this point in time, the Initial Determination Date is posted to the SSR. For awarded
claims, the system also computes the benefit and payment schedule.

Throughout the batch process, the system provides status updates for each claim to the
SSI Claims Exception Control System. The data for completed claims are subsequently
passed on to the SSI Claims Reporting System (SSICR), also referred to as "T16".

Performance measure #3 is computed by SSICR as it calculates the processing time for
each claim and compares it to the performance objective of 14 days. SSICR then
calculates the percentage of cases meeting the performance objective and places this
value in the SSICR database. OIM then obtains PM #3 from the SSICR database using
GETSSICR, which is part of the SSAMIS system, and subsequently provides the
number to OFPO for inclusion in the Accountability Report.

Performance measure #4 is also computed by SSICR. It tabulates the counts for
completed claims and places them in the SSICR database. The values are then
transferred electronically to IWMS. PM #4 is comprised of both welfare and non-welfare
components, which are stored in IWMS as DOWR 8 and DOWR 64, respectively. OIM
obtains these counts from IWMS using the GETWORK module of the SSAMIS system.
OIM then enters these counts into the Cost Analysis System (CAS), which automatically
computes PM #4 by adding the two components. OFPO obtains PM #4 from CAS for
inclusion in the Accountability Report.


Process #3: Representative-Payee Process

The Representative Payee process encompasses performance measure #5,
Representative Payee actions. Performance measure #5 includes the total number of
Representative Payee actions performed during the fiscal year. An action can be either
a Representative Payee change (the selection or non-selection of a Representative
Payee, the change from one Representative Payee to another, the change of
information for a Representative Payee, investigations of Representative Payees, and
the suspension of a Representative Payee), or the mailing of the annual Representative
Payee accounting form to an individual Representative Payee. The Representative
Payee actions include Title II and Title XVI actions, as well as actions for
Representative Payees who live abroad. The objectives of this measure are to assist
SSA in positioning their resources and processes to meet emerging workloads, and to
aggressively deter, identify, and resolve fraud. These objectives relate to SSA's third
strategic goal, "to make SSA program management the best in the business, with zero
tolerance for fraud and abuse".

This performance measure is presented as a workload count, and includes every
Representative Payee action taken during the fiscal year. The FY 1998 performance



                                           A-6

goal was 6,983,800 Representative Payee actions, and SSA reported the performance
result as 7,063,595 Representative Payee actions.

SSA is currently developing a Title II Redesign, which will impact the way Title II
Representative Payee actions will be processed through SSA's systems.

Performance measure #5 is obtained by combining counts from a myriad of systems
and processes. The flow of data for the Representative Payee Process is depicted in
Figure 3, and the process is shown in greater detail in Appendix E.

                                   Representative Payee Process
                                                                                Post-Entitlement
                 Representative                                                                      Integrated Work
     Title II                      Work Management                                Management
                 Payee System                           WMS Database                                  Measurement                GETDOWR             B
    Change                          System (WMS)                               Information (PEMI)
                     (RPS)                                                                           System (IWMS)
                                                                                     System



                                                        Post-Entitlement
                 Representative                                                 Integrated Work
    Title XVI                      Centrally Located      Management
                 Payee System                                                    Measurement           GETDOWR                   B
    Change                            Traffic File     Information (PEMI)
                     (RPS)                                                      System (IWMS)
                                                             System



                                                       SSA-623 or 6230         CICS Rep-Payee                              Post-Entitlement
     Title II                                              Form to             Accounting Screen                             Management
                   CSRETAP           ROBOT File                                                      Transaction File                                A
   Accounting                                            Rep-Payee               (Field Office)                           Information (PEMI)
                                                                                 & ROBOT File                                   System

                                                                      to WBDOC
                                                          to WBDOC,
                                                           then PC8
                                                                                                                            Integrated Work
                                                                               WBDOC Scanner
                                                                                                     WB MI Report            Measurement             B
                                                                               or CICS Screen
                                                                                                                            System (IWMS)
                                                               C

                                                                      to WBDOC

                                                       SSA-623 or 6230                                                     Post-Entitlement
                      SSI            Supplemental          Form to               CICS SSI Data
    Title XVI                                                                                                                Management
                Redetermination     Security Record                               Input Screen       Transaction File                                A
   Accounting                                            Rep-Payee                                                        Information (PEMI)
                  Merge Run             (SSR)                                     (Field Office)
                                                                                                                                System




    Foreign      Program Center                                    Integrated Work                                                      Accountability
                                                                                                                 Cost Analysis
     Title II     Action Control   TSO GETPCACS          A          Measurement            GETDOWR                                         Report
                                                                                                                 System (CAS)
    Changes     System (PCACS)                                     System (IWMS)



                                                                                                         B
                       C




                                                                   Figure 3

There are two major types of actions: (1) Representative Payee Changes, which
includes applications for new Representative Payees, change of Representative Payee,
account information (address or phone number) changes, and investigations, and (2)
Representative Payee Accounting, which is the process of verifying that Representative
Payees are fulfilling their obligations. The Cost Analysis System (CAS) combines seven
components to obtain the performance measure. The seven components are derived
as follows:


                                                                       A-7

Domestic Title II Representative Payee Changes

A Field Office Claims Representative can initiate Representative Payees Changes for a

Title II account by updating RPS (Representative-Payee System) with the RSEL CICS

screen. RPS then passes the transactional data to WMS, which stores relevant data in

the WMS database. The PEMI (Post-Entitlement Management Information) system

reads the transactional data in the WMS database and calculates summary counts.

PEMI then transfers the summary counts to IWMS and stores them as DOWR category

15. OFPO uses the GETDOWR module, which is part of the SSAMIS system, to obtain
DOWR 15 and subsequently enters it in the Cost Analysis System (CAS).


Title XVI Representative Payee Changes

A Field Office Claims Representative can initiate Representative Payees Changes for a

Title XVI account by updating RPS (Representative-Payee System) with the RSEL

CICS screen. The CICS screen creates a record in a centrally located traffic file. The

PEMI (Post-Entitlement Management Information) system reads the transactional data

from the traffic file and calculates relevant summary counts. PEMI then transfers the

summary counts to IWMS and stores them as DOWR category 24. OFPO uses the

GETDOWR to obtain DOWR 24 and subsequently enters it in the Cost Analysis System

(CAS).


International Title II Representative Payee Changes
Many Title II beneficiaries that live abroad have a Representative Payee. Program
Service Center 8, which is located in Baltimore, handles Representative Payee
Changes and manages the work using the Program Center Action Control System
(PCACS). A Direct Service Employee (DSE) reviews each specific case and
determines the action(s) required. These actions are designated using TEOL (Type of
Event Level) Codes. The DSE then generates a PCACS Action Control Record (ACR)
and routes the package to the proper work station(s). The OIO Technicians use
relevant object programs to perform the required tasks. When the case is complete, the
OIO Technician clears the ACR from PCACS and PCACS subsequently increments the
cumulative total work counts for the corresponding TOEL Codes. OFPO uses TSO
GETPCACS to obtain counts from PCACS using the relevant TOEL Codes. OFPO then
enters these values into CAS.

Domestic Title II Representative Payee Accounting

The domestic Title II Representative Payee Accounting process is initiated when

CSRETAP reads the MBR (Master Benefit Record) and writes the universe of

Representative Payees to a file. The Representative Payee Accounting System then

reads this file and eliminates those individuals that are (a) both Title II and XVI, (b)

accounted for via onsite reviews, (c) self-payees, and (d) receiving foreign payments

(i.e., non-domestic). The system then writes the eligible Representative Payees to the

ROBOT file and sends the relevant information to a vendor for printing and distribution

of the SSA-623 and SSA-6230 forms.





                                           A-8

Most of the Representative Payees fill out the form and return it to the Wilkes-Barre

Data Operations Center (WBDOC). That portion of the final count is discussed below

(see "Representative Payee Accounting Cleared at WBDOC"). However, there are two

scenarios in which the Field Offices clear the accounting forms. In the first scenario, a

Representative Payee desires help completing the form and visits the local Field Office.

In the second scenario, the Representative Payee does not respond to the first or

second notification. In this case, the WBDOC sends the Field Office a special alert and

they attempt to contact the Representative Payee and schedule him/her for a visit. In

both cases, the Field Office technician helps the Representative Payee fill out the SSA-

623 or SSA-6230 form and clears the Representative Payee using the CICS

Representative Payee Accounting screen. The CICS screen subsequently places an

indicator in the ROBOT file, and the Representative Payee is cleared from the system

during the next nightly batch run. The system also writes information regarding the

completed transactions to a file that is sent electronically to OIM. The Post-Entitlement

Management Information (PEMI) system subsequently reads the transactional data,

calculates summary counts, and transfers the summary counts to IWMS. IWMS stores

the relevant summary count as DOWR Category 6. OFPO uses the GETDOWR

module to obtain DOWR 6 and subsequently enters it in the Cost Analysis System

(CAS).


Domestic Title II Representative Payee Accounting includes those cases where a

beneficiary lives in a foreign country, but the corresponding Representative Payee lives

in the United States.


Title XVI Representative Payee Accounting

The domestic Title XVI Representative Payee Accounting process is initiated when the

SSI Redetermination Merge Run selects Representative Payees to target for accounting

and creates an "AR" diary in each beneficiary's SSR. The Merge Run also formats print

records and writes them to a file. OTSO subsequently places the print files on a tape

cartridge and sends them to a vendor for printing and mailing of the SSA-623 form.


Most of the Representative Payees fill out the form and return it to the Wilkes-Barre
Data Operations Center (WBDOC). That portion of the final count is discussed below
(see "Representative Payee Accounting Cleared at WBDOC"). As with Title II, there are
two scenarios in which the Field Offices clear the accounting forms. The first case is
when the Representative Payee desires help completing the form and visits the local
Field Office. The second case occurs when the Representative Payee does not
respond to the first or second notification and the Field Office subsequently attempts to
contact the Representative Payee and schedule him/her for a visit.

In either case, the Field Office technician helps the Representative Payee fill out the
SSA-623 form and clears the Representative Payee using the CICS SSI Data Input
Screen. At this time, the CICS screen creates a transaction record in a centrally located
traffic file. The PEMI (Post-Entitlement Management Information) system reads the
transactional data from the traffic file and calculates relevant summary counts. PEMI
then transfers the summary counts to IWMS and stores them as DOWR Category 7.



                                           A-9

OFPO uses the GETDOWR to obtain DOWR 7 and subsequently enters it in the Cost

Analysis System (CAS).


International Title II Representative Payee Accounting

The Office of International Operations (OIO) has jurisdiction over all cases where a

beneficiary lives in a foreign country, even if a corresponding Representative-Payee

lives in the United States. The processing of such forms is included in the total count.


The forms are generated, printed and mailed along with the other domestic Title II

Representative Payee accounting forms. Once the forms reach Wilkes-Barre, they are

screened along with the domestic forms. Those that appear to require no additional

work are either scanned or cleared with a CICS screen, and are included with the other

WBDOC counts, as discussed below (see "Representative Payee Accounting Cleared

at WBDOC"). However, some of the forms require additional work and are

subsequently sent to PC 8 in Baltimore. A Direct Service Employee (DSE) reviews

each specific case and determines the action(s) required. These actions are

designated using TEOL (Type of Event Level) Codes. The DSE then generates a

PCACS Action Control Record (ACR) and routes the package to the proper work

station(s). The OIO Technicians use relevant object programs to perform the required

tasks. When the case is complete, the OIO Technician clears the ACR from PCACS

and PCACS subsequently increments the cumulative total work counts for the

corresponding TOEL Codes. OFPO uses TSO GETPCACS to obtain counts from

PCACS using the relevant TOEL Codes. OFPO then enters these values into CAS.


Representative Payee Accounting Cleared at WBDOC

Most of the domestic Title II and Title XVI Representative Payee Accounting Forms and

OIO Foreign Enforcement Forms are sent to the WBDOC and cleared using either the

scanner or a CICS screen. The total electronic counts for the forms cleared at WBDOC

are then reported to OIM via the WB MI report. OIM stores the counts in IWMS. OFPO

subsequently obtains the total yearly count from IWMS and enters the value in CAS.


Total Count

The Cost Analysis System (CAS) sums the components discussed above to obtain PM

#5. OFPO obtains PM #5 from CAS for inclusion in the Accountability Report.



Process #4: SSN Enumeration Process

The SSN enumeration process encompasses performance measure #6. Performance
measure #6, SSN requests processed, totals the number of SSN requests processed
during the fiscal year. The objective of the measure is to assist SSA in positioning their
resources and processes to meet emerging workloads. This objective relates to SSA's
third strategic goal, to "make SSA program management the best in the business, with
zero tolerance for fraud and abuse".




                                           A-10

This performance measure is presented as a workload count, and includes every SSN
request that is completely processed during the fiscal year. SSN requests are
processed and completed through either the enumeration at birth (initiated at the
hospital) process or through the field office process. The count does not include any
pending requests. The FY 1998 performance goal was 16,600,000 requests processed,
and SSA reported the performance result as 16,200,000 requests processed.

Performance measure #6 is obtained from the SSN Enumeration Process. The flow if
information is depicted in Figure 4 and the underlying process is shown in greater detail
in Appendix E.


                                      SSN Enumeration Process

      Enumeration                                                                    Division of Service
                       State Bureau of                           MES Nightly Batch
        at Birth                           SSA Central Office                           Delivery and
                       Vital Statistics                               Run
         Input                                                                        Program Policy




                         Modernized
                        Enumeration                                                                        Accountability
       Field Office                        MES Nightly Batch                           Cost Analysis          Report
                       System (MES)                                 FOSSNER
          Input                                 Run                                    System (CAS)
                      Batch or Interview
                         Input Mode




                                                          Figure 4

The Modernized Enumeration System (MES) is the underlying programmatic system
that facilitates the SSN Enumeration process. There are two major paths for a request
to reach MES. Most SSN requests are initiated in a Field Office. An applicant desires
an original Social Security Number (SSN) and card, a replacement SSN card, a new
Social Security Number, or a name change for an existing Social Security Number.
After receiving the SS-5 SSN request application form, the field office personnel input
the claim into MES using either the "Interview" or "Batch" modes.

The second path into the system is from each of the State's Bureau of Vital Statistics
(SBVS). When a baby is born in a US hospital, the mother fills out forms for the birth
certificate. The SBVS then transfers the applicable information to the SSA Central
Office, where each case is subsequently entered into MES. This path is called
Enumeration at Birth (EAB).

Once in MES, the applications are processed during the subsequent nightly batch run.
The systems performs numerous validations and edit checks, assigns and/or verifies
the Social Security Number, and generates the records needed to print and distribute
the social security card. The system also generates historical transaction records that
are used to prepare various types of management information.




                                                                A-11

Performance measure #6 has two major components, the counts from the Field Offices
and the counts from the Enumeration at Birth process. The SSN Requests that are
initiated through the field offices are tabulated using the Field Office SSN Enumeration
Report (FOSSNER). This report is compiled by OIM using the FOSSNER management
information system. The Division of Service Delivery and Program Policy tabulates the
counts for Enumeration at Birth. Both counts are then provided to DCFAM, and they
are subsequently entered into the Cost Analysis System (CAS). CAS sums the two
components to obtain the performance measure. Each year, OFPO obtains the
performance measure from CAS for inclusion in the Accountability Report.


Process #5: Posted Earnings Process

The posted earnings process encompasses performance measures #7 and #8.
Performance measure #7, annual earnings items, totals the number of annual earnings
items posted to individuals' during the current tax year. The objective of the measure is
to assist SSA in positioning their resources and processes to meet emerging workloads.
This objective relates to SSA's third strategic goal, to "make SSA program management
the best in the business, with zero tolerance for fraud and abuse". This measure is also
used in the calculation of performance measure #8 below.

This performance measure is presented as an estimated workload count, and includes
every claim that is completely processed during the current tax year (TY) The tax year
begins in February of the current fiscal year, and ends in the February of the following
fiscal year. For FY 1998, the TY began on the week ending February 20, 1998, and
ended 52 weeks later. Tax years begin on the first date an individual may send in their
earnings information in one fiscal year, and end on the first day individuals can submit
their earnings information for the following fiscal year. The count does not include any
pending items. As the performance measure information is accumulated prior to the
end of this calculated year, the total amount for the year is estimated, and this
estimation is used as the performance measure. The actual amount is included in the
following annual performance report. The performance measure includes annual
counts for information obtained from current FICA W2s, Medicare for Qualified
Government Employee W2s, and Non-FICA W2s. The FY 1998 performance goal was
253,000,000 annual earnings items posted, and SSA reported the performance result
as 266,011,984 annual earnings items posted.

Performance measure #8, percent of earnings posted to individuals’ records by
September 30, determines how effectively SSA posts individuals' earnings to their
records. The objective is to maintain, through 2002, current levels of accuracy and
timeliness in posting earnings data to individuals’ earnings records. This objective
relates to SSA's third strategic goal, to "make SSA program management the best in the
business, with zero tolerance for fraud and abuse".

This performance measure is presented as a percentage. The numerator is defined as
the total number of individuals' earnings items posted, less self-employment earnings



                                          A-12

items posted, from the beginning of the TY through September 30 of the TY. The
denominator is defined as the estimate of total posted annual earnings for the entire TY
(estimation generated by Office of Information Management and Office of Systems
Requirements). Once the actual amount is determined in the following year, the
performance measure is adjusted accordingly. The FY 1998 performance goal was 98
percent, and SSA reported the performance result as 97.7 percent.

Performance measures #7 and #8 are obtained from the Posted Earnings Process. The
data flow is depicted in Figure 5, and the underlying process is shown in greater detail
in Appendix E.


                                         Posted Earnings Process

         W2 & W3     National Computer      Formatted                Master Earnings
                                                              ERMS                        EPOXY
       Information         Center            Records                   File (MEF)




                                                                                       Accountability
                                                                                          Report




                                                        Figure 5

The Earnings Record Maintenance System (ERMS) is the major programmatic system
used to post earnings. Employers send either paper or magnetic media W-2 and W-3
information to SSA. Conversely, self-employed individuals send their tax returns to the
IRS and they transfer it to SSA via a direct connection. In either case, once the raw
data is balanced, it is sent to File Control at the National Computer Center (NCC) and
subsequently written into commonly formatted records. After performing additional
balancing, validation and edit checks, ERMS posts each individual's earnings to the
Master Earnings File (MEF).

The Office of System Design and Development (OSDD) obtains performance measure
#7, The Total Number of Annual Earnings Items Posted, from EPOXY, a system
designed to provide management information from ERMS. This number is initially
reported as an estimate, and is revised the following year.

The Office of System Design and Development (OSDD) obtains performance measure
#8, The Percentage of Earnings Posted to Individuals Records by September 30th, as
follows: The numerator, the number of earnings posted by September 30, is obtained
from EPOXY. OSDD subsequently obtains the estimated number of earnings posted
for a year from Office of Research Evaluation and Statistics (ORES), and correct this
estimate with data from Office of Systems Requirements (OSR). This is the
denominator. PM #8 is then computed by dividing the numerator over the denominator.


                                                         A-13

OSDD provides Office of Financial Policy (OFPO) with both performance measures for
inclusion in the Accountability Report.


Process #6: SIPEBES Process

The SIPEBES process encompasses performance measure #9. Performance measure
#9, percent of individuals issued SSA-Initiated PEBES as required by law, determines if
SSA is issuing all the SSA-initiated Personal Earnings and Benefit Estimate Statements
(SIPEBES) they are legally required to issue. The objective is to make 9 out of 10
Americans knowledgeable about the Social Security programs in five important areas by
the year 2005. The five areas are: the basic program facts, the financial value of
programs to individuals, the economic and social impact of the programs, how the
programs are financed today, and the financing issues and options. This broad
objective relates to the strategic goal to strengthen public understanding of the social
security programs.

By law, under Section 1143 of the Social Security Act, SSA is required to annually issue
SIPEBES to approximately 15 million eligible individuals age 60 and over during FYs
1996 through 1999 for whom a current mailing address can be determined. SSA
accelerated its’ mailings and as of March 1999 had exceeded the legislative mandate.
For FY 2000, SSA is required to sent SIPEBES annually to all eligible individuals age 25
and over. Eligible individuals include those individuals who have a valid SSN number,
are not in benefit status, have earnings on their record, and who live in the US or a US
Territory. For Puerto Rico and the Virgin Islands the US has a special arrangement with
the tax authorities of these countries to transfer electronically a list with the names and
addresses of the tax paying residents of the respective countries. The measure
excludes those who are deceased or below the stipulated age to receive a SIPEBES,
RIC ‘X’ holders (designates an individual who as a child received benefits), individuals
who have pending claims, recipients for whom an address cannot be located,
individuals who have no earnings posted on the record and individuals who have
received a PEBES within the past fiscal year, either on-request or SSA-initiated.

This performance measure is presented as a percentage. The numerator is defined as
the total number of SIPEBES issued during the fiscal year. The denominator is the total
number of SIPEBES required to be sent by law during the fiscal year. The FY 1998
performance goal was 100 percent, and SSA reported the performance result as 100
percent. PEBES 2000, the new system to process PEBES, will be implemented in FY
2000.

Performance measures #9 is obtained from the SIPEBES Process. The data flow is
depicted in Figure 6, and the underlying process is shown in greater detail in Appendix
E.




                                           A-14

                                          SIPEBES Process
                           Generalized
                             Earnings          SIPEBES      File (Report) with
       NUMIDENT Merge                                                                EMIS
                        Statement System                       YTD Counts
                             (GESS)


         NUMIDENT
                        Master Earnings File
           Data
                                                                                 Accountability
                                                                                    Report




                                                 Figure 6

The SIPEBES process is primarily accomplished using the General Earnings Statement
System (GESS). The process is initiated in the NUMIDENT system. A NUMIDENT
Merge operation sweeps the NUMIDENT Database and drops clients that are deceased
or outside of the relevant age brackets. The NUMIDENT Merge also checks the
PEBES History file and drops clients that have previously received a PEBES. Finally,
the NUMIDENT Merge operation writes eligible clients into files for processing by
GESS.

Each week, GESS determines which segment(s) of clients are eligible for a SIPEBES
and generates a corresponding list. GESS then drops clients that are on the Master
Benefit Record (MBR)6. The system subsequently sends a request for addresses to
the IRS for the clients remaining on the list 7. The list of eligible clients is further
reduced, as many addresses will not be available from the IRS.

GESS obtains earnings records from the Master Earnings File (MEF) for the remaining
SIPEBES clients. After performing numerous validations and edit checks, the system
checks each clients insured status and performs the relevant computations for
estimated benefits. Ultimately, GESS writes the completed PEBES information to an
output file, which is sent to a contractor for printing and mailing. At the same time, a file
of PEBES counts is transferred to OIM via NDM.

OIM enters GESS data and annual NUMIDENT Merge data into MIPEBES, an OIM
system used to obtain management information from PEBES. MIPEBES is then used
to generate reports with annual SIPEBES targets and year to date counts. OIM places

6
  The GESS System assumed that any clients listed on the MBR were in pay status and

consequently dropped them. In reality, there were people dropped such as those with a RIC "X"

record (indicating they received payments as a child) that should have stilled received a

SIPEBES. However, this flaw has been corrected for the new PEBES 2000 System.

7
  The one exception to this is that the addresses for clients living in a US territory are kept at

SSA.



                                                   A-15

this information on the EMIS intranet. OCOMM obtains the relevant data from EMIS
and computes PM #9. The performance measure is then provided to OFPO for
inclusion in the accountability report.




                                        A-16

                                                                               Appendix B

                SCOPE AND METHODOLOGY

The SSA OIG contracted PricewaterhouseCoopers to evaluate nine of SSA's FY 1998
performance indicators that were established by SSA to comply with GPRA. Testing
was performed from June 9, 1999 through October 1, 1999, as follows:

•    Gain an understanding and document the current FY 1999 system sources from
     which data is collected to report on the specified performance measures;
•    Identify and test critical controls (both electronic data processing (EDP) and manual)
     of current FY 1999 systems from which the specified performance data is generated;
•    Test the accuracy of the underlying FY 1998 data for each of the specified
     performance measures;
•    Recalculate each specific FY 1998 measure to ascertain its mathematical accuracy;
•    Evaluate the impact of any relevant findings from prior and current audits with
     respect to SSA's ability to meet performance measure objectives; and
•    Identify findings relative to the above procedures and make suggestions for
     improvement.

As a result of our reliance on prior and current SSA audits, our report contains the
results of internal control testing and system control deficiencies.

Limitations
Our engagement was limited to testing at SSA headquarters. Furthermore, when
recalculating the specific performance measures, we used FY 1998 data except when
SSA was unable to provide all the documentation necessary to fully evaluate the FY
1998 performance measure amounts reported in the Accountability Report. In those
cases, FY 1999 data was evaluated.

These procedures were performed in accordance with the AICPA's Statement on
Standards for Consulting Services, and is consistent with Government Auditing
Standards (Yellow Book, 1994 version).


1.      Gain an understanding and document the sources from which data is
        collected to report on the specified performance measures

We obtained an understanding of the underlying processes and operating procedures
surrounding the generation of performance measures through interviews and meetings
with the appropriate SSA personnel and by reviewing the following documentation:

i Policies and procedures manual for procedures surrounding the processing,
  accumulating, and reporting of the data for the nine performance measures;



                                            B-1
i PwC system walk-through descriptions;
i SSA-provided system descriptions;
i Internal or external reports on the nine performance measures (including OIG, GAO,
  etc.); and,
i Review of any of the nine performance measures performed in conjunction with prior
  financial audits by PricewaterhouseCoopers.


2.      Identify and test critical controls (both EDP and manual) of systems from
        which the specified performance data is generated

Based on the understanding we obtained above in Methodology #1, we identified key
controls for the nine performance measures. For each of the nine performance
measures, the controls surrounding the following were tested (Note: in cases where
PricewaterhouseCoopers tested key controls as part of prior financial audits, findings
were updated, and testing was not reperformed):

Performance Measure #1: Percent of OASI claims processed by the time the first
regular payment is due or within 14 days from effective filing date, if later

•    Claims input, claims adjudication, earnings addition and modification, SSN
     establishment
•    Receipt of claims
•    Data transmitted from MCS to WMS
•    Applicable application controls
•    Applicable general computer controls
•    Resolution of DACUS (Death, Alert, and Control Update System) exception file
•    Data input for DACUS
•    Current procedural and systems documentation for CAS

Performance Measure #2: OASI claims processed

•    Claims input, claims adjudication, earnings addition and modification, SSN
     establishment
•    Receipt of claims
•    Data transmitted from MCS to WMS
•    Applicable application controls
•    Applicable general computer controls
•    Resolution of DACUS (Death, Alert, and Control Update System) exception file
•    Data input for DACUS
•    Current procedural and systems documentation for CAS




                                          B-2
Performance Measure #3: Percent of initial SSI aged claims processed within 14 days
of filing

•   Daily transmission of SSI Aged Claims to the SSI Claims Exception Control System
•   Monthly transmission of SSI Aged Claims data for completed claims to the SSI
    Claims Reporting System (SSICR)
•   GETSSICR extraction process by OIM
•   Applicable application controls
•   Applicable general computer controls
•   Resolution of DACUS (Death, Alert, and Control Update System) exception file
•   Data input for DACUS
•   Current procedural and systems documentation for CAS

Performance Measure #4: SSI aged claims processed

•   Daily transmission of SSI Aged Claims to the SSI Claims Exception Control System
•   Monthly transmission of SSI Aged Claims data for completed claims to the SSI
    Claims Reporting System (SSICR)
•   GETSSICR extraction process by OIM
•   Applicable application controls
•   Applicable general computer controls
•   Resolution of DACUS (Death, Alert, and Control Update System) exception file
•   Data input for DACUS
•   Current procedural and systems documentation for CAS

Performance Measure #5: Representative Payee actions

•   Representative Payee Accounting forms received at WBDOC and processed via
    CICS are removed from ROBOT file
•   Representative Payee Accounting forms received at WBDOC and processed via the
    scanner are removed from ROBOT file
•   Title II Representative Payee Accounting actions processed via a Field Office are
    transferred to the PEMI application and ultimately into IWMS
•   Title XVI Representative Payee accounting actions processed via a Field Office are
    transferred to the PEMI application and ultimately into IWMS
•   Title II and Title XVI Representative Payee Changes processed via a Field Office are
    transferred to the PEMI application and ultimately into IWMS
•   Title II and Title XVI Representative Payee Accounting transmission of WB MI
    Report from WBDOC to OIM
•   Representative Payee International Accounting actions transfer into CAS
•   Representative Payee International Changes actions transfer into CAS
•   Applicable application controls
•   Applicable general computer controls
•   Current procedural and systems documentation for CAS



                                          B-3
Performance Measure #6: SSN requests processed

•   SSA receipt of Enumeration at Birth (EAB) data
•   OIM receipt of all completed EAB and FO transactions
•   OIM summary reporting process of all FO transactions
•   Applicable application controls
•   Applicable general computer controls
•   Receipt of adequate and appropriate proofs of identity and age from new and
    replacement SSN applicants
•   Review of the Weekly District Office Sample Report by field office personnel
•   Review of the Diary Alert Report by field office personnel
•   Verification of birth certificates for original SSNs for U.S. citizens under 18 years of
    age, either at field offices or through the Enumeration at Birth process
•   Current procedural and systems documentation for CAS

Performance Measure #7: Annual earnings items

•   Applicable application controls
•   Applicable general computer controls
•   Implementation of established tactical plan addressing the suspense file and
    reconciliation issues
•   Procedures for changing the status of processed batches of data from "hold" to
    "verified"
•   Current procedural and systems documentation for CAS

Performance Measure #8: Percent of earnings posted to individuals’ records by
September 30

•   Applicable application controls
•   Applicable general computer controls
•   Implementation of established tactical plan addressing the suspense file and
    reconciliation issues
•   Procedures for changing the status of processed batches of data from "hold" to
    "verified"
•   Current procedural and systems documentation for CAS

Performance Measure #9: Percent of individuals issued SSA-Initiated PEBES as
required by law

•   "NUMIDENT Merge"
•   IRS address request
•   SSA Print Management SIPEBES verification
•   Postal Service SIPEBES verification
•   OIM receipt of SIPEBES count
•   Applicable application controls


                                             B-4
•    Applicable general computer controls

All Performance Measures

•    Formation of specific systems requirements for different major development projects,
     routine maintenance, and cyclical changes
•    Information protection control structure (system security)
•    SSA's systemic contingency plan
•    Documentation of program changes evidencing user approval and testing
•    SSA's System Security Handbook


3.      Test the accuracy of the underlying data for each of the specified
        performance measures

Based on the understanding we obtained above in Methodology #1, we identified key
files, databases, and reports for the nine performance measures. To ensure data
availability and to evaluate the data, Computer Assisted Audit Techniques (CAATs)
testing was performed for each of the nine performance measures as follows:

Performance Measure #1: Percent of OASI claims processed by the time the first
regular payment is due or within 14 days from effective filing date, if later

•    Replicated End-of-Line Processing Time Report to ensure integrity of data;
•    Traced DOWR values to MIICR database;
•    Traced RSDHI database (DB) values to the MIICR Summary file;
•    Tested disability edits and validations for effectiveness;
•    Compared the NUMIDENT and the MBR to ensure that individuals listed as alive
     and in current pay status on the MBR are not listed as dead on the NUMIDENT; and
•    Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for
     a given individual have the same date of death.

Performance Measure #2: OASI claims processed

•    Replicated DOWR to ensure integrity of data;
•    Traced DOWR values to MIICR database;
•    Traced RSDHI DB values to the MIICR Summary file;
•    Tested disability edits and validations for effectiveness;
•    Compared the NUMIDENT and the MBR to ensure that individuals listed as alive
     and in current pay status on the MBR are not listed as dead on the NUMIDENT; and
•    Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for
     a given individual have the same date of death.




                                            B-5
Performance Measure #3: Percent of initial SSI aged claims processed within 14 days
of filing:

•   Monthly data obtained via the GETSSICR module matches the monthly total for SSI
    Aged Claims identified in the SSICR area;
•   Traced from WMS to SSI Exception Control System to ensure accuracy of
    transmittal;
•   Performed test on segment 16 of the SSR in order to determine the percentage of
    SSI Aged Claims processed in 15 days or more of filing date;
•   Evaluated data transmittal from monthly SSICR file to the GETSSICR module;
•   Evaluated data transmittal from the SSR system to the SSI Claims Exception Control
    System;
•   Compared the NUMIDENT and the SSR to ensure that individuals listed as alive and
    in current pay status on the SSR are not listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for
    a given individual have the same date of death.

Performance Measure #4: SSI aged claims processed:

•   Monthly data obtained via the GETSSICR module matches the monthly total for SSI
    Aged Claims identified in the SSICR area;
•   Traced from WMS to SSI Exception Control System to ensure accuracy of
    transmittal;
•   Performed test on segment 16 of the SSR in order to determine the percentage of
    SSI Aged Claims processed in 15 days or more of filing date;
•   Compared the NUMIDENT and the SSR to ensure that individuals listed as alive and
    in current pay status on the SSR are not listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for
    a given individual have the same date of death.

Performance Measure #5: Representative Payee actions

•   Compared the before and after ROBOT file to ensure file was updated;
•   Compared CSREPRET.R0909 file to ROBOT.G1574 file to ensure ROBOT file was
    updated;
•   TITLE II REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with
    the IWMS file to ensure the two record counts were equal;
•   TITLE XVI REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file
    with the IWMS file to ensure the two record counts were equal; and
•   TITLE II & XVI REPRESENTATIVE PAYEE CHANGES - Compared the PEMI file
    with the IWMS file to ensure the two record counts were equal.

Performance Measure #6: SSN requests processed

•   Compared the OIM Monthly Summary File to the appended daily history file; and



                                         B-6
•    Queried the MES file of the NUMIDENT to replicate the September 1998 FOSSNER,
     National and Regional Totals Processed, and EAB records processed, to ensure
     integrity of data.

Performance Measure #7: Annual earnings items

•    Ensured online central office Master Earnings File database fields were valid; and
•    Replicated processed earnings items reported on Epoxy Accounting Statistics
     Report (Based upon sampling).

Performance Measure #8: Percent of earnings posted to individuals’ records by
September 30

•    Ensured online central office Master Earnings File database fields were valid; and
•    Replicated processed earnings items reported on Epoxy Accounting Statistics
     Report (Based upon sampling).

Performance Measure #9: Percent of individuals issued SSA-Initiated PEBES as
required by law

•    Extracted all eligible clients to receive a SIPEBES and compared record count to
     that of the records extracted via the NUMIDENT merge;
•    Compared the record count SSA sends to IRS to requested addresses;
•    Identified that Master Earnings File records have a corresponding record on the
     NUMIDENT; and
•    Evaluated the selection of SIPEBES recipients per specific criteria.


4.      Recalculate each specific measure to ascertain its mathematical accuracy

Based on the understanding we obtained above in Methodology #1, we requested and
reviewed documentation to ensure the mathematical accuracy of the nine performance
measures as follows:

Performance Measure #1: Percent of OASI claims processed by the time the first
regular payment is due or within 14 days from effective filing date, if later

•    Traced FY 1998 performance measure from FY 1998 Accountability Report to RSI
     Service Delivery Objective (SDO) Cumulative spreadsheet dated 10/97 – 9/98;
•    Traced RSI Service Delivery Objective (SDO) Cumulative spreadsheet dated 10/97
     – 9/98 to monthly End-of-Line Processing Time Reports dated 10/98 – 9/98; and
•    Recalculated spreadsheet and nation totals related to RSI SDO spreadsheet
     reported on processing times reports.




                                            B-7
Performance Measure #2: OASI claims processed

•   Traced FY 1998 performance measure value per the Accountability Report to the
    CAS report; and
•   Traced the performance measure value per the CAS report to the DOWR, generated
    from the MIICR database, to determine reasonableness of amount reported.

Performance Measure #3: Percent of initial SSI aged claims processed within 14 days
of filing:

•   Traced performance measure per SSICR (item #304) to the FY 1998 Accountability
    Report.

Performance Measure #4: SSI aged claims processed:

•   Traced the performance measure values in the FY 1998 CAS Report to the value in
    the FY 1998 Accountability Report;
•   Traced the performance measure DOWR counts from the FY 1998 DOWR Report to
    the values in the FY 1998 CAS Report; and
•   Traced the performance measure IWMS value for FY 1998 to the FY 1998 DOWR
    count and CAS Report.

Performance Measure #5: Representative Payee actions:

•   Traced the performance measure value per the FY 1998 CAS Report to the number
    reported in the FY 1998 Accountability Report; and
•   Traced the performance measure IWMS value to the values in the FY 1998 CAS
    Report.

Performance Measure #6: SSN requests processed:

•   Traced the performance measure value per the FY 1998 Accountability Report to the
    values in the EAB and FOSSNER reports; and
•   Traced the performance measure values per the EAB and FOSSNER reports to
    MES.

Performance Measure #7: Annual earnings items

•   Traced performance measure values per the FY 1998 Accountability Report to the
    values per the CAS Report;
•   Traced the performance measure values per the CAS Report to the performance
    measure values per the Epoxy Accounting Statistics Report; and
•   Traced the performance measure values per the Epoxy Accounting Statistics Report
    to the performance measure values in ERMS.




                                         B-8
Performance Measure #8: Percent of earnings posted to individuals’ records by
September 30

•    Traced performance measure values per the FY 1998 Accountability Report to the
     values per the CAS Report;
•    Traced the performance measure values per the CAS Report to the performance
     measure values per the Epoxy Accounting Statistics Report;
•    Traced the performance measure values per the Epoxy Accounting Statistics Report
     to the performance measure values in ERMS; and
•    Reperformed and verified calculation output on AWR spreadsheets.

Performance Measure #9: Percent of individuals issued SSA-Initiated PEBES as
required by law

•    Recalculated the performance measure value reported in the FY 1998 Accountability
     Report (Value is from PSIW01 Report); and
•    Traced the PSIW01 value use in the calculation of the performance measure to the
     GESS Report.


5.      Provide OIG management with a written report identifying findings relative
        to the above procedures, and with suggestions for improvement

Based upon the evaluation performed, as outlined in the four above methodologies,
PricewaterhouseCoopers has prepared a written report detailing the internal control
deficiencies in SSA's performance measurement systems, as well as inaccuracies in
SSA data used to report on the nine selected performance measures. PwC has also
provided recommendations to address the system deficiencies and data inaccuracies
noted during the performance of the agreed upon procedures.


6.      Evaluate the impact of any relevant findings from prior and current audits
        with respect to SSA's ability to meet performance measure objectives

PricewaterhouseCoopers has noted five relevant findings from prior and current audits
that may impact SSA's ability to meet performance measure objectives. All findings
were noted in our FY 1999 financial audit. As previously stated in the FY 1999
Accountability Report, the relevant findings impact all performance measures, and are
as follows:

•    SSA has a number of data integrity deficiencies
•    SSA's system environment has security deficiencies
•    CAS procedural and systems documentation have not been updated
•    SSA has systems design and documentation deficiencies
•    SSA has a number of deficiencies in their systems contingency plan



                                          B-9
                                                                            Appendix C

                      AGENCY COMMENTS
January 28, 2000


James G. Huse, Jr.
Inspector General

William A. Halter
Deputy Commissioner


Office of the Inspector General (OIG) Draft Report, "OIG Performance Measure Review:
Summary of PricewaterhouseCoopers (PwC) LLP Review of SSA’s Performance Data”

We appreciate the opportunity to comment on the draft summary report. We also
appreciate the OIG/PwC acknowledgement that SSA has developed a number of useful
performance measures in the spirit of the Government Performance and Results Act
(GPRA) and has discussed them in proper detail in the FY 2000 Performance Plan.

Further, we appreciate the report’s stated intention to provide SSA with suggestions
which may assist us in preparing for the final phases of GPRA. However, we believe
the report should more clearly state throughout that current GPRA requirements were
not in effect during FY 1998, the year for which the data were examined, and that it
would therefore be inappropriate to extrapolate the findings to SSA’s implementation of
GPRA for FY 1999 or FY 2000.

The GPRA statute requires that certain elements be included in annual performance
plans and that other elements be included in annual performance reports. GPRA
further requires that agencies prepare annual performance plans that set out specific
performance goals for FYs beginning with 1999. It also requires that agencies report
annually on performance compared to goals, with the first report due in March 2000, to
cover FY 1999. As mentioned above, the requirements of GPRA, including a
description of the means employed to verify and validate the measured values used to
report on program performance, were not in effect for FY 1998. SSA’s efforts in this
area were preliminary, and have significantly evolved with our FY 1999 and FY 2000
GPRA documents.

For FY 1998, and as we were moving toward preparation of our first GPRA Strategic
Plan and our Annual Performance Plan for FY 1999, SSA published a Business Plan.
We stated in our Business Plan that for FY 1998 we were including performance
measures for which we had measurement systems in place and current performance
information. We also included related output measures for several priority workloads.


                                          C-1
Although not a GPRA requirement, we also elected to report in our FY 1998
Accountability Report on those FY 1998 goals which we decided to include in our FY
1999 Annual Performance Plan. We did not however, meet all the requirements for an
Annual Performance Report in that document nor was it our intention to do so. We are
concerned that implicit in many of the report’s recommendations is the erroneous
conclusion that SSA should have complied, in 1998, with statutory requirements that
were not yet in effect. We believe that all GPRA requirements are met, as required by
statute, by our recently released FY 1999 GPRA Performance Report.

Finally, as you know, 30 of the 40 recommendations contained in the subject audit
report are either exactly duplicative or very nearly duplicative of recommendations
contained in past financial statement audit reports. Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response. We will, of course, continue our efforts to
implement corrective actions, as appropriate, and to provide status reports until
completed.

As you indicate, SSA is positioned to be a leading performance based budgeting
organization and to meet the future requirements of GPRA. The Office of Management
and Budget has designated SSA as a pilot project for performance budgeting. The
continuing disability reviews program is the specific activity covered by this designation
and the time period covered will be FY 2001. We anticipate that our participation will
enrich the learning from the government-wide pilot with regard to the feasibility and
impacts of performance based budgeting.

Attached are specific comments to the draft report. Staff questions may be referred to
Odessa J. Woods on extension 50378.



Improvement Area 1--SSA lacks sufficient performance measure process
documentation and did not retain documents to support the FY 1998 amount.

Recommendation 1

1.     We recommend that SSA place ownership for the performance measure process
and reporting within an organizational unit. Data ownership would still remain with the
user organizations. However, an organizational unit should be accountable for the
overall performance measure processes and results. Their charter should include the
following responsibilities:

•   Identify and document the processes surrounding the generation and accumulation
    of performance measure values. This would establish a clear method for verifying
    and validating the performance measures.




                                           C-2
•   Establish policies and procedures surrounding the retention of performance measure
    documentation. The documentation retained should allow for the timely verification
    of the performance measure values, and should be maintained for at least one year.

•   As new systems are developed, evaluate their potential impact on the accumulation
    of performance measure data. Systems with potential impact should be designed to
    include the means of producing a verifiable audit trail to validate the performance
    measure results as they are defined in the Accountability Report.

Response to Recommendation 1

We agree in concept with this recommendation. SSA’s Office of Strategic Management
(OSM) is responsible for coordinating the Agency’s GPRA activities. In addition, we will
continue to work to improve the development and retention of the kind of documentation
needed for external audits of our performance measures.


Improvement Area 2--SSA has a number of data integrity deficiencies.

Recommendations 2-10

Response to Recommendations 2 - 10

These recommendations are either a direct reprint of the recommendations contained in
PricewaterhouseCoopers' (PwC) FY 1998 Management Letter, Part 2 or a reiteration
containing only minor editorial changes.

Recommendation 2

We recommend the following:

•   SSA should explore ways to expedite its efforts in approving and implementing the
    established tactical plan addressing the suspense file and reconciliation issues
    (ERMS)

Response to Recommendation 2

We agree and will explore ways to expedite implementation of the tactical plan item.
However, dependencies on other issues and initiatives will impede upon expediting this
particular initiative.




                                          C-3
Recommendation 3

•   SSA should provide institutional oversight and regular training to authorized FO
    personnel in the processing of SS-5s (MES)

Response to Recommendation 3

We agree and will provide oversight and regular training to authorized field office
personnel in the processing of SS-5s.

Recommendation 4

•   SSA should develop and implement detailed procedures in the Program Operations
    manual System (POMS) for reviewing the Enumeration Sample Listing. Procedures
    should specifically address: 1) the individual who is to perform the review, 2) steps
    on how to complete the review and document the results of the review, and 3) the
    individual whom is to approve the review, as well as requirements for annotating the
    approval signature on the report. In addition, POMS should define retention
    requirements for the records of completed reviews (MES)

Response to Recommendation 4

We agree. The weekly Enumeration Sample Listing will be automated in the
Comprehensive Integrity Review Process (CIRP) Release 2.0, which will be
implemented in March 1999. Procedures for processing the automated Enumeration
Sample Listing will be included in the Integrity Review Handbook, which will be issued in
March 1999. The clearance report associated with the review will be maintained
electronically in CIRP, obviating the need for FO documentation retention.

Recommendation 5

•   SSA should develop and implement detailed procedures in POMS for reviewing the
    Diary Alert. Procedures should specifically address: 1) the individual who is to
    perform the review, 2) steps on how to complete the review and document the
    results of the review, and 3) the individual who is to approve the review, as well as
    requirements for annotating the approval signature on the report. In addition, POMS
    should define retention requirements for the records of completed reviews (MES)

Response to Recommendation 5

We agree and will develop and implement detailed procedures in POMS for reviewing
the Diary Alert.




                                           C-4
Recommendation 6

•   SSA should perform a third party review of state agencies, such as a Statement on
    Auditing Standards (SAS) 70 review. A SAS 70 review will determine if key manual
    and automated controls are in place and working as intended to ensure the security,
    validity, completeness, and accuracy of SSA data (MES)

Response to Recommendation 6

We request the auditors reconsider this recommendation. The States are responsible
for registering births and issuing birth certificates to individuals and SSA has no basis
nor reason to question the States’ procedures and processes. The auditors have
presented no documentation that States are issuing invalid birth certificates and we
have no experience to that effect. It would constitute an unfunded mandate for SSA to
require the States to prove they are correctly performing an inherent State function.

Recommendation 7

•   SSA should develop policies and procedures for the resolution of unmatched items
    in DACUS and establish a work group with primary responsibility for resolution. One
    of the duties of this group should be to analyze patterns in exceptions and facilitate
    the implementation of changes to the automated matching algorithm to make it more
    effective

Response to Recommendation 7

We agree that a workgroup should be established to determine DACUS exception
patterns and make recommendations on changes in matching routines, as appropriate.
The workgroup will be led by the Office of Systems Requirements with involvement from
others impacted components. We have already determined that gender should be
deleted as a matching item and plan to implement this change before the Year 2000
moratorium. DACUS Release 5 will be the vehicle for implementing changes
recommended by the workgroup.

Recommendation 8

•   SSA should implement: 1) initiatives to reduce the amount of time required by
    outside sources for submitting death notifications, such as the electronic death
    certificate project currently being tested; and, 2) a method to prevent the submission
    or receipt of duplicate information, whether submitted from the same or different
    sources (DACUS, NUMIDENT, MBR, SSR)




                                            C-5
Response to Recommendation 8

We partially agree with this recommendation. We agree with the first bulleted item. We
have provided for Systems support for an Electronic Death Certificate process in the
appropriate 5-Year plans.

We request the auditors reconsider its recommendation contained in the second
bulleted item. The recommendation to prevent receipt/issuance of duplicate death data
concerning the same individual from multiple sources is technically impossible. To
prevent reporting duplication, it would require that all agencies have direct, interactive
access to the SSA databases, which is not advisable. Even that would not prevent
individual sources such as family members and funeral directors also from reporting on
someone previously reported by an agency. (There is no way to “receive” only certain
records on a given file.)

SSA only pays State Bureaus of Vital Statistics for death data and then only if it is the
first report of death. In future DACUS analysis efforts, we will examine the MI for State
data to ensure that it is properly identifying only those records for which payment is due.

Recommendation 9

•   With the completion of the Year 2000 project in FY 2000, SSA should begin
    implementation of DACUS Release 2 (a high priority of SSA’s five-year IRM plan), to
    provide functionality to automatically delete NUMIDENT death postings when a
    person is “resurrected” on the MBR and SSR (NUMIDENT, MBR, SSR)

Response to Recommendation 9

We agree. We expect to complete Year 2000 DACUS activities in early 1999. We will
then develop the schedule for DACUS Release 2 and include the dates in the 3/99
update of the Enumeration/Client 5-Year plan.

We also would like to clarify item C as the Findings section is inaccurate. Date of death
processing was not a part of Release 2 of ICDB in 8/97 for title II or XVI. However, we
did do a special clean-up of MBR and SSR death data to the Numident in 1998. This is
what accounts for the vast drop in discrepant cases. The remaining cases failed the
automated matching routines, generally because of significant differences in names.
Manual investigation would have to be undertaken to determine if the individuals are
indeed the same person. We also note that SSA policy requires investigation of date
discrepancies only when they would be significant to a finding of overpayment; i.e.,
when a person has already been terminated for another reason such as disability
cessation, a later death date would have no impact.




                                           C-6
Recommendation 10

•   SSA should firm up plans to implement the ICDB R2 functionality for the SSI system
    (SSR) to provide updated (substantiated) date of birth information to the NUMIDENT
    (NUMIDENT, MBR, SSR)

Response to Recommendation 10

We request the auditors reconsider its recommendation as it is inaccurate. Date of birth
processing was included in ICDB Release 2 in 8/97 for both Title II and XVI initial claims
cases; there is no outstanding need to develop this capability for SSI cases. What does
remain is the clean-up of the pre-existing data as described in III. 6. General above.
That “mass saturation” was NOT done in 6/98 as stated by PwC. What was executed in
1998 was the clean-up of existing dates of death.

Recommendation 11

SSA should review the MSSICS process, looking for an opportunity to implement an
automated date stamp for the purposes of initiating performance measurement, while
retaining the ability to manually input or overkey each applicant's effective filing date.

Response to Recommendation 11

We agree with the concept of this recommendation. However, before we can agree to
implementation, the impact of systems resources required for implementation must be
reviewed in light of the Agency’s overall systems priorities. A decision concerning the
feasibility of including this in our 5-year plan will be made by September 2000. This will
allow sufficient time to review systems requirements and determine resource
availability.


Improvement Area 3--SSA's system environment has security deficiencies.

Recommendations 12-22

Response to Recommendations 12-22

These recommendations are direct reprints of findings and recommendations contained
in PwC’s FY 1999 report on management's assertion about the effectiveness of internal
control.

Recommendation 12

As previously reported in the FY 1999 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and


                                             C-7
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•   Reevaluate its overall organization-wide security architecture;

Response to Recommendation 12

SSA agrees with this recommendation and is initiating a full reassessment of its
organization-wide security architecture to ensure that vulnerabilities, especially those
introduced by new technology, are being addressed. This strategic reassessment will
allow SSA to identify any additional initiatives needed to upgrade its programs.
Enhancements to the existing architecture resulting from this activity will be
implemented and communicated to all SSA components.

Recommendation 13

•   Reassess the security roles and responsibilities throughout the organization’s central
    and regional office components;

Response to Recommendation 13

SSA agrees with this recommendation and is currently reassessing security roles and
responsibilities. Recently, SSA elevated the organizational structure of the entity for
information systems security within the Office of Finance, Assessment and
Management. Also, within the Office of Operations, a higher level security oversight
group was formed and there was a reassessment of regional security officer roles to
emphasize the increased importance of their roles.

Recommendation 14

•   Assure that the appropriate level of trained resources are in place to develop,
    implement and monitor the SSA security program;

Response to Recommendation 14

SSA agrees with this recommendation and has enhanced security training by directing
additional funds toward new security training courses for both Headquarters and
regional security staffs. In addition, the Office of Systems is taking steps to improve its
security program by obtaining additional expertise via contractor services.

The additional training and the organizational refocusing discussed above will ensure
the appropriate level of trained resources are in place to develop, implement and
monitor the SSA security program.




                                            C-8
Recommendation 15

•   Enhance and institutionalize an entity-wide security program that facilitates
    strengthening of LAN and distributed systems’ security;

Response to Recommendation 15

SSA agrees with the recommendation and has been working diligently on improvements
in this area. SSA will continue to enhance and institutionalize the entity-wide security
program through a series of enhancements to the mainframe, LAN and distributive
systems. The enhancements will include: improved monitoring of access controls,
particularly in field activities; full implementation of the Enterprise Security Interface;
administrative monitoring and penetration testing.

Recommendation 16

•   Review and certify system access for all users;

Response to Recommendation 16

SSA agrees with this recommendation and continues to make progress in this area.
The Office of Systems continues to work aggressively to adjust access rights under its
Standardized System Profile Project.

Recommendation 17

•   Enhance procedures for removing system access when employees are transferred
    or leave the agency;

Response to Recommendation 17

SSA agrees with this recommendation and will continue to improve our procedures and
the comprehensive processes already in place for removing system access when
employees are transferred or leave the Agency.

Recommendation 18

•   Decrease vulnerabilities in the mainframe operating system configuration;

Response to Recommendation 18

SSA agrees with this recommendation and will continue to evaluate our mainframe
operating system configuration and initiate changes to protect against threats, both
deliberate and nonintentional.




                                            C-9
Recommendation 19

•   Implement the mainframe monitoring process;

Response to Recommendation 19

SSA agrees with this recommendation. As acknowledged earlier in the report, SSA has
established the SMART Report, which is distributed to the security officers responsible
for the groups using the systems. While most users are in non-Headquarters offices, all
users, including those in central office, are tracked and monitored. Procedures have
been distributed which focus the reviews on specific types of transaction scenarios,
thereby making the SMART system a more useful security management and
enforcement tool. We agree that additional enhancements for increased use of the
report can be made both in the field and in central office. We will continue to improve
the use of the report to monitor inappropriate access to SSA's systems.

Recommendation 20

•   Finalize accreditation and certification of systems;

Response to Recommendation 20

SSA agrees with this recommendation and either certified or recertified all of SSA's
sensitive systems in July 1999.

Recommendation 21

•   Develop and implement an ongoing entity-wide information security compliance
    program; and

Response to Recommendation 21

SSA agrees with this recommendation and has a number of existing and planned
programs to monitor compliance with security policies and procedures. In addition to
automated controls, SSA also monitors compliance through programmatic and systems
audits, financial systems reviews, and other internal studies and reviews.

SSA has make progress in developing the Comprehensive Integrity Review Process
(CIRP) system that will consolidate integrity review functions into a single automated
facility where transactions will be screened against specific criteria. The criteria include
cross-application criteria and can be changed to concentrate on emerging trends. SSA
remains committed to ongoing enhancement and implementation of the CIRP system.

Recommendation 22

•   Strengthen physical access controls at non-headquarters sites.


                                            C-10
Response to Recommendation 22

SSA agrees with this recommendation and is committed to strengthening security at
non-Headquarters sties. We are in the process of enhancing the badging procedures
and policy enforcement in the regions and other major non-Headquarters facilities. In
addition, the Agency, through its security tactical plan, has been working to increase
physical security at the National Computer Center (NCC) and SSA facilities around the
country.


Improvement Area 4--Three of SSA's performance measures could better reflect
agency performance.

Performance Measure #5—Representative Payee Actions

Recommendation 23

We recommend that SSA divide this performance measure into two separate metrics:
(1) Representative Payee Changes, and (2) Representative Payee Accounting. This
would result in two groupings of activities that would be more homogenous with respect
to cost and/or resource requirements. It would also be straightforward to implement
since the required data is already obtained and stored in the CAS system.

Response to Recommendation 23

We disagree. “Rep payee actions” is, as stated, a major budgeted workload, not an
individual workload. Many budgeted workloads consist of more than one type of action
with separate process counts. We do not believe that subdividing the output measure
of this budgeted workload would be useful or consistent with the intent of this section of
the Annual Performance Plan.

Performance Measure #1—Percent of OASI claims processed by the time the first
regular payment is due, or within 14 days from effective filing date, if later.

Recommendation 24

We recommend that the performance measure be redefined so that it does not expose
the agency to such a high degree of outside factors, thus placing the responsibility to
perform solely on SSA.

Performance Measure #3—Percent of initial SSI aged claims processed within 14 days
of filing.




                                           C-11
Recommendation 25

We recommend that the performance measure be redefined so that it does not expose
the agency to such a high degree of outside factors, thus placing the responsibility to
perform solely on SSA.

Response to Recommendations 24 and 25

We do not believe these performance measures should be redefined. We understand
that there are some elements of these two performance measures that are not within
our control; however, SSA is comfortable with making the commitments contained
therein. In addition, we believe that these measures are meaningful to the “external
customer.”


Improvement Area 5--GPRA documents prepared for external evaluation of SSA
performance do not clearly indicate the sources of the performance measures.

Recommendation 26

We recommend that SSA develop clear and concise descriptions of each performance
measure's source.

Response to Recommendation 26

We agree that reporting documents prepared for public consumption should contain, in
lay terms, clear descriptions of the sources of our performance measures. We will
consult with your office to determine where you believe this is not the case. In addition,
we would note that, our documents comply with the requirements of GPRA with regard
to appropriate level of documentation of the sources for external audiences. The A-11
guidance specifically recommends the following information on data sources:

•   The current existence of relevant baseline data, including the time-span covered by
    trend data;
•   The expected use of existing agency systems in the collection and reporting of data;
•   The source of the measured data;
•   Any expected reliance on an external source(s) for data, and identification of the
    source(s); and
•   Any changes or improvements being made to existing data collection and reporting
    systems or processes to modify, improve, or expand their capability.

SSA’s FY 2000 Annual Performance Plan meets all these requirements.

Where additional, technical detail describing underlying processes and programmatic
systems that produce the reported metrics are needed by OIG and GAO auditors, we
will continue to make this detail available.


                                           C-12
Improvement Area 6--SSA did not calculate three of the performance measures as
they are stated in their respective definitions.

Performance Measure #1—Percent of OASI claims processed by the time the first
regular payment is due, or within 14 days from effective filing date, if later.

Recommendation 27

We recommend that SSA clarify the definition given for the performance measurement
to include language stating that the total number of OASI claims processed is reduced
by certain types of RSI claims excluded from the timeliness report by the MIM II manual.
In addition, we recommend that SSA include an appropriate footnote in its
Accountability Report to reflect what is and is not included in the performance measure.

Response to Recommendation 27

We agree. We will take steps to include the clarification in our FY 2002 Annual
Performance Plan.

Performance Measure #8—Percent of earnings posted to individuals’ records by
September 30

Recommendation 28

We recommend that SSA include the self-employment earnings in their calculation of
performance measure #8, as this calculation would more accurately reflect the objective
of the measure. If this is not feasible, we recommend that SSA clarify the definition
given for the performance measurement to include language stating that the total
number of annual earnings items posted is reduced by the number of self-employment
wages processed by the IRS. In addition, we recommend that SSA include a footnote
in its Accountability Report to indicate that the percent of annual earnings posted by
September 30th performance measurement is calculated on total annual earnings items
posted less self-employment wages processed by the IRS.

Response to Recommendation 28

This is duplicative of the recommendation made in the OIG report entitled,
“Performance Measurement Review: Survey of the Sources of the Social Security
Administration’s Performance Measurement Data” (A-02-98-01004), which was issued
in final on November 22, 1999.

We agree. Effective with our revised final fiscal year (FY) 2000 APP and in our FY 2001
APP, we have clarified that self-employment earnings are not included in the earnings
measure.

We have made the following changes to the earnings process indicator:



                                         C-13
Indicator FROM:                           Indicator TO:

Percent of earnings posted to             Percent of wages posted to individuals'
Individuals' records by September 30      records b y September 30

Also, effective with our FY 2000 APP, we clearly stated in the definition of the indicator
for the percent of SSNs assigned via the Enumeration-at-Birth process and the time
associated with the delivery of the SSN card to the applicant.

Performance Measure #9—Percentage of individuals issued SSA-Initiated PEBES as
required by law

Recommendation 29

We recommend that SSA include the 'bad history' records in the SIPEBES count within
OIM report.

Response to Recommendation 29

We agree. This correction was made with the implementation of a new system that now
includes these records in the count of self-initiated Social Security Statements.

Improvement Area 7--A component was inadvertently omitted when calculating
the total of one of the performance measures.

Recommendation 30

We recommend that SSA develop and implement a review process for the manual
calculation of the annual Representative Payee Action total count.

Response to Recommendation 30

We agree. The problem identified during the instant OIG review concerning
International Representative Payee Accounting has been corrected. A review process
has also been implemented to validate the manual calculation.




                                           C-14
Improvement Area 8--The Cost Analysis System's (CAS) procedural and systems
documentation have not been updated.

Recommendation 31

We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.

Response to Recommendation 31

This recommendation was included as a recommendation contained in PwC’s FY 1998
Management Letter, Part 2.

We agree and will pursue alternatives for acquiring the resources needed to update
CAS procedures, manuals, handbooks and documentation. SSA is also initiating an
effort to design and implement an agency-wide managerial cost accountability process
and system which will eventually subsume the functions of the CAS.


Improvement Area 9--SSA has systems design and documentation deficiencies.

Response to Recommendations 32 - 34

These recommendations are equivalent to recommendations contained in PwC’s FY
1998 Management Letter, Part 2.

Recommendation 32

We recommend the following:

•   SSA should complete implementation of it's Validation Transaction Tracking System
    (VTTS) and continue with its plan to automate the process for submitting System
    Release Certification (SRC) forms

Response to Recommendation 32

We agree and believe the first portion of this recommendation is complete. Systems
began using VTTS in 1996 for selected validations. In October 1998, its use became
mandatory for all validations. VTTS has been converted to SQL and is available for all
systems. Evaluation will continue to make it more useful and flexible.

Target dates for automating the SRC forms submission process are now in place.
Prototype automated change control procedures are currently being tested and
evaluated which will satisfy the second portion of this recommendation. We expect to
complete evaluation of the prototype design by Spring 1999. (The prototype evaluation



                                         C-15
was staged to include various life cycle development projects, e.g., new software
development (online and batch), maintenance, cyclical projects.) We are currently
setting up the evaluation of a maintenance type project.
Upon completion of the prototype evaluation, design changes resulting from the
evaluation will be incorporated into the automated procedures, software changes to this
process will be made, and we will then roll out the process on a project by project basis.
We expect to begin roll out by late Summer 1999.

Recommendation 33

•   SSA should complete implementation of Platinum's Process Engineering Tool (PET)
    and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
    Maturity Model (CMM) methodology

Response to Recommendation 33

We agree but believe it is too early in the implementation process to provide a date for
complete implementation.

Presently, SET standards require documenting software changes. Nevertheless, we
are developing a more robust mechanism to support SSA’s Information Technology (IT)
infrastructure.

We are committed to software process improvement using Carnegie Mellon’s Capability
Maturity Model (CMM). We have also procured the PLATINUM Technology, Inc.’s
Process Engineering Tool (PET). When fully implemented, PET will replace and expand
upon the foundation built by SET.

With PET integrated within our CMM approach, SSA is building the foundation for a
comprehensive software process improvement infrastructure that goes well beyond the
objectives of SET. This infrastructure will create an environment that encourages,
supports and provides assurance that we are continuously making improvements in the
quality of software, productivity of the software development staff, and timeliness of
software delivery. This will be done by improving project management skills and
approaches; defining IT Processes based on SSA and industry best practices;
supporting the use of metrics; and continuously improving IT processes.

Three CMM pilot projects are well underway and using SSA developed documented
procedures required for compliance with CMM Level 2 Key Process Areas (KPAs).
KPAs indicate where an organization should focus to improve its software process and
identify the issues that must be addressed to achieve the next maturity level. The KPAs
at Level 2 focus on the software project’s concerns related to establishing basic project
management controls. These KPAs are:

•   Requirements management
•   Software project planning


                                           C-16
•   Software project tracking and oversight
•   Software subcontract management
•   Software quality assurance
•   Software configuration management

Processes for all of these KPAs have been developed for iterative lifecycle projects and
are available to the pilot project teams over the Web and in the PET tool. DCS is in the
process of identifying additional similar “rollout” projects to begin in 1999, which will use
these processes to achieve CMM Level 2 compliance. In addition, processes will be
developed and pilots initiated in 1999 for the following types of project:

•   Programmatic CICS and Batch
•   Administrative Development
•   Maintenance without established baselines
•   Legislative and Notices

These processes will be developed using the PET tool and its rich repository of best
practices and process techniques as the delivery mechanism for CMM. It will be
available to the projects over the WEB.

Recommendation 34

•   SSA should update its System Security Handbook (Chapter 10 on Systems Access
    Security) to address all of the acceptable forms for granting access to SSA’s
    computer systems and data

Response to Recommendation 34

We agree. Chapter 10 of the its System Security Handbook lists the SSA-120 as the
only security form acceptable. There may be other non-security forms being used for
non-security purposes, but they are not appropriately included in the SSH.


Improvement Area 10--SSA has a number of deficiencies in their systems
contingency plan.

Response to Recommendations 35 – 40

These recommendations are direct reprints of recommendations contained in PwC’s FY
1999 report on management's assertion about the effectiveness of internal control.

Recommendation 35

As previously stated in the FY 1999 Accountability Report, we recommend that SSA:




                                            C-17
•   Finalize the list of critical SSA workloads and fully test the plans for recovering each
    workload;

Response to Recommendation 35

SSA agrees with this recommendation. SSA recently reevaluated and confirmed its
critical workloads. Testing that will determine recoverability of all identified critical
workloads is scheduled for July 2000.

Recommendation 36

•   Establish RTOs for each critical workload;

Response to Recommendation 36

SSA agrees with this recommendation. It is SSA's goal to provide users with a fully
integrated set of software to process each critical workload as rapidly as possible. As
part of our July 2000 test, we plan to assess and determine realistic timeframes and
sequences for restoring critical workloads. These objectives will be incorporated into
the next iteration of the Disaster Recovery Plan (DRP). Subsequent DRP iterations will
include timeframes and other supporting information.

Recommendation 37

•   Establish recovery priorities for all systems and applications (mainframe and
    distributed);

Response to Recommendation 37

SSA agrees with this recommendation and continues to work to establish recovery
priorities for all mainframe and distributed systems and applications. DRP identifies the
recovery sequence of all mainframe workloads. We plan to determine realistic
timeframes for reestablishing access to these workloads. In addition, SSA will work to
further define the recovery of the distributed workloads.

Recommendation 38

•   Update contingency plans for headquarters;

Response to Recommendation 38

SSA agrees with this recommendation. In compliance with Presidential Decision
Directive Number 67, Enduring Constitutional Government and Continuity of Operations
Plan, SSA has convened an agencywide workgroup to develop an infrastructure for
contingency planning. This includes defining organizational roles and responsibilities,
essential operations and staffing, training, maintenance, etc. The actions


                                            C-18
recommended by the workgroup and approved by SSA management will be
incorporated in to the Agency Contingency plan.

Recommendation 39

•   Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
    processing facilities; and

Response to Recommendation 39

SSA agrees with this recommendation. Our current IAA with GSA provides SSA with a
long-term, alternate facility supplied through a GSA contract. These provisions will be
implemented and provide SSA access to the site for 1 year should a catastrophic event
leave the NCC uninhabitable for longer than 6 weeks. SSA annually tests the use of
alternate facilities when conducting its disaster recovery test of NCC operations. The
extent of these tests is limited by test time constraints, the smaller configuration used for
testing, availability of personnel and other such factors.

Over the years, SSA has gained significant experience in installing and running its
systems on a wide variety of hardware during disaster recovery tests and benchmarking
new computing platforms. We believe this experience has resulted in the development
of reliable procedures that allow SSA to bring up its systems at any site. This, of
course, does not remove SSA's burden of verifying that secondary sites are stocked, as
indicated, by the vendor. We will evaluate the benefits of establishing orientation visits
at the secondary sites.

Recommendation 40

•   Finalize and test contingency plans for non-headquarters sites.

Response to Recommendation 40

SSA agrees with this recommendation and is in the process of reviewing and updating
all of the Security Action Plans (SAP) that are in place in its non-Headquarters facilities.
The Area Directors will review and test the SAPs as they visit each site during the
course of the year. The Agency also conducts field site visits to assess the security that
is in place in our offices. In the course of these visits, staff will analyze the plans for
effectiveness and verity that employees are familiar with their content and application.




                                            C-19
We also offer the following comments:

Improvement Area 2

Bullet 7, “SSA current practice of obtaining death data does not ensure that this data is
entered into DACUS accurately, timely and only once (affects the NUMIDENT, MBR,
and SSR). While this data may not have a direct effect on the performance measures
(#1, #2, #3, #4, #5, and #9) a noted lack of data verification in these databases
indicates the possibility that other data lacks integrity.”

Agency Comment

This item requires clarification. The report is unclear as to whether the development of
the third party reports or the input of SSA-721’s are factors in the reasons for the OIG
conclusion.

Bullet 8, “A comparison of the MBR, SSR and NUMIDENT identified a large number of
cases where either the individual was alive and in current pay status on the MBR/SSR
but listed as dead on the NUMIDENT, or corresponding records of a given individual
had significant differences in dates of death. While this data may not have a direct
effect on the performance measures (#1, #2, #3, #4, #5, and #9), a noted lack of data
verification in these databases indicate the possibility that other data lacks integrity.”

Agency Comment

We are aware of the problem when the person is listed as deceased on the payment
records but alive on the NUMIDENT. These are usually reinstatement cases. Currently
reinstatements require two separate actions and in many cases the payment record is
corrected and the NUMIDENT remains uncorrected. Release 2 of DACUS, scheduled
for implementation in August 2000, will enable the reinstatement to communicate with
the DACUS system. This will result in a corrected NUMIDENT.

Other Matters

1. Documents prepared for external evaluation of SSA performance could be improved
to clearly explain the intended uses of the performance measures to comply with future
GPRA requirements.

Agency Comment

In response to the cited General Accounting Office recommendations, SSA is
expanding the explanation of the goals and measures and how they contribute to
evaluating overall SSA performance in the FY 2001 Performance Plan due to Congress
in February 2000.




                                           C-20
2. The nine performance measures are not explicit performance budgeting metrics, but
are nonetheless appropriate internal performance indicators and are useful to the SSA-
wide strategic planning process.

Agency Comment

The statements in this section should be modified to recognize that stakeholders not
only include Congressional appropriators, but also customers, policy makers and the
general public who are looking at the overall effectiveness of the Agency in fulfilling its
mission. GPRA prescribes that outcome measures will be used for this purpose.

3. SSA is positioned to be a leading performance-based budgeting organization and to
meet the future requirements of GPRA.

Agency Comment

We appreciate the confidence expressed by the OIG in SSA readiness for performance
budgeting. The Office of Management and Budget (OMB) has designated SSA as one
of the government-wide performance budgeting pilot projects provided for in GPRA.
Within SSA, the Continuing Disability Reviews program is the specific activity covered
by this designation. OMB considers the performance budgeting pilot projects to be an
opportunity to examine the feasibility and potential application of several approaches to
performance budgeting. In this context, OMB intends to use performance and resource
data provided by the pilots during development of the FY 2001 budget and to report to
Congress on the results of the pilots no later than March 31, 2001, as required by
GPRA.

Appendix A, Background, GPRA

This section should state clearly that the requirements of GPRA for Agency
performance plans and Agency performance reports were not in effect until FY 1999. It
should also acknowledge that although the report covers FY 1998 performance
measures, the GPRA requirements, including descriptions of the means employed to
verify and validate the measured values used to report on program performance, were
not in effect at that time.

Appendix A, SSA’s Performance Measures

The last paragraph should read “FY 1997-2002 strategic plan, “Keeping the Promise.”




                                            C-21
                                                                                                                       Appendix D

                          Performance Measure Summary Sheets


Name of Measure                                            Measure Type       Strategic Goal/Objective:
1) Percent of OASI claims processed by the time            Percentage         Goal: To deliver customer-responsive world-class
the first regular payment is due, or within 14 days                           service.
from effective filing date, if later.                                         Objective: To raise the number of customers who
                                                                              receive service and payments on time.

Definition                                                                                          Purpose
The relationship between OASI claims completely processed within fourteen days and the total        To determine whether OASI
number of claims processed in a year.                                                               claims process is functioning in
                                                                                                    a timely and accurate manner.

How Computed                                               Data Source        Data Availability     Data Quality
The numerator is the total number of OASI                  CAPS               Adequate              Adequate
applications completed and approved by the time            CAS
the first regular payment is due, or within 14 days        EMS
from the effective filing date, if later; plus the total   MADCAP
number of OASI applications denied during the              MCC
fiscal year. The denominator is the total number of        MCS
OASI applications processed (completed or                  MIICR
denied) during the fiscal year.                            NUMIDENT
(See performance measure titled: Total number of           SSAMIS
RSI Claims processed during they year).

Explanatory Information                                                                             Report Frequency
                                                                                                    Monthly (FO RSDHI Claims
                                                                                                    Reports—Processing Times)



                                                                        D-1
Target Goal                                        Division                  Designated Staff Members
83 percent                                         Office of Systems         Janet Maszaros
                                                   Office of Information
                                                   Management

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Claims input, claims adjudication, earnings addition and modification, SSN establishment
• Receipt of claims
• Data transmitted from MCS to WMS
• Applicable application controls
• Applicable general computer controls
• Resolution of DACUS (Death, Alert, and Control Update System) exception file
• Data input for DACUS
• Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
• SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "SSA has systems design and documentation deficiencies," and "SSA has a number of deficiencies in their systems
contingency plan."




                                                               D-2
CAATs Testing and Results
•   Replicated End-of-Line Processing Time Report to ensure integrity of data;
•   Traced DOWR values to MIICR database;
•   Traced RSDHI DB values to the MIICR Summary file;
•   Tested disability edits and validations for effectiveness;
•   Compared the NUMIDENT and the MBR to ensure that individuals listed as alive and in current pay status on the MBR are not
    listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for a given individual have the same date of
    death.

See results of engagement entitled "SSA has a number of data integrity deficiencies."

Process Improvement Testing and Results
•   Traced FY 1998 performance measure from FY 1998 Accountability Report to RSI Service Delivery Objective (SDO) Cumulative
    spreadsheet dated 10/97 – 9/98;
•   Traced RSI Service Delivery Objective (SDO) Cumulative spreadsheet dated 10/97 – 9/98 to monthly End-of-Line Processing
    Time Reports dated 10/98 – 9/98; and
•   Recalculate spreadsheet and nation totals related to RSI SDO spreadsheet reported on processing times reports.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "Three of SSA's performance measures do not reflect a clear measure of performance," "GPRA
documents prepared for external evaluation of SSA performance do not clearly indicate the sources of the performance measures,"
and "SSA did not calculate three of the performance measures as they are stated in their respective definitions."




                                                                D-3
Name of Measure:                                     Measure Type              Strategic Goal/Objective:
2) OASI claims processed                             Workload                  Goal: To make SSA program management the best in
                                                                               business, with zero tolerance for fraud and abuse.
                                                                               Objective: To positioning the Agency's resources and
                                                                               processes to meet emerging workloads.

Definition                                                                                             Purpose
The total number of OASI claims completely processed includes every claim, (regardless of special      To monitor SSA service
characteristics, which would tend to lengthen or shorten processing times), less specific exclusions   programs in order to improve
and exceptions (Exclusions and exceptions are discussed in Explanatory Information) that are           practice and to determine RSI
completely processed during the fiscal year (does not include pending claims).                         claims processed in order to
                                                                                                       accurately secure budgetary
                                                                                                       requirements.
                                                                                                       Also used in the calculation of
                                                                                                       another measure titled:
                                                                                                       Percent of OASI claims
                                                                                                       processed by the time the first
Reference: MIM II 10/98 TN-101 RSDHI Initial Claims Report                                             regular payment is due, or
                                                                                                       within 14 days from effective
                                                                                                       filing date, if later.

How Computed                                         Data Source                Data Availability      Data Quality
Sum of RSI claims processed.                         CAPS                       Adequate               Adequate
                                                     CAS
                                                     EMS
                                                     MADCAP
                                                     MCC
                                                     MCS
                                                     MIICR
                                                     NUMIDENT
                                                     SSAMIS




                                                                 D-4
Explanatory Information                                                                                     Report Frequency
Report exclusions include disability auxiliary cases, claims for which no MIICR record exists, and          Monthly (FO RSDHI Claims
completion is other than award/disallowance. (MIM II 10/98 TN-101 RSDHI Initial Claims Report)              Reports—Processing Times)

Report exceptions include invalid beneficiary identification code, invalid clearance action type (CAT)
code, excessive location/no locations, invalid history location code, no field office present, invalid
start date for overall time, invalid end date for overall time, invalid overall elapsed days result. (MIM
II 10/98 TN-101 RSDHI Initial Claims Report)

Target Goal                                            Division                     Designated Staff Members
3,134,700 RSI Claims processed                         Office of Systems            Janet Maszaros
                                                       Office of Information
                                                       Management

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Claims input, claims adjudication, earnings addition and modification, SSN establishment
• Receipt of claims
• Data transmitted from MCS to WMS
• Applicable application controls
• Applicable general computer controls
• Resolution of DACUS (Death, Alert, and Control Update System) exception file
• Data input for DACUS
• Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
• SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," and "SSA has a number of deficiencies in their systems contingency plan."



                                                                    D-5
CAATs Testing and Results
•   Replicated DOWR to ensure integrity of data;
•   Traced DOWR values to MIICR database;
•   Traced RSDHI DB values to the MIICR Summary file;
•   Tested disability edits and validations for effectiveness;
•   Compared the NUMIDENT and the MBR to ensure that individuals listed as alive and in current pay status on the MBR are not
    listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for a given individual have the same date of
    death.

See results of engagement entitled "SSA has a number of data integrity deficiencies."

Process Improvement Testing and Results
•   Traced FY 1998 the performance measure value per the Accountability Report to the CAS report; and
•   Traced the performance measure value per the CAS report to the DOWR, generated from the MIICR database to determine
    reasonableness of amount reported.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "GPRA documents prepared for external evaluation of SSA performance do not clearly indicate the
sources of the performance measures."




                                                                D-6
Name of Measure                                            Measure Type          Strategic Goal
3) Percent of initial SSI aged claims processed            Percentage            Goal: To deliver customer-responsive, world-class
within 14 days of filing                                                         service.
                                                                                 Objective: To raise the number of customers who
                                                                                 receive service and payments on time.

Definition                                                                                              Purpose
This percentage reflects the number of Initial SSI Aged applications completed (approved or             This measure serves to
denied) through the SSA operational system before the first regular continuing payment is due (or       improve the processing of SSI
not more than 14 days from the filing date, if later), divided by the total number of SSI Aged claims   aged claims in order to better
processed for the year.                                                                                 serve the customer (the aged
                                                                                                        SSI applicant). Specifically,
                                                                                                        its’ objective is to increase the
                                                                                                        number of customers who
                                                                                                        receive service and payments
                                                                                                        on time. This measure also
                                                                                                        aids the Social Security
                                                                                                        Administration in budgeting in
                                                                                                        order to obtain funds from
                                                                                                        Congress.

How Computed                                               Data Source           Data Availability      Data Quality
The calculation of processing time begins with the         MSSICS                Some FY 1998           Acceptable
day the application is filed (the effective filing date)   Batch System          Available, FY 1999
or the protective filing date and ends with the            WMS                   Available
Initial Decision Date (IDD). The calculation of the        T16
performance measure is x/y where x=the the                 SICCR
number of initial SSI aged claims processed within
14 days of filing date and y= the total number of
SSI Initial aged claims processed

Explanatory Information                                                                                 Report Frequency
                                                                                                        Monthly



                                                                        D-7
Target Goal                                        Division                  Designated Staff Members
66%                                                Office of Information     Jane Sonn
                                                   Management

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Daily transmission of SSI Aged Claims to the SSI Claims Exception Control System
• Monthly transmission of SSI Aged Claims data for completed claims to the SSI Claims Reporting System (SSICR)
• GETSSICR extraction process by OIM
• Applicable application controls
• Applicable general computer controls
• Resolution of DACUS (Death, Alert, and Control Update System) exception file
• Data input for DACUS
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "SSA has systems design and documentation deficiencies," and "SSA has a number of deficiencies in their systems
contingency plan."




                                                               D-8
CAATs Testing and Results
•   Monthly data obtained via the GETSSICR module matches the monthly total for SSI Aged Claims identified in the SSICR area;
•   Traced from WMS to SSI Exception Control System to ensure accuracy of transmittal;
•   Performed test on segment 16 of the SSR in order to determine the percentage of SSI Aged Claims processed in 15 days or
    more of filing date;
•   Evaluated data transmittal from monthly SSICR file to the GETSSICR module;
•   Evaluated data transmittal from the SSR system to the SSI Claims Exception Control System;
•   Compared the NUMIDENT and the SSR to ensure that individuals listed as alive and in current pay status on the SSR are not
    listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for a given individual have the same date of
    death.

See results of engagement entitled "SSA has a number of data integrity deficiencies."

Process Improvement Testing and Results
•   Traced performance measure count per SSICR (item #304) to the FY 1998 Accountability Report.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "Three of SSA's performance measures do not reflect a clear measure of performance," and "GPRA
documents prepared for external evaluation of SSA performance do not clearly indicate the sources of the performance measures."




                                                                D-9
Name of Measure                                     Measure Type              Strategic Goal/Objective
4) SSI aged claims processed                        Workload                  Goal: To deliver customer-responsive, world class
                                                                              service
                                                                              Objective: To positioning the Agency's resources and
                                                                              processes to meet emerging workloads.

Definition                                                                                          Purpose
This includes the total number of SSI aged claims processed for fiscal year 1998 from the time a    To improve the processing of
claim is established (the effective filing date or protective filing date) to the IDD (Initial      SSI aged claims in order to
Determination Date It includes both approved and denied claims, and excludes pending claims.        better serve the customer (the
                                                                                                    aged SSI applicant) as well as
                                                                                                    to aid in budgeting to obtain
                                                                                                    funds from Congress.

How Computed                                        Data Source                Data Availability    Data Quality
Total number of SSI aged claims processed for       MSSICS                     Some FY 1998         Good
Fiscal Year 1998.                                   Batch System               Available, FY 1999
                                                    WMS                        Available
                                                    T16
                                                    SICCR
                                                    CAS

Explanatory Information                                                                             Report Frequency
                                                                                                    Monthly


Target Goal                                         Division                   Designated Staff Members
150,500                                             OFAM, OFPO                 Shirley Hodges




                                                                D-10
EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Daily transmission of SSI Aged Claims to the SSI Claims Exception Control System
• Monthly transmission of SSI Aged Claims data for completed claims to the SSI Claims Reporting System (SSICR)
• GETSSICR extraction process by OIM
• Applicable application controls
• Applicable general computer controls
• Resolution of DACUS (Death, Alert, and Control Update System) exception file
• Data input for DACUS
• Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
• SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," and "SSA has a number of deficiencies in their systems contingency plan."

CAATs Testing and Results

•   Monthly data obtained via the GETSSICR module matches the monthly total for SSI Aged Claims identified in the SSICR area;
•   Traced from WMS to SSI Exception Control System to ensure accuracy of transmittal;
•   Performed test on segment 16 of the SSR in order to determine the percentage of SSI Aged Claims processed in 15 days or
    more of filing date;
•   Compared the NUMIDENT and the SSR to ensure that individuals listed as alive and in current pay status on the SSR are not
    listed as dead on the NUMIDENT; and
•   Compared the NUMIDENT, MBR, and SSR to ensure that corresponding records for a given individual have the same date of
    death.

See results of engagement entitled "SSA has a number of data integrity deficiencies."




                                                               D-11
Process Improvement Testing and Results
•   Traced the performance measure values in the FY 1998 CAS Report to the FY 1998 Accountability Report;
•   Traced the performance measure DOWR counts from the FY 1998 DOWR Report to the values in the FY 1998 CAS Report; and
•   Traced the performance measure IWMS value for FY 1998 to the FY 1998 DOWR count and CAS Report.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," and " GPRA documents prepared for external evaluation of SSA performance do not clearly indicate
the sources of the performance measures."




                                                              D-12
Name of Measure                                     Measure Type            Strategic Goal/Objective
5) Representative Payee Actions                     Workload                Goal: To make SSA program management the best
                                                                            in business, with zero balance for fraud and abuse
                                                                            Objectives: To positioning the Agency's resources and
                                                                            processes to meet emerging workloads., and to
                                                                            aggressively deter, identify, and resolve fraud.

Definition                                                                                        Purpose
Representative Payee Actions includes a selection of Representative Payees (nonselects are also   To combat fraudulent actions
included in the count), changes of payees, Representative Payee accountings, investigations of    on the part of Representative
Representative Payees, suspensions of Representative Payees and changes of information for        Payees. This measure looks
Representative Payees. The Representative Payee accounting process includes accounting for        at the total number of
Title II, Title XVI as well as accounting for Representative Payees who live abroad.              Representative Payee actions
                                                                                                  that occur within a year to
                                                                                                  determine whether SSA is
                                                                                                  monitoring the actions
                                                                                                  associated with
                                                                                                  Representative Payees
                                                                                                  appropriately.

How Computed                                        Data Source              Data Availability    Data Quality
Total number of Representative Payee actions as     RPS                      Some FY 1998         Acceptable
defined in definition above for Fiscal Year 1998.   WMS                      Available, FY 1999
                                                    PEMI                     Available
                                                    CSRETAP
                                                    FALCON
                                                    PCACS
                                                    COS




                                                               D-13
Explanatory Information                                                                             Report Frequency
The measure looks at Representative Payee changes and accountings for both the US and foreign       Monthly
countries. An action for Representative Payee changes within the US is initiated with any of the
following occurrences –1) SSA decides to investigate a Representative Payee 2) a Representative
Payee account requires a change of information or 3) an SSA beneficiary, or Representative Payee
identifies the need to change or add a Representative Payee. International Representative Payee
changes occur when an applicant fills out an application at an embassy, consulate or military JAG
office or mails in an application to any of the aforementioned locations or to PC8. International
Representative Payee Accountings and domestic Representative Payee Accountings are handled
in a similar manner. Representative Payee Accounting forms mailed in by Representative Payees
are both received at the Wilkes-Barre Document Operation Center (WBDOC) and they are both
scanned at Wilkes-Barre. The International Representative Payee Accounting forms with
exceptions are sent to PC8. The implementation of Title II Redesign should aid in the tracking of
numbers from the various sources and systems to the final number that is reported in the
Accountability Report.

Target Goal                                        Division                  Designated Staff Members
6,983,800                                          OFAM, OFPO                Shirley Hodges




                                                              D-14
EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Representative Payee Accounting forms received at WBDOC and processed via CICS are removed from ROBOT file
• Representative Payee Accounting forms received at WBDOC and processed via the scanner are removed from ROBOT file
• Title II Representative Payee Accounting actions processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title XVI Representative Payee accounting actions processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title II and Title XVI Representative Payee Changes processed via a Field Office are transferred to the PEMI application and
   ultimately into IWMS
• Title II and Title XVI Representative Payee Accounting transmission of WB MI Report from WBDOC to OIM
• Representative Payee International Accounting actions transfer into CAS
• Representative Payee International Changes actions transfer into CAS
• Applicable application controls
• Applicable general computer controls
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."




                                                              D-15
CAATs Testing and Results
•   Compared the before and after ROBOT file to ensure file was updated;
•   Compared CSREPRET.R0909 file to ROBOT.G1574 file to ensure ROBOT file was updated;
•   TITLE II REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal;
•   TITLE XVI REPRESENTATIVE PAYEE ACCOUNTING - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal; and
•   TITLE II & XVI REPRESENTATIVE PAYEE CHANGES - Compared the PEMI file with the IWMS file to ensure the two record
    counts were equal.

See results of engagement entitled "SSA has a number of data integrity deficiencies."

Process Improvement Testing and Results
•   Traced the performance measure value per the FY 1998 CAS Report to the number reported in the FY 1998 Accountability
    Report; and
•   Traced the performance measure IWMS value to the values in the FY 1998 CAS Report.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "Three of SSA's performance measures do not reflect a clear measure of performance," "GPRA
documents prepared for external evaluation of SSA performance do not clearly indicate the sources of the performance measures,"
and "A component was inadvertently omitted when calculating the total of one of the performance measures."




                                                               D-16
Name of Measure                                        Measure Type         Strategic Goal/Objective
6) SSN requests processed.                             Workload             Goal: To make SSA Program management the best in
                                                                            business, with zero tolerance for fraud and abuse.
                                                                            Objective: To positioning the Agency's resources and
                                                                            processes to meet emerging workloads.

Definition                                                                                        Purpose
A workload measure that accounts for the total number of SSN card requests completed within a     To monitor SSA service
year (does not include any pending requests).                                                     programs in order to improve
                                                                                                  practice and to determine SSN
                                                                                                  requests processed in order to
                                                                                                  accurately secure budgetary
                                                                                                  requirements.

How Computed                                           Data Source          Data Availability     Data Quality
The sum of SSN requests processed and                  CAS                  Adequate              Adequate
completed through the following methods:               MES
enumeration at birth and field office requests, in a   NUMIDENT
given year.

Explanatory Information                                                                           Report Frequency
                                                                                                  Daily
                                                                                                  Monthly

Target Goal                                            Division             Designated Staff Members
16.6 million requests processed                        OFAM                 Shirley Hodges
                                                       OFPO




                                                                  D-17
EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• SSA receipt of Enumeration at Birth (EAB) data
• OIM receipt of all completed EAB and Field Office (FO) transactions
• OIM summary reporting process of all FO transactions
• Applicable application controls
• Applicable general computer controls
• Receipt of adequate and appropriate proofs of identity and age from new and replacement SSN applicants
• Review of the Weekly District Office Sample Report by field office personnel
• Review of the Diary Alert Report by field office personnel
• Verification of birth certificates for original SSNs for U.S. citizens under 18 years of age, either at field offices or through the
   Enumeration at Birth process
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."

CAATs Testing and Results
•   Compared the OIM Monthly Summary File to the appended daily history file; and
•   Queried the MES file of the NUMIDENT to replicate the September 1998 FOSSNER, National and Regional Totals Processed,
    and EAB records processed, to ensure integrity of data.

See results of engagement entitled " SSA has a number of data integrity deficiencies."




                                                                 D-18
Process Improvement Testing and Results
•   Traced the performance measure values per the FY 1998 Accountability Report values to the EAB and FOSSNER reports; and
•   Traced the performance measure values per the EAB and FOSSNER reports to MES.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," " GPRA documents prepared for external evaluation of SSA performance do not clearly indicate the
sources of the performance measures."




                                                              D-19
Name of Measure                                     Measure Type             Strategic Goal/Objective
7) Annual earnings items                            Workload                 Goal: To make SSA Program management the best in
                                                                             business, with zero tolerance for fraud and abuse.
                                                                             Objective: To positioning the Agency's resources and
                                                                             processes to meet emerging workloads.

Definition                                                                                         Purpose
A workload measure that accounts for the total number of items, including Current FICA W2s,        To monitor SSA service
Medicare for Qualified Government Employee W2s, and Non-FICA W2s, posted to SSA records by         programs in order to improve
September 30.                                                                                      practice and to determine
                                                                                                   annual earnings workload
                                                                                                   counts in order to accurately
                                                                                                   secure budgetary
                                                                                                   requirements. Also used in the
                                                                                                   calculation of measure titled:
                                                                                                   Percent of earnings posted to
                                                                                                   individuals’ records by
                                                                                                   September 30.

How Computed                                        Data Source               Data Availability    Data Quality
Sum of Current FICA W2s, Medicare for Qualified     EPOXY Accounting          Adequate             Adequate
Government Employee W2s, and Non-FICA W2s           Statistics
posted by the end of the fiscal year (September
30).

Explanatory Information                                                                            Report Frequency
The timeframe used to account for total number of annual earnings items (posted to records) runs   Quarterly
for twelve months beginning in February and ending in February of the next year.




                                                               D-20
Target Goal                                         Division                   Designated Staff Members
243,100,000 items posted                            Office of Finance,         Gerry Glaser
                                                    Assessment and             Mildred Camponeschi
                                                    Management/Office of
                                                    Financial Policy and
                                                    Operations

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Applicable application controls
• Applicable general computer controls
• Implementation of established tactical plan addressing the suspense file and reconciliation issues
• Procedures for changing the status of processed batches of data from "hold" to "verified"
• Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
• SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," " CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."

CAATs Testing and Results
•   Ensured online central office Master Earnings File database fields were valid; and
•   Replicated processed earnings items reported on Epoxy Accounting Statistics Report (Based upon sampling).

See results of engagement entitled "SSA has a number of data integrity deficiencies."




                                                               D-21
Process Improvement Testing and Results
Process Improvement testing was performed to ensure data availability and verify its accuracy within the following areas:
• Traced performance measure values per the FY 1998 Accountability Report to the values per the CAS Report;
• Traced performance measure values per the CAS Report to Epoxy Accounting Statistics Report; and
• Trace performance measure values per the Epoxy Accounting Statistics Report to the performance measure values in ERMS.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," and " GPRA documents prepared for external evaluation of SSA performance do not clearly indicate
the sources of the performance measures."




                                                              D-22
Name of Measure                                     Measure Type              Strategic Goal/Objective
8) Percent of earnings posted to individuals’       Percentage                Goal: To make SSA Program management the best in
records by September 30.                                                      business, with zero tolerance for fraud and abuse.
                                                                              Objective: To maintain, through 2002, current levels of
                                                                              accuracy and timeliness in posting earnings data to
                                                                              individuals’ earnings records.

Definition                                                                                            Purpose
The relationship between the total number of earnings posted for the current tax year (TY) and an     To monitor the progress of the
estimated amount of earnings.                                                                         earnings postings practice
                                                                                                      during the year.

How Computed                                        Data Source                Data Availability      Data Quality
The fiscal year actual percentage is the number of EPOXY                       Adequate               Adequate
earnings items posted through September 30, less ERMS
self-employment earnings, for that TY (see
measure titled: Total number of annual earnings
items posted to records), divided by the TY
estimate of total posted annual earnings items
generated by Office of Information Management
and Office of Systems Requirements.

Explanatory Information                                                                               Report Frequency
The timeframe used to account for total number of annual earnings items posted to records (tax        Quarterly
year) runs for twelve months beginning in February and ending in February of the next year. For
the FY 1998 performance measures, the tax year began the week ending February 20, 1998. This
timeframe precludes the use of an actual value in the calculation of the Percent of earnings posted
to individuals’ records by September 30 in the FY 1998 Accountability Report because it comes out
in November, so an estimated value is used. The estimate number is generated by ORS staff, from
the following sources: the President’s budget (published annually in February and revised annually
in July as part of the mid-session review), prior year actual numbers, and historical data.




                                                                D-23
Target Goal                                         Division                   Designated Staff Members:
98 percent                                          Office of Finance,         Gerry Glaser
                                                    Assessment and             Mildred Camponeschi
                                                    Management/Office of
                                                    Financial Policy and
                                                    Operations

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• Applicable application controls
• Applicable general computer controls
• Implementation of established tactical plan addressing the suspense file and reconciliation issues
• Procedures for changing the status of processed batches of data from "hold" to "verified"
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS procedural and systems documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."

CAATs Testing and Results
•   Ensured online central office Master Earnings File database fields were valid; and
•   Replicated processed earnings items reported on Epoxy Accounting Statistics Report (Based upon sampling).

See results of engagement entitled "SSA has a number of data integrity deficiencies."




                                                               D-24
Process Improvement Testing and Results
•   Traced performance measure values per the FY 1998 Accountability Report to the values per the CAS Report;
•   Traced performance measure values per the CAS Report to the Epoxy Accounting Statistics Report;
•   Traced performance measure values per the Epoxy Accounting Statistics Report to ERMS; and
•   Reperformed and verified calculation output on AWR spreadsheets.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," " GPRA documents prepared for external evaluation of SSA performance do not clearly indicate the
sources of the performance measures," and "SSA did not calculate three of the performance measures as they are stated in their
respective definitions."




                                                              D-25
Name of Measure                                        Measure Type               Strategic Goal/Objective
9) Percentage of individuals issued SSA-Initiated      Percentage                 Goal: To strengthen public understanding of the
PEBES as required by law                                                          social security programs
                                                                                  Objective: By 2005, 9 out of 10 Americans will be
                                                                                  knowledgeable about the Social Security programs in
                                                                                  five important areas:
                                                                                  • Basic program facts
                                                                                  • Financial value of programs to individuals
                                                                                  • Economic and social impact of the programs
                                                                                  • How the programs are financed today
                                                                                  • Financing issues and options

Definition                                                                                                Purpose
By law, under Section 1143 of the Social Security Act , SSA is required to issue annually “SSA-           The SIPEBES are intended to
initiated” PEBES (SIPEBES) to approximately 15 million eligible individuals age 60 and over during        increase the public’s
FYs 1996 through 1999 for whom a current mailing address can be determined. SSA accelerated               understanding and knowledge
its’ mailings and as of March 1999 had exceeded the legislative mandate. For FY 2000, SSA is              of the Social Security program
required to sent SIPEBES annually to all eligible individuals age 25 and over. Eligible individuals       by informing wage earners as
include those individuals who have a valid SSN number, are not in benefit status, have earnings on        to their estimated future
their record and who live in the US or a US Territory. For Puerto Rico and the Virgin Islands the US      benefits. The SIPEBES also
has a special arrangement with the tax authorities of these countries to transfer electronically a list   serve as an indicator as to the
with the names and addresses of the tax paying residents of the respective countries. The                 accuracy of the posting of
measure excludes those who are deceased or below the stipulated age to receive a SIPEBES, RIC             earnings to the record of a
‘X’ holders, individuals who have pending claims, recipients for whom an address cannot be                wage earner. They also serve
located, individuals who have no earnings posted on the record and individuals who have received          as a useful financial planning
a PEBES in the past, either on-request or SSA-initiated.                                                  tool for wage earners. This
                                                                                                          performance measure is
                                                                                                          intended to gage the extent to
                                                                                                          which SSA is meeting the
                                                                                                          requirements mandated under
                                                                                                          Section 1143 of the Social
                                                                                                          Security Act.




                                                                  D-26
How Computed                                       Data Source               Data Availability     Data Quality
The percentage = x/y where x=Number of             GESS                      Some FY 1998          Acceptable
SIPEBES issued and y=Number required to be                                   Available, FY 1999
sent by law during the fiscal year.                                          Available

Explanatory Information                                                                            Report Frequency
PEBES 2000 will be soon be implemented and in the future will impact our testing and the results of Weekly
our testing.

Target Goal                                        Division                  Designated Staff Members
100%                                               OCOMM                     Rusty Toler

EDP Testing and Results
EDP testing was performed to ensure controls were in existence and operating effectively within the following processes:
• "NUMIDENT Merge"
• IRS address request
• SSA Print Management SIPEBES verification
• Postal Service SIPEBES verification
• OIM receipt of SIPEBES count
• Applicable application controls
 • Applicable general computer controls
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "SSA has systems design and documentation deficiencies," and "SSA has a number of deficiencies in their systems
contingency plan."




                                                              D-27
CAATs Testing and Results
•   Extracted all eligible clients to receive a SIPEBES and compared record count to that of the records extracted via the NUMIDENT
    merge;
•   Compared the record count SSA sends to IRS to requested addresses;
•   Identified that Master Earnings File records have a corresponding record on the NUMIDENT; and
•   Evaluated the selection of SIPEBES recipients per specific criteria.

See results of engagement entitled "SSA has a number of data integrity deficiencies."
Process Improvement Testing and Results

•   Recalculated the performance measure value reported in the FY 1998 Accountability Report (Value is from PSIW01 Report); and
•   Traced the PSIW01 valued use in the calculation of the performance measure to the GESS Report.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," "GPRA documents prepared for external evaluation of SSA performance do not clearly indicate the
sources of the performance measures," "SSA did not calculate three of the performance measures as they are stated in their
respective definitions."




                                                               D-28
                                   Appendix E

Performance Measure Process Maps




               E-1
                                                                    RSI Claims Process
PM #1: Percent of OASI Claims Processed by the time the 1st Regular Payment is Due, or Within 14 Days from
       Effective Filing Date, if Later
PM #2: Number of RSI Claims Processed


          Begin

                                                   The balance of this diagram refers to only
 Applicant Contacts SSA Field                      Claims Representatives (CR)
  Office, PSC, or Teleservice
  Representative to get OASI
Program information & Scedule
           Interview                                                                                                                 EMS=Earnings Modernization System
                                                                          MCS=Modernized Claims System




      SSA Teleservice                                                                         CR verifies                                      MCS Front End
                                Applicant Interviews with           CR enters                                            CR verifies
      Representative                                                                      claimant identity by                                   performs edit
                                  Field Office Claims              application                                        Claimant earnings
     enters preliminary                                                                       accessing                                       checks & provides
                                Representative (CR) or          information using                                     by accessing EMS
      information into                                                                     NUMIDENT (via                                       initial entitlement
                                PSC Claims Authorizer                 MCS                                                 (via MCS)
      SSA Info ICDB                                                                             MCS)                                                decision




                                                                                                     MCC (Modernized Claim Control) DB is a subset of MCS and is equivalent to the
                                                                                                     "WMS portion of MCS". The MCC DB includes important dates.


                                                                                      MCS Front End
                                      CAPS calculates          MCS Front End                                     Applicant reviews      CR Submits              MCS performs
                                                                                     Updates MCC DB
                                     estimate of monthly     calculates estimate                                    and signs          Application for           Back End
                                                                                       & generates
                                          benefit             of monthly benefit                                   application        MCS Processing             Processing
                                                                                        application




                                                                                                                Application is
       CR processes         MACADE performs            MACADE passes                                           prepared using
                                                                               MADCAP updates                                          Batch process
        claim using         Edit and validation        data to MADCAP
                                                                                  MCC DB
                                                                                                              CICS screens &
                                                                                                                                      updates MCC DB
                                                                                                                                                                     2A
         MACADE                  checks                    (at PSC)                                          submitted for Batch
                                                                                                                 Processing


                   MACADE is the online data entry
                   program for MADCAP


                                                                                    E-2
                                                           RSI Claims Process (Continued)

                               Specifically, the PB Update module cleans up the
                               claim and updates the MCC DB


                                      MIICR reads information for    MIICR writes data for                                     IWMS obtains count
                  MCS updates
                                      completed and/or pending         completed and/or                                         for RSHI claims &
    2A           WMS with claim
                                       initial claims from WMS      pending initial claims into
                                                                                                          PM #2
                                                                                                                                places in DOWR 1
                   information
                                             and/or SSACS             MIICR Master File                                       (IWMS Item #00112)


                                                                            PM #1


                                                                                                   IWMS obtains count for
                                                                                                                             OIM obtains DOWR 1
                                                                          "MIICR Edit"                RSI Nondisabled
                                                                                                                               & DOWR 2 using
                                                                          creates file of           Dependent Claims &
                                                                                                                             GETDOWR & enters
                                                                        completed claims             places in DOWR 2
                                                                                                                                 them in CAS
                                                                                                    (IWMS Item #00212)




                                                                                                  CAS computes PM       OFPO obtains PM #2
                                                                                                    #2 by adding          from CAS (Code
                                                                                                                                                    End
                                                                                                  DOWR 1 & DOWR         #0101) for inclusion in
                                                                                                         2              Accountability Report




"MIICR Calc" computes                                        "MIICR Summary" produces
                                                                                                  OIM obtains PM #1       OIM provides PM #1
  processing time and                                           record of summarized
                                "MIICR Sort" sorts data                                            (SSA-wide) from       to OFPO for inclusion
determines if criteria has                                  processing times, percentages
                               by component, office, etc                                           RSDHI DB using           in Accountability
   been met; Answer                                          and counts for each office &
                                                                                                     GETRSDHI                   Report
    placed in SDO                                           places them in the RSDHI DB



                                                                         The RSDHI DB is also
                                                                                                                  "GETRSDHI" is a
                SDO = Service Delivery Objective                         referred to as the "MI
                                                                                                                  module within the
                                                                         Universe Records"
                                                                                                                  SSAMIS system




                                                                           E-3
                                                                   SSI Aged Claims Process
                          PM #3: Percent of Initial SSI Aged Claims Processed Within 14 Days of Filing Date
                                PM #4: Total number of SSI Aged Claims Processed during the year

                                                                                        ABAPs are processed through MSSICS
                                                                                        and are selected via client request or                   If applicant does not meet preliminary
                            This corresponds to protective
                                                                                        at the discretion of local management
         Start              filing date of application                                                                                           criteria, he/she receives either local
                                                              Application is                                                                     denial notice or Abbreviated Application
                                                             taken over the         1A                                                           (ABAP)
                                                              phone by CR                                                            1A               Form L991 gives applicant
                                                                                                                   Abbreviated
                          SSA Representative                                                                                                          60 days from protective
                                                                                                                   Application
 Applicant makes           enters preliminary                                                                        (ABAP)                           filing date to reapply
 contact with SSA         claimant information
                                in ICDB                                                                                                   Field office
                                                                                      CR does
                                                            Applicant comes                                 Applicant                  generates Form
                                                                                    preliminary
                                                            into FO for Initial                          does not meet                 L991 for applicant            End
                                                                                   assessment
                                                                Interview                                eligibility req'ts            & saves copy for
     Contact can be through field                                                    interview
                                                                                                                                           60 days
     office visit, call on local field
     office phone number, 800            This occurs when a                                                                                         Cases that receive local
     number, contact from an
                                         claimant calls over the 800                                                                                denial notices are not
     advocacy group or direct contact
                                         number (this is also referred                                                                              tracked further by SSA
     by SSA employee via lead from
                                         to as a lead).                                                                                             systems.
     concerned individual                             Applicant meets
                                                        eligibility reqts

             CR reviews                                                                                                          CICS performs surface
                                                                                                           CICS creates
              preliminary                                                          CR manually                                     and relational edit
                                                                                                          Batch Process
            application and                            2%                         enters data into                                  checks & sends                   No
                                                                                                          data transaction
          verifies and copies                                                          CICS                                       exceptions to holding            Exception
                                                                                                                files
              documents                                                                                                                   file

                 98%                                                                                                             Exception

                                  CR completes data
         CR enters applicants                                                     MSSICS performs                    CICS sends
                                  collection screens          MMSICS reads                                                                     FO resolves
1A        SSN into MSSICS                                                          relationship and                Exception Report                                  2B
                                    with applicant           and updates ICDB                                                                   exception
           (Index Check)                                                            surface edits                   to field office
                                         input




            MSSICS checks          MSSICS creates                                                                                               CICS sends
               identifying         new pending file          MSSICS notifies                                                                 exception to batch
                                                                                   2A
              information            in MSSICS              WMS of new claim                                                                  process after 3
           against NUMIDENT           database                                                                                               days of no activity




                                                                                     E-4
                                                          SSI-Aged Process (Continued)
        2A                                                                                                                   CR sends claim
                                                                                                                              to Batch with
                                                                                                                          a holding code (H80)


                                                                                                                                                                 BTSSR process
MSSICS generates                                                                      CR Adjudicates            CR edits pending
                                 Applicant reviews                                                                                       CR sends               converts MSSICS
 application with     FO            and signs                CR receives             Application based          file & builds SSR       application to                data into
    applicant     Interview                                   application              on MSSICS                 online (SSR edit
                                   application                                                                                          Batch System             transaction files
   information                                                                           guidance                     check)                                         for Batch

                                     Applicant can also take         The Batch System is also referred to as
 Phone Interview
                                     signed application to FO            the SSI Initial Claims Update System

                         Applicant reviews                   CR copies,
                                                                                                                                        Batch System
  CR reviews            and signs application                  certifies                                         Claim is sent to
                                                                                                                                        performs edit             Batch System
 application and        and mails to CR along              documents and                        2B              SSI Batch Update
                                                                                                                                       checks for CICS          indexes records
mails it to applicant     with requested                  mails/returns them                                         System
                                                                                                                                           cases
                             documents                      to the client.




                                                        Batch System                                                                     Batch System
                                                                                      Batch System updates                                                       Batch System
  Batch System                                        generates & sends                                                                receives results
                          Batch System                                               WMS & passes claim data             Next                                        updates
  searches for                                      finders to NUMIDENT                                                                 of NUMIDENT &
                        creates new SSR                                                 to SSI Initial Claims          Batch Run                                verification code
  existing SSR                                       & MBR for interface                                                                 MBR interface
                                                                                     Exception Control System                                                         in SSR
                                                           checks                                                                           checks



                          Batch System
                          creates & co-
                        locates new SSR                                                           Batch System              Batch System
                        with existing SSR                                                       performs eligibility       computes benefit
                                                                                                                                                    3A
                                                                                                calculation for E02          & payment
                                                                                                  & CICS cases                schedule


                                                                                                         Edit
                             Exceptions (edits and / or alerts) can be triggered                                             SSA resolves            CR revises
                              from the NUMIDENT & MBR interface checks, the                                                                                                  2B
                                                                                                                              discrepancy          application data
                             edit checks, or the eligibility calculation. The type
                                of exception is conveyed using the Verification
                              code in the SSR. Edits correspond to claims that
                                are too discrepant to process, whereas claims
                                         with alerts will go through despite the                                             SSA does not
                                                                    discrepancy.                                                 resolve                  End
                                                                                                                              discrepancy


                                                                                      E-5
                                                           SSI-Aged Process (Continued)

            3A
                                                                               The Batch System is also referred to as the SSI
                                                                                                                                          SSICR is also known as T16
                                                                               Initial Claims Update System


                                    Initial           Batch System provides              SSI Claims                SSI Claims              SSI Claims                 zssicpt file
     Award or Denial        Determination Date        status updates to WMS          Exception Control        Exception Control        Exception Control          transferred to SSI
    Notice is Triggered      (IDD) is posted to       & SSI Claims Exception         writes completed           creates monthly        copies monthly file         Claims Reporting
                                 the SSR                  Control System             claims to daily file    file of transactions      data to zssicpt file         System (SSICR)

                                                                                                                          Filename = zstamps,
                                                      Filename = zstats, which includes all
                                                                                                                          which consolidates one month of zstats
                                                  transactions completed on the given day
                                                                                                                          files




       PM #4                                                             PM #3


                                                                                                  SSICR tabulates % of
                                                                   SSICR calculates
                                                                                                      cases meeting               OIM obtains PM #3           OIM provides PM# 3 to
                                                               processing time for each
  SSICR tabulates                                                                                 performance objective          using the GETSSICR           OFPO for inclusion in
                                                              completed claim & compares
counts for completed                                                                                & places in SSICR             module (Item #304)          Accountability Report
                                                               to performance objective
 claims & places in                                                                                      database
  SSICR Database



                                                          OIM obtains DOWR                                     CAS computes PM
  SSICR transfers          OIM obtains DOWR 8                                                                                             DCA uses PM #4 from
                                                         65 from IWMS using          OIM enters DOWR          #4 by adding DOWR
  counts to IWMS           from IWMS using the                                                                                            CAS (Code #0101) for
                                                            the GETWORK               8 and DOWR 65              8 & DOWR 65
 (Codes #00152 &             GETWORK module                                                                                                    inclusion in
                                                             module (Item                into CAS            (placed in CAS Code
     #00352)                  (Item #00152)                                                                                               Accountability Report
                                                               #00352)                                              #0101)

  DOWR 8 denotes the District
                                                                     DOWR 65 denotes the District
   Office counts for SSI-Aged
                                                                      Office counts for SSI-Aged
    applications (non-welfare
                                                                     applications (welfare reform)
                       reform)
                                                                                                                                                                      End




                                                                                         E-6
                                                      Representative-Payee Process
                                               PM #5: Number of Rep-Payee Actions Processed
                                                                                                                                  Rep-Payee lives in USA
                                                                           Domestic Title II             2A                  Rep-Payee Accounting is initiated          2A
                                                                                                                            with domestic Rep-Payee Acctg Sys


      Begin               Rep-Payee Accounting                            Domestic Title XVI             4A

                                                                                                                           Rep-Payee lives abroad
                                                                                                                           Rep-Payee is audited via
                                                                          International (OIO) Title II
                                                                                                                         Foreign Enforcement process             Stop
Rep-Payee Changes                                                    (Beneficiary or Rep-Payee live abroad)
                                                                                                                           (SSA-7161), which is not
                                                                                                                           included in subject count


                                                                                FO updates RPS                                                    At this point in time, OIM has
                                 SSA decides to                                                                                                   not been given clearance to
                                                         FO conducts           with relevant details
                                investigate Rep-                                                                     Title XVI                    obtain Title XVI summary
                                                         investigation           of investigation
                                    Payee                                                                                                         information via RPS. They
                                                                               using RSEL screen         Title II
                                                                                                                                                  have developed a process to
                                                                                                                                                  utilize Title XVI data from
                                                                                                          1A                                      RPS and project a
                                                                                                                                                  switchover in the near future.

                                                                                   FO Claims             Title II                RPS CICS (RSEL)
                            Rep-Payee Account            Rep-Payee
          Beneficiary/                                                           Representative                                    Screen creates         PEMI reads traffic
                            requires a change of      provides FO CR
          Rep-Payee                                                           changes Rep-Payee                     Title XVI    record in centrally       file to increment
                              information (e.g.,      with new account
           Live in US                                                          information in RPS                                 located traffic file     summary count
                            address, phone, etc)         information
                                                                              using RSEL screen                                      (CT record)

                               All Rep-Payee applicants are included in the final count,
                                                                                                                                      Title XVI
                             even if they are not selected by SSA to be the Rep-Payee
                                                                                                                                                            PEMI transfers
                                                                                    Claims                                                                 summary counts
                             SSA, Beneficiary, or       Rep-Payee                                                                SSA denotes Rep-
                                                                                Representative          SSA reviews case                                      to IWMS
                             Rep-Payee identifies     candidate applies                                                          Payee selection in
                                                                               (CR) enters data         and selects Rep-
                              need to change (or       at Field Office                                                           RPS using RSEL
                                                                                into RPS using               Payee
                               add) Rep-Payee               (FO)                                                                     screen
              1A                                                                 RSEL screen

                                                                                                                                                                  7B
                                                                                   Title II


                                                                               PEMI reads
                                                       WMS copies
                                                                            transactional data          PEMI transfers
                             RPS passes data            relevant
                                                                             in WMS DB and             summary counts            7A
                              on-line to WMS        transactional data
                                                                                calculates                to IWMS
                                                    to WMS Database
                                                                             summary counts



                    Beneficiary or Rep-Payee
                                                                                    6A
                          Live Abroad



                                                                                 E-7
                                                Representative-Payee Process (Continued)

       2A                                                                                                                                          Rep-Payee
                    Title II Accounting                                                                                        Rep-Payee
                                                                                                                                                 desires help w/
                                                                                                                            seeks assistance                         2B
                                                                                                                                                form & takes it to
                                                                                                                           w/ Accounting Form
                                                                                                                                                    local FO


                          Rep-Payee Accounting                                      Rep-Payee Accounting System
CSRETAP reads                                           Rep-Payee Accounting                                              SSA sends              Vendor prints &
                          System reads universe                                    obtains Conserved Fund Amount
 MBR & writes                                            System Eligible Rep-                                            relevant Rep-           distributes Rep-
                          file & determines which                                    from previous accounting (if
universe of Rep-                                         Payees are written to                                         Payee information        Payee Accounting
                            Rep-Payees to target                                   available) from Master Conserved
 Payees to file                                              ROBOT file                                                    to vendor                   forms
                                for accounting                                     Funds File & adds to ROBOT file


                                                            No response from Rep-Payee after 4 months




                           Vendor prints &
SSA sends Rep-                                                                                                         WBDOC estimates
                           distributes 2nd             Rep-Payee         Rep-Payee fills out    WBDOC receives
Payee information                                                                                                       number of forms
                           Notice w/ Rep-           receives & reads     Accounting form &      Rep-Payee form in
to vendor for 2nd                                                                                                      received based on
                          Payee Accounting                form           mails it to WBDOC         Mail Room
     notice                                                                                                                  weight
                                 form
                                                                                                                                                  WBDOC Clerk
       Still no response                                                                                                                            identifies
       from Rep-Payee                                                                                                                             approvals (no      3A
   after 4 additional months                                                                                                                      development
                                                                                 2B                  WBDOC routes                                   needed)
                                                                                                        forms to
                                                                                                      examination                                 WBDOC Clerk
                                                                                                         station                                     identifies
                              Field Office                                  FO Technician                                                         exceptions that    3B
 WBDOC sends                                                                                                                                     should be handled
                              attempts to           Rep-Payee visits      helps Rep-Payee
 special alert to                                                                                                                                   by PCs 1-7
                             contact Rep-             Field Office        fill out Accounting    WBDOC Clerk examines
  relevant FO
                                 Payee                                           Form            forms & sorts based on
                                                                                                  follow-on development                           WBDOC Clerk
                                                                                                       requirements                                  identifies
           Rep-Payee not found                                                                                                                    exceptions that
            or does not respond                                                                                                                  should be handled
         (Total elapsed time 1 year)                                                                                                               by PC 8 (OIO)


                                                       FO Technician clears                                                                       WBDOC Clerk
                                                                                 CICS Accounting           Nightly batch
Rep-Payee Accounting                                     Rep-Payee from                                                                             identifies
                                                                                  screen triggers         removes Rep-
  system clears Rep-                  End               "diary" using CICS                                                       3E              exceptions that     3C
                                                                                 placement of X in       Payee with Xs
Payee from ROBOT file                                   ACCT (Rep-Payee                                                                         can be handled by
                                                                                    ROBOT file          from ROBOT file
                                                       Accounting) Screen                                                                           WBDOC



                                                                                      E-8
                                                    Representative-Payee Process (Continued)

                  WBDOC                   WBDOC                                                                      Scanner
              Technician inputs          Technician         Form is sorted by                                   increments WBDOC
    3A        Conserved Funds              visually         Program Service             Form is scanned          electronic count &             3G
               (CF) values via        determines if form      Center (PSC)                                        logs Rep-Payee
                  FALCON               can be scanned                                                                SSN in file


                                                                                                                    3D

                                                            WBDOC Technician              CICS Acctg screen                                                         Rep-Payee SSN
                                                            clears Rep-Payee             increments WBDOC                                                3F        file sent on-line to
                                           Form can not
                                                            from "diary" using            electronic count &        3G                                                    NCC
                                           be scanned                                                                                      3D
                                                             CICS Rep-Payee             triggers placement of
                                                            Accounting Screen               X in ROBOT file


                   WBDOC                                               WBDOC Technician           CICS Acctg screen                                                 NCC removes
                                                                                                                                             Nightly batch
               Technician inputs                                       clears Rep-Payee           increments WBDOC                                                 Rep-Payees from
                                           WBDOC sorts      PC 7                                                                            removes Rep-
    3B         Conserved Funds                                         from "diary" using          electronic count &         3G                                   ROBOT file based
                                            Form by PC     (ODO)                                                                           Payee with Xs
                (CF) values via                                         CICS Rep-Payee           triggers placement of                                              on SSNs from
                                                                                                                                          from ROBOT file
                   FALCON                                              Accounting Screen             X in ROBOT file                                                   WBDOC

                                                                                                                              3D
                                  PC 1-6
                                                                                           3F
                                                                                                                                                     These steps are shown to clarify how
                   WBDOC                                           Scanner                                                                           the Rep-Payees are cleared from the
                  Technician                                 increments WBDOC                                                                        ROBOT file, but are not explicitly on
                    visually           Form is scanned        electronic count &                    3G                                               the path that the subject data follows
               determines if form                              logs Rep-Payee                                                       3E
                                                                                                          The tabulation is
                can be scanned                                    SSN in file                             based on WBDOC
                                                                                                          electronic counts

                                      WBDOC Technician            CICS Acctg screen           WBDOC tabulates
                                      clears Rep-Payee           increments WBDOC                 count of                           Rep-Payee Accounting
                   Form can not
                                      from "diary" using          electronic count &          Accounting forms                     System writes completed           OSDD sends
                   be scanned                                                                                                      transaction to RSACCOIM          RSACCOIM file to
                                       CICS Rep-Payee           triggers placement of         processed in WB
                                      Accounting Screen             X in ROBOT file               MI Report                           file based on removal          OIM (via LNK)
                                                                                                                                          from ROBOT file

WBDOC subsequently resolves issues w/ Rep-
Payee or sends to PC for further development                             3D
                                                                                            WBDOC provides
                                                                                           WB MI Report to SSA           7C
              WBDOC Technician           CICS Acctg screen                                        OIM                                  PEMI reads
              clears Rep-Payee           increments WBDOC                                                                          transactional data          PEMI transfers
    3C        from "diary" using          electronic count &        3G                                                              in RSACCOIM file          summary counts        7D
               CICS Rep-Payee         triggers placement of X                                                                          & calculates              to IWMS
              Accounting Screen             in ROBOT file                                                                           summary counts
                                                                    The report includes counts for forms
                                                                    that are cleared via both scanner and
                                                                    CICS screen at WBDOC




                                                                                        E-9
                                           Representative-Payee Process (Continued)

                Title XVI Accounting
         4A
                      Between 100,000 to 200,000 are         The date placed in the AR Diary is
                      selected each month                    the 1st of the following month

  SSI Redetermination                                                             SSI Redetermination                                Vendor prints &
                            SSI Redetermination     SSI Redetermination                                     SSA OTSO places
 Merge Run (monthly)                                                                Merge Run sorts                                mails "First Request"
                            Merge Run creates       Merge Run formats                                       print files on tape
selects "First Request"                                                           "First Request" print                                Rep-Payee
                            an "AR" diary in the    "First Request" print                                      cartridges &
  Rep-Payee cases to                                                              records by zip code                               Accounting forms
                             beneficiary's SSR             record                                            sends to vendor
 target for accounting                                                            & writes them to file                              (SSA-623-SM)


                                                    No response from Rep-Payee after 90 days


SSI Redetermination         SSI Redetermination           SSI Redetermination                                   Vendor prints &
                                                                                        SSA sends print
Merge Run (monthly)           Merge Run adds                Merge Run sorts                                     mails "Second          Rep-Payee
                                                                                       files to vendor on                                                Rep-Payee
 selects "Second          -1 Follow-up code to AR        "Second Request" print                               Request" Rep-Payee       receives &
                                                                                      tape cartridges via                                             seeks assistance
Request" Rep-Payee        diary & formats "Second        records by zip code &                                 Accounting forms        reads form
                                                                                              OMBP
      cases                Request" print record           writes them to file                                  (SSA-623-SM)

                                                                                                                                                             Rep-Payee
                                        No response from Rep-Payee after 150 days (total)
                                                                                                                                                           desires help w/
                                                                                                                                                             Accounting
SSI Redetermination Merge        SSI Redetermination                                                                                                            form
Run (monthly) selects "150       Merge Run (monthly)           FO attempts to
 Day Non-response" Rep-          sends 150 Day Non-            contact Rep-             5E
Payee cases & adds "2" to        response list to FOs             Payee
   REPSEL field in SSR            (via secure printer)                                                                                                           5E

                          Rep-Payee not found or does
                          not respond after 10 months                                                                                         WBDOC Clerk
                                                                                                                                                identifies
                                                                                                                                              approvals (no           5A
 SSI Redetermination
                                                                          Rep-Payee fills out       WBDOC receives                             development
 Merge Run (monthly)
                                  End                                     Accounting form &         Rep-Payee form in                            needed)
deletes AR diary from
                                                                          mails it to WBDOC            Mail Room
       record
                                                                                                                                              WBDOC Clerk
                                                                                                                                                identifies
                                                                                                                                             exceptions that          5B
              Approximately 6000 to 8000
                                                                                                                                            should be handled
               are deleted each month
                                                                                                                                               by PCs 1-7
                                           WBDOC estimates                                    WBDOC Clerk examines
                                                                     WBDOC routes
                                            number of forms                                   forms & sorts based on
                                                                    forms to Benefits                                                         WBDOC Clerk
                                           received based on                                   follow-on development                            identifies
                                                                      Notices Area
                                                 weight                                             requirements                             exceptions that          5C
                                                                                                                                            can be handled by
                                                                                                                                                 WBDOC



                                                                                  E-10
                                                Representative-Payee Process (Continued)

              PEOB is a multiple entry screen                                                                         These steps are shown                 RIC = Record
                                                          Transaction Filename = ZDREP4PH.W
               tool developed for WBDOC                                                                                   only for clarity                Identification Code
                                                                                                  Scanner/Lifeworks
                WBDOC                               WBDOC
                                                                                                  System increments                               Transaction file
               Technician           Form        Technician inputs           Form is scanned
                                                                                                  WBDOC electronic                                  sent to NCC
  5A             visually          can be       Conserved Funds              using Scanner/                                    5D
                                                                                                count & writes "SSI PE"                          (Global DASD) via
            determines if form    scanned       (CF) values using          Lifeworks System
                                                                                                 record to transaction                                 FTMS
             can be scanned                       PEOB Screen
                                                                                                          file


                                                                                                                                                                  ZEREPPYE
                                   WBDOC Technician
                                                                                                                                     CICS Screen              Program creates &
                                   enters CF & clears          PEOB CICS Screen
               Form can not                                                                                            5F           creates RIC "O"             formats RIC "O"
                                    Rep-Payee from             increments WBDOC          5D
               be scanned                                                                                                               Record                for each record in
                                   "diary" using PEOB            electronic count
                                                                                                                                                                Transaction file
                                      CICS Screen

                                                                                                5F

                                             WBDOC Technician                                                                    Zenith Program (front           PE Update
                                             enters CF & clears            PEOB CICS Screen                                       end of SSI System)            Program (SSI
              WBDOC sorts          PC 7
  5B                                          Rep-Payee from              increments WBDOC        5D                             funnels RIC "O" files        System) changes
               Form by PC         (ODO)
                                             "diary" using PEOB             electronic count                                    together for use by PE        AR Diary, CF & M
                                                CICS Screen                                                                             Update                 fields on SSR

                 PC 1-6                                                                           5F

                                                                                                                                                           FO Technician helps
                WBDOC                           WBDOC
                                                                                                                                    Rep-Payee visits        Rep-Payee fill out
               Technician          Form     Technician inputs         Form is scanned                                  5E
                                                                                                                                      Field Office          Accounting form
                 visually         can be    Conserved Funds            using Scanner/
            determines if form   scanned     (CF) values via         Lifeworks System                                                                        (SSA-623-SM)
                                                                                          These steps are
             can be scanned                      PEOB                                     shown to clarify how
                                                                                          the Rep-Payees are
                                                                                          cleared from the AR
                                    WBDOC Technician                                      Diary                            FO Technician clears Rep-        PEOB CICS Screen
                                    enters CF & clears                                                                      Payee from "diary" using        creates record in
                Form can not                                  The report includes counts for
                                     Rep-Payee from                                                                        CICS SSI Data Input Screen        centrally located
                be scanned                                    forms that are cleared via both
                                    "diary" using PEOB                                                                    (SPE Screen, formerly Form            traffic file
                                                              scanner and CICS screen
WBDOC subsequently                     CICS Screen                                                                                  1719B)                     (CT record)
resolves issues w/ Rep-
                                                                     5D
Payee or sends to PC for
further development

                                                              WBDOC tabulates                                               PEMI reads traffic         PEMI transfers
            WBDOC Technician
                                     PEOB CICS Screen             count of            WBDOC provides                        file to increment         summary counts        7E
            clears Rep-Payee
  5C                                increments WBDOC          Accounting forms       WB MI Report to SSA         7C          summary count               to IWMS
            from "diary" using
                                      electronic count        processed in WB               OIM
            PEOB CICS Screen
                                                                  MI Report


                                                         5F


                                                                                      E-11
                                               Representative-Payee Process (Continued)
                                                              Rep-Payee applicant can
                                                              also mail in application to
6A   Beneficiary and/or Repayee Live Abroad                    any of these locations.                                   PCACS = Program Center Action Control System
                                                                                                                         ACR = Action Control Record
                                                          DSE = Direct Service Employee
                                                                                                                         TOEL = Type of Event Level

       SSA, Beneficiary,          Rep-Payee                  Embassy,                                           DSE generates         OIO Technician
                                                                                  PC8 DSE reviews                                                            OIO Technician
         or Rep-Payee          candidate fills out        consulate or JAG                                    PCACS ACR with          reviews Rep-
                                                                                     package &                                                                selects Rep-
       identifies need to        application at             Office sends                                      TOEL Code(s) &         Payee application
                                                                                     determines                                                              Payee based on
       change (or add)       embassy, consulate           package to SSA                                       routes package         & compares to
                                                                                  action(s) required                                                          SSA criteria
          Rep-Payee          or military JAG office        PC8 (Baltimore)                                       accordingly         other candidates



                                                                                                                                                                WBDOC sends
             OIO Technician             Object program                OIO sends                                                                       6B       Rep-Payee Form
                                                                                                                           PCACS                                to PC-8 (OIO)
          enters selected Rep-           sends "COS"                package to PC8              OIO Technician
                                                                                                                      increments work
            Payee in RPS (if              (Computer                for storage in file         clears ACR from                                7F
                                                                                                                      count for relevant
           possible) & MBR or          Operations Section)             or further                  PCACS
                                                                                                                        TOEL Code(s)
                  SSR                    Read to PC8                  processing
                                                                                                                                                                OIO determines
                                                      There are approximately 24 object programs that interface with                                           action(s) required
                                                      PCACS. These are tools that allow users to perform various tasks.                                           & prepares
                                                      At this point the TOEL codes are assigned.                                                                PCACS ACR w/
                                                                                                                                                                 TOEL codes
                                                                 Embassy,                                         DSE generates            OIO Technician
       Rep-Payee Account          Rep-Payee fills out                                    PC8 DSE reviews
                                                             consulate or post                                   PCACS ACR with              processes
      requires a change of       relevant document at                                       package &                                                            OIO Technician
                                                             sends package to                                    TOEL Code(s) &             change using
        information (e.g.,       embassy, consulate                                         determines                                                           takes required
                                                                 SSA PC8                                         routes package            relevant object
      address, phone, etc)       or military JAG office                                  action(s) required                                                     action relative to
                                                                (Baltimore)                                        accordingly                program
                                                                                                                                                                 deficient Rep-
                                                                                                                                                               Payee Acctg form



          OIO Technician          Object program             CDDM sends                                                                                         OIO Technician
                                                                                                                   PCACS
             processes             sends "COS"              package to be           OIO Technician                                                             clears ACR from
                                                                                                              increments work
         relevant changes        (Computer Output           stored in file or       clears ACR from                                    7F                          PCACS
                                                                                                              count for relevant
          in MBR, SSR or          System) Read to         further processed             PCACS
                                                                                                                TOEL Code(s)
                RPS                    PC8                by OIO Technician


                                                            CDDM conducts                                                                                           PCACS
                                  OIO determines                                                                                                               increments work
                                                             investigation &                                         PCACS
        SSA decides to           action(s) required                                      OIO Technician                                                        count for relevant
                                                             sends file to be                                   increments work
        investigate Rep-            & prepares                                           clears ACR from                                7F                       TOEL Code(s)
                                                            stored or further                                   count for relevant
            Payee                 PCACS ACR w/                                               PCACS
                                                           processed by OIO                                       TOEL Code(s)
                                   TOEL codes
                                                               Technician
                                                                                                                                                                      7G
                                                                         CDDM=Claims Development
                                                                           and Disability Module


                                                                                  E-12
                                    Representative-Payee Process (Continued)


                              IWMS stores count          OFPO uses SSAMIS                                 OFPO obtains Code
                                                                                      CAS Sums counts
7A         Title II             as IWMS Code              GETDOWR to obtain           and enters in CAS    #0403 for use in
      Rep-Payee Changes        55972 & DOWR             DOWR 15 & enters value                              Accountability
                                                                                        Code #0403
                                 Category 15             in CAS Code #04031                                    Report



                              IWMS stores count          OFPO uses SSAMIS
           Title XVI            as IWMS Code              GETDOWR to obtain                                                   End
7B
      Rep-Payee Changes        72952 & DOWR             DOWR 24 & enters value
                                 Category 24             in CAS Code #04032




                              OIM receives WB MI         OFPO uses SSAMIS to
       Title II & Title XVI                             obtain IWMS 09272 value
7C   Rep-Payee Accounting       Report & enters          (OCRO portion only) &
       WBDOC (OCRO)            counts into IWMS           enters in CAS Code
                                 Code 09272                 #04031 (OCRO)

                                      The WB MI Report includes counts of processed
                                      forms for both Title II & XVI Rep-Payees


                              IWMS stores count           OFPO uses SSAMIS
            Title II            as IWMS Code              GETDOWR to obtain
7D   Rep-Payee Accounting
                               19972 & DOWR             DOWR 6 & enters value in
     Form Cleared via CICS
                                 Category 6               CAS Code #04031



                              IWMS stores count           OFPO uses SSAMIS
           Title XVI            as IWMS Code              GETDOWR to obtain
7E   Rep-Payee Accounting
                               71052 & DOWR             DOWR 7 & enters value in
     Form Cleared via CICS
                                 Category 7               CAS Code #04032



                                  OFPO uses TSO
                                                            OFPO enters values
7F          OIO                 GETPCACS to obtain            into CAS Code
      Rep-Payee Changes       counts from PCACS using             #04031
                               relevant TOEL Code(s)



                                  OFPO uses TSO
                                                            OFPO enters values
7G          OIO                 GETPCACS to obtain            into CAS Code
     Rep-Payee Accounting     counts from PCACS using
                                                                  #04034
                               relevant TOEL Code(s)



                                                                     E-13
                                                            SSN Enumeration Process
                                                     PM #6: Number of SSN Requests Processed
                                                                                                                                                               EAB
                                                                                                                                                                              1A
                                                                                             Exceptions returned to SBVS                                      Report


                                                                                                                                                         MES generates
                                                Mother fills out                                                              MES Performs
                                                                       SBVS provides             SSA Central Office                                       EAB summary
                      Baby is Born in US        forms for State                                                                EAB Edits &
     Start                                                             applicable birth           enters new birth                                      report for States &
                          Hospital              Bureau of Vital                                                             returns exceptions
                                                                     information to SSA            info into MES                                          SSA Office of
                                               Statistics (SBVS)                                                                 to SBVS
                                                                                                                                                           Operations




                                                                      FO Service Rep               MES marks suspect                 MES clears
Applicant Desires                             Field Office Service
                       Request for SSN                               Enters Information          case with "S" & sends it             acceptable
    Original,                                   Representative
                       is made at Field                                into MES Using            to In Process File (IPS)         application to SS-5
Replacement,and/                              Determines Validity
                           Office                                    either "Interview" or         to await resolution or          Pending FIle for
or New SSN Card                                   of Request
                                                                        "Batch Mode"                elapse of 120 days             nightly batch run



                                              Field Office Service      Request for
                                                                                                 MES AESP module
                       Request is made          Representative       Original is denied if             checks               MES AESP module         MES AESP sends
                         via US Mail          Determines Validity    applicant is over 18         ALPHADENT &               writes exceptions to    EAB feedback file
                                                  of Request              years old               verifies/assigns            in-process file          to SBVSs
                                                                                                        SSN
             Denied Request (over 18 years of age)



                                                                                  File is labeled MES.PRD.ESMESMT.RYYMMDD

                                                                       OSDD produces                                                                      OIM FOSSNER system
                                                 MES prepares                                      OIM reads MES             OIM streamlines
  MES queries           MES prepares                                 daily history file with                                                            prepares monthly report with
                                              transaction records                                transaction records         MES transaction
 NUMIDENT to            information to                                transaction record                                                                FO counts for SSN requests
                                                 for each SSN                                        for FO SSN             record(s), retaining
  check SSN           generate SSN Card                                  for each SSN                                                                      recieved, pending and
                                                    request                                            requests                useful data
                                                                            request                                                                             completed




                                        Div. of Service                                                                                     OFPO uses PM #6
 OIM provides                                                                           Div. of Service
                                      Delivery & Program         Access DB                                       DCFAM enters FO              from CAS for
  monthly and                                                                         Delivery & Program
                          1A          Policy enters EAB         produces YTD                                      and EAB counts                inclusion in
cumulative YTD                                                                        Policy provides data
                                       data into Access        counts of EABs                                        into CAS                 Accountability
totals toOFPO                                                                             to DCFAM
                                              DB                                                                                                  Report



                                                                                                                                                   End                   10/15/99
                                                                                               CAS = Cost Analysis System                                                04:28 PM

                                                                                       E-14
                                                                 Posted Earnings Process
                                        PM #7: Total Number of Annual Earnings Items Posted
                            PM #8: Percentage of Earnings Posted to Individual Records by September 30th

                                                      Employer
        Start                                      Information sent
                                                  directly to NCC via
                                                   Submitter Direct


                 Employer sends
                 W-2s & W-3s to                  WBDOC receives,
                      SSA                        edits, and balances
                                                    Paper W-2s



                                                                                               File Control formats   File Control opens                            ERMS Merge
                                                  OCRO receives,                                                                                SSN/Name
                                                                        Data is sent to File      raw data into         records on the                             process reunites
                                                  magnetic media                                                                             Validation Process
                                                                         Control at NCC          common format         Employer Control                             W-2 and W-3
                                                     W-2s                                                                                    with NUMIDENT
                                                                                                     records          Data Base (ECDB)                                information




  Self Employed (SE)        IRS provides SE
                                                 SE Data is received
  Individuals send tax       data to SSA via
                                                    and edited
     return to IRS          direct connection




                                                  ERMS Dispatcher                                VA PrePosting
                         ERMS Edit/Balance                                 ERMS Data                                    ERMS (MEF              ERMS (MEF
                                                  process evaluates                             Process creates
    Mag Correction        process performs                              Exchange process                               Update process)       Update process)
                                                   error codes and                             MEF File (EPDES)
      Process              edits, validations                           produces all major                              performs edit        posts Individual's
                                                   directs records                              & Suspense File
                            and balances                                earnings interfaces                               checks             earnings to MEF
                                                     accordingly                                    (SCIR)




                                   OSDD Obtains                                                           Division of Cost     Values for PMs in
   OSDD Obtains No. of            Estimated No. of                                                         Analysis takes      CAS Code #0702
                                                            OSDD provides         PMs are processed
  Earnings Posted by 9/30      Earnings Posted for year                                                  IWMS output and        are entered into             End
                                                            OFPO with PMs          through IWMS
  from ERMS via EPOXY          from ORES, & corrects                                                     enters values into      Accountability
                                   with OSR data                                                          CAS Code#0702             Report



10/15/99
                                                                                                                                                                   Sheet 1/1
03:48 PM
                                                                                  E-15
                                                                           SIPEBES Process
                            PM #9: Percent of Individuals Issued SSA-Initiated PEBES as Required by Law

                                             Also called "NUMIDENT Sweep", the NUMIDENT Update system                                                                 The units within
                                                                                                                     The files are divided by segment and are
                                             was designed to perform this operation quarterly, but it has been                                                        GESS are labeled
                                                                                                                     titled SIPEBNUM.S01-S20.RYYMMDD.
                                             done annually since FY 95.                                                                                               as GExxxxx.


                               "NUMIDENT Merge"                                                           "NUMIDENT Merge"
                                                               "NUMIDENT Merge" operation                                                              GETERMAT (weekly)
                                operation sweeps                                                         operation writes eligible
                                                               checks PEBES History File and                                                        reads audit file to determine
      Begin                 NUMIDENT DB & drops                                                            clients into files for
                                                              drops clients that have previously                                                        which segment(s) of
                           clients that are deceased or                                                  processing by GESS &
                                                                     received a PEBES                                                                eligible clients to process
                           outside of the age brackets                                                   provides counts to OIM




                              Pending claims are tracked in a file titled "PENDPEBS". The subsequently                    The audit file allows OSDD to control the
                              merged file is titled "SIWEEKLY.SELECT.RYYMMDD"                                           number of segments processed each week


                 GETERMAT                                                GETERMAT checks WMS
                                      GETERMAT reads MBR &                                                   GETERMAT                                              GETERMAT sends
              merges SIPEBES                                              & SSACS to determine if                                      GETERMAT
                                      screens out clients that are                                         checks to see if                                     address requests to IRS
 1A              records with                                             client has pending claim;                                  provides process
                                       receiving benefits or are                                          client lives in a US                                 via NDM & creates control
              previously pending                                         such cases are transferred                                   counts to OIM
                                         RIC X record holders                                             Territory (PR or VI)                                            file
               SIPEBES claims                                              to the pending claim file


                                              Pending claim
                                                                                                                                 NDM = Network Data Mover
                                                    Client lives in a US Territory


   GETERMAT
obtains addresses
                                                                                GEIRSMAT                                              GEIRSMAT rechecks
from SSA Territory                                   IRS obtains                                        GEIRSMAT writes
                                                                              (weekly) matches                                       PEBES history file and             GEIRSMAT
   Address File                                  available addresses                                   unmatched records to
                                                                             records from IRS &                                      drops clients that have          provides process
                                                and returns to SSA via                                   file for return to
                                                                                 drops blank                                         previously received any           counts to OIM
                                                        NDM                                                GETERMAT
                                                                                  addresses                                              type of PEBES


               The address request goes out on Tuesday
                                                                                                                   Unmatched
              evening and the IRS returns the data by the                   1B                                                             1A
                                                                                                                     record
                             following Monday morning




                                                                                                 GEKEYSER
                GEKEYSER (daily)                                     GEKEYSER sends                                     GEKEYSER performs           GEKEYSER provides
                                         GEKEYSER reads                                        checks MULTEX
                 merges mailing                                        "MEF Finder"                                      edit checks & writes        file of consolidated
                                            ORPEBES                                              file for known                                                                     2A
                 addresses with                                       Request to MEF                                         rejections or          input transactions to
                                           transactions                                        multiple account
                  transactions                                         Nightly Search                                     exceptions to file                 OIM
                                                                                               numbers (SSNs)

 10/15/99
 04:13 PM                                                                                                                                                                                Sheet 1/3
                                                                                        E-16
                                                            SIPEBES Process (Continued)

                                                                                                                                             GEPEBCON (daily)
                    GEPEBFUL (daily) reads in             GEPEBFUL performs edit             GEPEBFUL extracts SSNs for
                                                                                                                                             establishes records
                    PEBES input, MEF records,              checks and writes valid            pending claims from SSACS
2A                                                                                                                                             for new PEBES
                  exception feedback from OCRO,         records to output file (sorted &     and WMS and writes to files for
                                                                                                                                             requests on PEBES
                   & NUMIDENT verification data           fanned into 20 segments)               input to GEPEBCON
                                                                                                                                                 Master File




                                                                                                                                                                First day
                                                                             Pending claim                1A                                                                       2A
                                                                                                                                                             in Master File


                                 GEPEBCON matches                                                                         GEPEBCON
     GEPEBCON rechecks                                             GEPEBCON                 GEPEBCON drops                                      GEPEBCON generates
                                PEBES records against                                                                       processes
     MBR and drops clients                                      transfers currently          previously pending                                "NUMIDENT verification
                                SSNs for pending claims                                                                 previously pending
       that have gone to                                         pending claims to         claims that have gone                                  finder" to look for
                               in WMS & SSACS extract                                                                    claims that have
         benefit status                                            circulating file             to pay status                                       multiple SSNs
                                         files                                                                             been denied

                                                                                                                                                                  Exception        1B
                                                                       After first day in Master File


                                    GEPEBCON
                                                              GEPEBCON prepares                    GEPEBCON                      GEPEBCON                   GEPEBCON
     GEPEBCON matches            generates additional
                                                             OCRO request for relevant          processes replies to          processes OCRO            transfers exceptions
     MEF data to PEBES            "MEF Finder" for
                                                               old-start data or wage          previous NUMIDENT                feedback from               to Exception/
        Master record           records that have not
                                                                adjustment records               verification finders        previous exceptions           Completion File
                                      arrived




                                                                                                                                      GESAFEAL (daily)
                                                                                 GEGATHER                GEGATHER sends
       GEPEBCON               GEPEBCON            GEPEBCON writes                                                                      sends completed                 GESAFEAL
                                                                                 (daily) routes         file of PEBES counts
      checks insured            performs          completed PEBES                                                                          PEBES                     updates PEBES
                                                                                 GEPEBCON                       to OIM
          status              computations          to output file                                                                   transactions to print             history file
                                                                                    output                     via NDM
                                                                                                                                          contractor




                               MIPEBES generates
      OIM enters GESS                                       OIM uses WP Macro to                                           OCOMM Provides
                              "PSIW01" report with                                           OCOMM obtains
       data & annual                                         convert PSIW01 report                                       Performance Measure to
                             annual SIPEBES targets                                          data from EMIS &                                                                 3A
     NUMIDENT merge                                         to .PDF format & places                                       OFPO for inclusion in
                              & weekly, MTD & YTD                                            computes PM #9
     data into MIPEBES                                         on EMIS (intranet)                                         Accountability Report
                                     counts

               The input file from GESS is titled
               "LNK.P6909.OIMCOUNT.PEBCON.R&RUNDATE"
10/15/99
04:14 PM                                                                                                                                                                                Sheet 2/3
                                                                                      E-17
                                                           SIPEBES Process (Continued)


3A




                                                                                      Contractor verifies   Contractor verifies
          Print Management         Print Management             Contractor verifies
                                                                                      PEBES addresses         PEBES using
       obtains daily counts from    faxes transaction          counts received via                                                 Contractor sorts
                                                                                      using the National    Coding Accuracy
        CLM.GE.PEBES.GE            counts to contractor        fax vs. counts rec'd                                               PEBES by zip code
                                                                                      Change of Address      Support System
        COUNTS file in GESS              (Daily)                     via tape
                                                                                           System               (CASS)




                                                                                         Undelivered
        Postal Service              US Postal Service             Mail routed to                               Undelivered          Undelivered
                                                                                      PEBES returned to
       weighs PEBES at             provides verification         relevant postal                               PEBES are             PEBES are
                                                                                       Office of Central
        contractor site             of counts to SSA               stations for                             weighed to estimate     destroyed by
                                                                                      Operations (Metro
            (Daily)                      (Daily)                   distribution                                   count              shredding
                                                                                            West)




              End




10/21/99
02:29 PM                                                                                                                                           Sheet 3/3


                                                                                                     E-18
